<html>
<title> - BORDER SECURITY ON FEDERAL LANDS</title>
<body><pre>[House Hearing, 109 Congress]
[From the U.S. Government Printing Office]




 
                   BORDER SECURITY ON FEDERAL LANDS

=======================================================================

                        OVERSIGHT FIELD HEARINGS

                               before the

                         COMMITTEE ON RESOURCES
                     U.S. HOUSE OF REPRESENTATIVES

                       ONE HUNDRED NINTH CONGRESS

                             SECOND SESSION

                               __________

            Saturday, August 5, 2006, in Santee, California
             Monday, August 28, 2006, in Hamilton, Montana

                               __________

                           Serial No. 109-60

                               __________

           Printed for the use of the Committee on Resources



  Available via the World Wide Web: http://www.gpoaccess.gov/congress/
                               index.html
                                   or
         Committee address: http://resourcescommittee.house.gov


                                 ______

                    U.S. GOVERNMENT PRINTING OFFICE
29-470                      WASHINGTON : 2006
_____________________________________________________________________________
For Sale by the Superintendent of Documents, U.S. Government Printing Office
Internet: bookstore.gpo.gov  Phone: toll free (866) 512-1800; (202) 512�091800  
Fax: (202) 512�092250 Mail: Stop SSOP, Washington, DC 20402�090001

                         COMMITTEE ON RESOURCES

                 RICHARD W. POMBO, California, Chairman
       NICK J. RAHALL II, West Virginia, Ranking Democrat Member

Don Young, Alaska                    Dale E. Kildee, Michigan
Jim Saxton, New Jersey               Eni F.H. Faleomavaega, American 
Elton Gallegly, California               Samoa
John J. Duncan, Jr., Tennessee       Neil Abercrombie, Hawaii
Wayne T. Gilchrest, Maryland         Solomon P. Ortiz, Texas
Ken Calvert, California              Frank Pallone, Jr., New Jersey
Barbara Cubin, Wyoming               Donna M. Christensen, Virgin 
  Vice Chair                             Islands
George P. Radanovich, California     Ron Kind, Wisconsin
Walter B. Jones, Jr., North          Grace F. Napolitano, California
    Carolina                         Tom Udall, New Mexico
Chris Cannon, Utah                   Raul M. Grijalva, Arizona
John E. Peterson, Pennsylvania       Madeleine Z. Bordallo, Guam
Jim Gibbons, Nevada                  Jim Costa, California
Greg Walden, Oregon                  Charlie Melancon, Louisiana
Thomas G. Tancredo, Colorado         Dan Boren, Oklahoma
J.D. Hayworth, Arizona               George Miller, California
Jeff Flake, Arizona                  Edward J. Markey, Massachusetts
Rick Renzi, Arizona                  Peter A. DeFazio, Oregon
Stevan Pearce, New Mexico            Jay Inslee, Washington
Henry Brown, Jr., South Carolina     Mark Udall, Colorado
Thelma Drake, Virginia               Dennis Cardoza, California
Luis G. Fortuno, Puerto Rico         Stephanie Herseth, South Dakota
Cathy McMorris, Washington
Bobby Jindal, Louisiana
Louie Gohmert, Texas
Marilyn N. Musgrave, Colorado
Vacancy

                     Steven J. Ding, Chief of Staff
                      Lisa Pittman, Chief Counsel
                 James H. Zoia, Democrat Staff Director
               Jeffrey P. Petrich, Democrat Chief Counsel


                                 ------                                

                            C O N T E N T S

                              ----------                              
                                                                   Page

Hearing held on Saturday, August 5, 2006.........................     1

Statement of Members:
    Bilbray, Hon. Brian, a Representative in Congress from the 
      State of California........................................     3
    Pearce, Hon. Stevan, a Representative in Congress from the 
      State of New Mexico........................................     1

Statement of Witnesses:
    Borchard, Steve, District Manager, California Desert 
      District, Bureau of Land Management, U.S. Department of the 
      Interior...................................................     6
        Prepared statement of....................................     8
    Ingram, Christopher John, Vice President, Gulf South Research 
      Corporation................................................    14
        Prepared statement of....................................    15
    Keeler, Judy, Co-Owner, Keeler Ranches, Animas, New Mexico...    20
        Prepared statement of....................................    23
    Manjarrez, Victor, Deputy Chief Patrol Agent, Office of 
      Border Patrol, U.S. Customs and Border Protection, 
      Department of Homeland Security............................    11
        Prepared statement of....................................    12
    McGarvie, James, Vice President, Off-Road Business 
      Association................................................    28
        Prepared statement of....................................    30
    Nassif, Hon. Thomas A., President and CEO, Western Growers...    31
        Prepared statement of....................................    33
    Powers, Carolyn E., Spokesperson/Historian, Tijuana River 
      Valley Equestrian Association, Jamul, California...........    16
        Prepared statement of....................................    17

Additional materials supplied:
    Watson, Muriel, Bonita, California, on behalf of LIGHT UP THE 
      BORDER, Statement submitted for the record.................    37
                                CONTENTS

                              ----------                              
                                                                   Page

Hearing held on Monday, August 28, 2006..........................    59

Statement of Members:
    Rehberg, Hon. Dennis R., a Representative in Congress from 
      the State of Montana.......................................    62
    Tancredo, Hon. Thomas G., a Representative in Congress from 
      the State of Colorado......................................    60
        Prepared statement of....................................    61

Statement of Witnesses:
    Copp, Jeffrey, Special Agent in Charge, Denver, Colorado, 
      U.S. Immigration and Customs Enforcement, U.S. Department 
      of Homeland Security.......................................    72
        Prepared statement of....................................    73
    Dusterhoff, Wayne, Sheriff, Glacier County Sheriff's Office, 
      Cut Bank, Montana..........................................    87
        Prepared statement of....................................    89
    Harris, Robert, Chief Patrol Agent, Spokane Sector, U.S. 
      Customs and Border Protection, Spokane, Washington.........    78
        Prepared statement of....................................    80
    House, Jeremy, Detective Sergeant, Billings Police 
      Department, Billings, Montana..............................    93
        Prepared statement of....................................    94
    Kimbell, Abigail, Regional Forester, Northern Region, USDA 
      Forest Service.............................................    64
        Prepared statement of....................................    66


 OVERSIGHT FIELD HEARING ON BORDER SECURITY ON FEDERAL LANDS: WHAT CAN 
       BE DONE TO MITIGATE IMPACTS ALONG THE SOUTHWESTERN BORDER.

                              ----------                              


                        Saturday, August 5, 2006

                     U.S. House of Representatives

                         Committee on Resources

                           Santee, California

                              ----------                              

    The Committee met, pursuant to call, at 10:00 a.m., in the 
Auditorium, West Hills High School, 8756 Mast Boulevard, 
Santee, California, Hon. Stevan Pearce [member of the 
Committee] presiding.
    Present: Representatives Radanovich, Pearce.
    Also Present: Representative Bilbray.

 STATEMENT OF THE HONORABLE STEVAN PEARCE, A REPRESENTATIVE IN 
             CONGRESS FROM THE STATE OF NEW MEXICO

    Mr. Pearce. The hearing will come to order. Before we 
start, we would like you all to join us in the pledge that is 
going to be led by Muriel Watson who is the founder of Light Up 
the Border and a true pioneer in immigration reform.
    [Pledge of Allegiance.]
    Mr. Pearce. Before we get started, just a comment that 
today's hearing is a formal House hearing and, as such, there 
will be no testimony from the floor. We will accept written 
statements that will go into the official record but today we 
will concentrate on our panel and the panelists and the 
questions from the Members here.
    I would like to say thanks to The Honorable Duncan Hunter 
for graciously hosting this hearing. As everyone knows, 
Representative Hunter has been a strong and effective advocate 
for border security.
    On today's Congressional panel we have Mr. Bilbray from 
Southern California and then also Mr. Radanovich is on his way 
from the airport as his plane was delayed coming out of L.A. 
but he will join us. We should have a good hearing.
    I have heard the comments from many saying that we are just 
having 27 hearings on immigration nationwide to draw attention 
away from something. For myself, I think we are doing the 
people's business. A year and a half ago I did 18 townhall 
meetings on immigration throughout the 2nd District of New 
Mexico that I serve in. We did 20 townhalls on Social Security.
    We went in senior citizen centers and talked to them about 
that. I did another 18 on the Medicare reform bill. For me this 
process is one that is very important. The only thing that I 
ask is why do we only have 27 of the hearings because I have 
been having 18 to 20. This past week I did eight townhall 
meetings on methamphetamines.
    The problem is being exacerbated by an open border, and we 
will do another seven, eight, or nine of those next week. I am 
constantly doing these, and allegations that we are simply 
doing these for political reasons just don't have much standing 
or bearing.
    We would like to additionally set the context for this 
hearing today by quoting former Secretary of the Interior Gale 
Norton who said that while the primary responsibility for 
border security rests with the Department of Homeland Security, 
the Department of Interior agencies have an obligation to 
protect natural resources and agency facilities.
    As the Congressional committee that has oversight for the 
Department of the Interior, we also have an obligation to 
ensure America's Federal lands are not destroyed by the traffic 
that is crossing the border illegally. For decades illegal 
immigrants have crossed into the United States by the vast 
Federal lands along the southwestern border that encompasses 
California, Arizona, New Mexico, and Texas. The ``conduits'' 
created by this illegal immigration have endangered these 
national treasures and put lives in danger.
    Notwithstanding the efforts by the Administration to deal 
with this tide of people crossing into the U.S. via Federal 
lands, the problems associated with illegal immigration 
continue to plague our National Parks, National Forests, 
Wilderness Areas and BLM lands. Trash, fires, abandoned 
vehicles and other debris still ravage the Federal lands.
    As the Chairman of the National Parks Subcommittee, I 
visited a couple of months ago the Sequoia National Park in 
California and saw the marijuana groves that are growing inside 
our national park. Sometimes we are finding booby traps on the 
trails leading up to the areas that are infested with the 
illegal drugs that are being grown right there in our parks.
    Tomorrow I am going to visit the Oregon Pipe National 
Monument in Southern Arizona where a fatality occurred four 
years ago with one of our rangers who was shot by an AK-47. 
One-third of that park has simply been decommissioned because 
of the illegal traffic that is coming across the border. Thus, 
it is clear that securing these borders is job one.
    In the past, some have suggested that border security and 
sound stewardship of Federal lands were a mutually exclusive 
concept. For example, there was much consternation about the 
environmental impacts of border security measures here in San 
Diego County. Evidently the environmental doomsday scenario 
never materialized and, moreover, the security measures have 
vastly improved the lands they protect. Using environmental 
scare tactics to prevent secure borders is, at the very least, 
irresponsible.
    This brings me to the point of this hearing. Today we are 
hearing about solutions. It is important for the Committee to 
hear what border security measures will be put in place as well 
as their benefits to all those who depend on Federal lands for 
their livelihood and recreation. The key to implementing these 
solutions is the legislation that ultimately passes Congress 
and is signed into law.
    It is at this point where the House and the Senate depart 
ways. We passed a bill in the House that is primarily designed 
for border security leaving the two other issues of both legal 
and illegal immigration literally to be solved at a later date. 
The Senate took a different approach and brought in a bill that 
said we are going to try to solve the three aspects--border 
security per se, illegal immigration, and legal immigration. I 
don't think that we can do all three at one time.
    Having said that, being one of the people on the Homeland 
Security Committee primarily responsible for the House border 
security bill, my office wrote much of that bill. I am the only 
member of the House Homeland Security Committee that is on the 
southern border. I understand the issues, I think, more than 
most.
    Having gotten a very good bipartisan bill out of the House 
when it got to the Floor, the Judiciary Committee Chairman 
added three provisions which I thought detracted from the bill 
so I voted against the bill, one of about 50 Republicans to 
vote against that bill when it came to the House. I know there 
are things that we can and should do to that bill to make it 
more acceptable. As far as my perspective, we need to secure 
the border first, stop the problem from getting worse, and then 
take a quiet, patient look at how to unravel the problem of 15 
to 30 million illegals who are here right now understanding 
that there is not one single solution that will affect all.
    We are happy to have you all here today to listen to the 
discussion about the issues which our panel will testify on. 
Now I would like to recognize Mr. Bilbray for an opening 
statement.
    I am cautioned to remind you that in formal Congressional 
hearings, which this is one, we encourage no applause on either 
side. It tends to enliven some and scare some. We are just here 
trying to get the facts and I appreciate that but if you would 
refrain it would facilitate my relationship with my bosses who 
want us to keep these things on formal terms.
    Mr. Bilbray, thank you.

 STATEMENT OF THE HONORABLE BRIAN BILBRAY, A REPRESENTATIVE IN 
             CONGRESS FROM THE STATE OF CALIFORNIA

    Mr. Bilbray. Thank you very much, Mr. Chairman. I want to 
thank you for having this hearing here in San Diego. This is 
actually the third hearing here in our community. Some people 
may say why is San Diego having so many hearings. I think it is 
quite appropriate as somebody who is born and raised along the 
frontera. Those of us in San Diego have known for a long time a 
lot about the impacts of illegal immigration and have been 
rather frustrated with our fellow countrymen in Washington at 
being so naive as not to see what we see every day in our 
neighborhood.
    I think it is quite appropriate that San Diego is the 
source of many of these hearings and that we are able to 
finally now tell the story, the very tragic story of the 
neglect of the Federal Government in enforcing our immigration 
policies and protecting our neighborhoods here in San Diego.
    This hearing specifically talks about the impact on the 
environment, something that San Diegans are very sensitive to. 
It places huge burdens on us and our community to try to 
maintain our environment and then to have the Federal 
Government look the other way while those violating our 
national immigration laws destroy what we hold very precious in 
our natural environs is unacceptable.
    Mr. Chairman, there are certain issues that I think we need 
to look out for and that is the history that we have seen along 
the border. Border Patrol agents will remember the days before 
Mr. Hunter built the fence when agents would catch illegals in 
Imperial Beach Sector with endangered least tern eggs in their 
pockets because they were going to eat them for breakfast. They 
didn't know any better but in an area where it was illegal for 
an American citizen to even walk, thousands of illegals were 
going through and destroying the habitat.
    I remember the issue of the least Bell's vireo in the 
Tijuana Valley itself. There was a time before the temporary 
fence was built, as Ms. Powers will point out, that all our 
horse trails went north and south because the smugglers and the 
coyotes were cutting the trails at night in an area that 
equestrians were told they weren't allowed to ride in, but it 
was estimated tens of thousands of people were traipsing across 
all evening.
    The fact is that when I authored a bill to create a 
wilderness area on Old Time Mountain, there were people in the 
environmental community in Washington and the Interior 
Department that were appalled at the fact that I had roads 
going through a wilderness area. In fact, I remember the 
national Sierra Club strongly saying that this would destroy 
the entire concept of a wilderness area and they strongly 
opposed it.
    Gratefully, the local Sierra Club, who knew what needed to 
be done to protect the environment, supported my bill with the 
roads. In fact, I remember the Secretary of the Interior under 
Clinton actually flew out and was going to make a strong stand 
against the roads until he saw the absolute destruction caused 
by illegal immigration and completely reversed himself.
    To this day, the Otay Wilderness Area has roads and 
helicopter pads because the immigration issue is so tough and 
so bad that it is essential to protect the environment. We have 
had to change the rules on things like wilderness and have 
those roads and those pads in there.
    I would have to say, too, Mr. Chairman, that one thing I 
cannot go without bringing up and that is the fact that the 
impacts are not just along the border that degrade our 
environment. The neighborhoods and the canyons that we have 
preserved in San Diego County as part of being a San Diegan to 
stop the wall-to-wall urban sprawl that I have seen our 
neighbors to the north in the Los Angeles basin accept. San 
Diegans want to keep open space. The trouble is with illegal 
immigration these open spaces have been an open invitation to 
set up housekeeping in what we call spider holes.
    Those spider holes, those illegal dwellings in our open 
space, in our wildlife preserves have created not only major 
damage to the environment but is a major threat to the citizens 
that live adjacent to those areas. I think you will see when we 
talk about what just happened this week with the massive fire 
that occurred and it has occurred historically over a long 
period of time because of the lack of control at our border.
    These are all issues that we hope you are able to take back 
to Washington to show that the immigration issue is not just an 
issue of people breaking the laws, not just the issue of people 
gaining benefit by hiring illegals. It is also an issue of 
destroying those things that the Federal Government has thought 
so important that we are willing to go in and restrict private 
property rights. However, are we willing to control our 
national sovereignty to be able to protect that?
    Again, thank you very much for this. I look forward to 
asking questions specifically on issues like why are people 
still living in our neighborhoods knowing they are there and 
what is the Federal Government doing about going and getting 
them. Why are we having people that are living illegally in 
canyons and then going up to the Home Depot unable to stand on 
the street corner at the Home Depot.
    People in my district are saying why isn't anybody at least 
checking those documents because they see that those people 
being hired at the Home Depot are the ones who are living in 
the canyons in the open space and we need to get to those 
sources to be able to protect our environment.
    Thank you, Mr. Chairman. I yield back.
    Mr. Pearce. I thank the gentleman.
    Mr. Radanovich will be joining us very shortly. He is en 
route from the airport. As we discuss this issue, it is 
important to remember that in Washington we have a saying, ``If 
it ain't broke, fix it until it is.''
    I would like for you to all know who our panelists are 
today. First of all, to discuss the impacts of the Department 
of Interior lands is Steve Borchard, District Manager of the 
California Desert District, Bureau of Land Management. Thank 
you for being here today.
    To talk about the interaction of border enforcement and 
resource management agencies is Victor Manjarrez, the Deputy 
Chief Patrol Agent, U.S. Customs and Border Protection, 
Department of Homeland Security.
    Mr. Chris Ingram, the Vice President of Gulf South Research 
Corporation, has confirmed that he will be here. He was on 
vacation. I suspect negotiations with his wife took the same 
turn mine would if I were leaving vacation to do something like 
this.
    We have Carolyn Powers, an equestrian and a member of the 
Tijuana River Valley Equestrian Association, who is going to 
discuss why border security measures on Federal land can be 
beneficial for those who use these lands for recreation. She 
joins us from nearby Jamul, California.
    From the District of Southern New Mexico that I represent 
we have Judy Keeler who is the owner of Keeler Ranches and she 
discusses the issues that our constituents in the wide-open 
rural spaces of New Mexico see every day.
    Jim McGarvie is going to tell us how the off-road vehicle 
community has been negatively impacted by the effects of 
illegal immigration on Federal land, particularly the BLM land.
    And Ambassador Thomas Nassif, President of the Western 
Growers Association, will offer his perspective on ways illegal 
immigration can be slowed thus taking the burden off the 
Federal lands along the border.
    We will go ahead and start hearing the panelists now with 
Mr. Borchard. I would just bring to mind we will put your 
entire written statement in. The lights here are just like the 
lights on the freeway. Green means go, yellow means go faster, 
and the red one means to stop. If you all would confine your 
comments to five minutes and then we will put the entire 
written testimony in. That way we have time for questions and 
answers.
    Thank you very much, Steve. Appreciate you being here 
today.

   STATEMENT OF STEVE BORCHARD, DISTRICT MANAGER, CALIFORNIA 
           DESERT DISTRICT, BUREAU OF LAND MANAGEMENT

    Mr. Borchard. Mr. Chairman and members of the Committee, 
thank you for the opportunity to appear here today to discuss 
border security on Federal lands and how we can mitigate 
impacts of illegal immigration on Bureau of Land Management 
managed lands in California. I am the District Manager for the 
California Desert District, and am responsible for the 
management of nearly 11 million acres of public land in 
southern California.
    I would begin by pointing out that the Administration 
supports comprehensive immigration reform that increases border 
security, establishes a robust interior enforcement program, 
creates a temporary worker program, and addresses the problem 
of the estimated 11 to 12 million illegal immigrants that are 
already in the country. The range of activities on the public 
lands managed by the Bureau of Land Management is extremely 
diverse and requires the agency to balance multiple and 
potentially conflicting uses while protecting sensitive 
resources.
    Given the proximity of many of these lands to the 
international border and the environmental degradation caused 
by illegal immigration across these lands, border security 
plays a critical role in helping us manage and protect these 
valuable resources. Many activities associated with illegal 
immigration can have a dramatic impact on public lands 
including immigrant trails, trash, abandoned vehicles, human 
waste, and wildland fires started by immigrant campfires.
    When Operation Gatekeeper began pushing illegal immigration 
eastward in 1994, the fragile resources of Otay Mountain were 
at great risk. By 1999 Representative Brian Bilbray had helped 
create the Otay Mountain Wilderness Area crafting legislation 
that balanced the important wilderness values with a need for 
law enforcement and border interdiction efforts.
    Beginning in the late '90s, the combined efforts of the 
Border Patrol, BLM, and other resource and law enforcement 
agencies resulted in a decrease in illegal immigration here in 
California. However, in the past three years those numbers have 
once again risen due to improved border infrastructure and 
security in our neighboring states.
    Today the threats to public lands and the California border 
are escalating. We have found that working partnerships offer 
the most effective tool for mitigating the impacts to public 
land resources along the California border. As a result, BLM 
and California has increased its collaborative efforts by 
working with a multitude of agencies to provide for a more 
secure border and protection of natural resources.
    Wildfires caused by illegal immigrant campfires and the 
resulting emergency fire suppression and law enforcement 
activities are clearly a threat to public land users and 
resources. In response to this threat the 42-member Border 
Agency Fire Council was established to address the dual mission 
of border security and national resource management. This group 
represents local, state, and Federal Government entities as 
well as representatives from the Republic of Mexico.
    The BLM produced bilingual educational videos and public 
service announcements focusing on campfire safety for 
distribution to media, schools, and public institutions in both 
the U.S. and Mexico.
    Another very effective partnership in which we participate 
is the Border Land Management Task Force. The Task Force brings 
together state, Federal, and local government agencies to 
address issues along the border in California including 
environment impacts of cross-border traffic, Border Patrol 
access and infrastructure, and public and employee safety 
concerns.
    The group has been instrumental in expediting the 
installation of roads, vehicle barriers, and remote cameras 
along the border all of which serve to mitigate resource 
impacts and assist the border patrol in carrying out their 
important mission.
    The BLM and the U.S. Border Patrol meet regularly to 
coordinate management decisions that might affect border 
operations taking into consideration such concerns as travel 
routes, species habitat, and wilderness issues. Border Patrol 
agents receive resource protection training jointly developed 
by BLM and other resource management agencies.
    This training will also be provided for National Guard 
members joining in the border security effort.
    BLM law enforcement closely coordinates with San Diego and 
Imperial County Sheriff's Department. The BLM law enforcement 
officers conduct routine patrols to safeguard BLM employees and 
visitors to the public lands, and to protect BLM managed 
natural resources and cultural resources. Their presence also 
serves as a deterrent to illegal immigration.
    Another very important collaborative effort to address 
border security and resource management is the Department of 
the Interior's Border Field Coordinating Committee made up of 
representatives from all over the Department of the Interior 
agencies, as well as the Office of the Secretary.
    The Field Coordinating Committee addresses resource 
protection and sustainable development in the border region and 
has made significant progress cooperating with Mexican 
officials to mitigate resource damages and protect natural and 
cultural resources.
    In conclusion, border security is extremely important in 
managing natural and cultural resources on public lands, and 
protecting the safety of public land users. In southern 
California, it is a shared responsibility and the BLM continues 
to work collaboratively with a broad diversity of partners and 
in cooperation with our Congressional delegation to provide 
appropriate support to border security activities that assist 
in meeting our resource protection mandate.
    Thank you for the opportunity to present testimony before 
the Committee today and I would be happy to answer any 
questions.
    Mr. Pearce. Thank you very much. The staff just pointed out 
that I failed to do the process our Resources Committee always 
does and that is to swear in the witnesses so, Mr. Borchard----
    Mr. Bilbray. You will have to give your testimony all over 
again.
    [Laughter.]
    Mr. Pearce. No, you will have to swear in the past tense. 
If I could get you all to stand with me.
    [Witnesses sworn.]
    Mr. Pearce. Let the record reflect that the witnesses have 
answered in the affirmative. You can take your seats.
    As you all can see in the audience, Mr. Ingram did join us. 
He was here all along actually. I appreciate your dedication to 
duty. I question your judgment. We will discuss domestic 
tranquility questions after the hearing.
    [The prepared statement of Mr. Borchard follows:]

   Statement of Steve Borchard, District Manager, California Desert 
  District, Bureau of Land Management, U.S. Department of the Interior

    Mr. Chairman and members of the Committee, thank you for the 
opportunity to appear here today to discuss the importance of border 
security on Bureau of Land Management (BLM)-managed Federal lands in 
California. I would first like to point out that the Administration 
supports comprehensive immigration reform that increases border 
security, establishes a robust interior enforcement program, creates a 
temporary worker program, and addresses the problem of the estimated 11 
to 12 million illegal immigrants already in the country.
    I am the District Manager, California Desert District, and am 
responsible for the management of nearly 11 million acres of public 
land in the southern California counties of Imperial, Inyo, Kern, Los 
Angeles, Orange, Riverside, San Bernardino, and San Diego. The 
California Desert District is divided into five BLM field offices: 
Barstow, El Centro, Needles, Palm Springs/South Coast, and Ridgecrest.
    Two of those field offices--El Centro and Palm Springs--manage 
approximately 3.3 million acres that are within the borderland zone, 
roughly within 100 miles of the United States border with Mexico. These 
Federal lands include Wilderness Areas, National Register cultural 
sites, and other special designations.
    Our mandate from Congress through the Federal Land Policy and 
Management Act of 1976 is to manage the public lands for multiple uses 
and to sustain the health, diversity and productivity of these lands 
for the use and enjoyment of present and future generations. The range 
of activities on the public lands managed by the BLM is as diverse as 
the land itself. Responsible stewardship means the BLM must balance 
multiple and potentially conflicting uses, including increased demands 
for recreation and energy production, while protecting sensitive 
resources. Given the proximity of many of these lands to the 
international border and the environmental degradation caused by 
illegal immigration across these lands, border security, as I will 
further explain, plays a critical role in helping us manage and protect 
these valuable resources.
    My testimony today will focus on recent and on-going cooperative 
efforts to address illegal border crossings in southern California and 
the impact illegal immigration has had on the public lands in the 
region. A brief overview of past illegal immigration impacts to public 
lands resources along the border will help clarify and provide a 
context for the current management situation.
    In October 1994, the U.S. Border Patrol initiated Operation 
Gatekeeper, increasing interdiction efforts (including improved 
fencing, additional agents, and patrols) in southwestern San Diego 
County. Because Federal lands along the border, for the most part, are 
remote and isolated areas, they became a popular route for illegally 
entering the United States. The rugged terrain of Otay Mountain was 
once thought to present a natural barrier to illegal immigrants seeking 
access routes east of San Diego. However, illegal traffic across public 
lands dramatically increased throughout the 1990's, resulting in 
serious environmental impacts. By June 1996, over 300 wildfires caused 
by campfires of illegal immigrants posed a significant threat to human 
safety and natural resources. Illegal immigration also resulted in 
increased impacts to soils, vegetation, cultural sites, and other 
sensitive resources.
    In response to this crisis situation, the first of three formal 
interagency, cooperative efforts to address the dual missions of border 
security and natural resource management was established. The Border 
Agency Fire Council (BAFC) was formed during the 1996 fire season with 
the goal of saving lives and property. The BAFC is now made up of 42 
organizations, including local, State, and Federal fire protection, law 
enforcement, State and local legislators, Members of Congress, natural 
resource managers, and representatives of the U.S. State Department and 
the Republic of Mexico. The group meets every six to eight weeks and is 
currently chaired by the Fire Marshal of San Diego County.
    The BLM took the lead for the BAFC in producing two videos and 
several public service announcements to discourage campfires and 
educate the public on fire safety and exposure. The BLM shot most of 
the footage and contributed $25,000 to the California Association of 
Independent Commercial Producers to complete the project. The video was 
produced in both Spanish and English and distributed to media, schools, 
and various public institutions in the U.S. and Mexico.
    Beyond the impacts of wildfires, resource problems occurred from 
trail and road damage, and litter left behind by groups and individuals 
crossing public lands as they entered the United States. Of special 
concern were the fragile resources on Otay Mountain--in Wilderness 
Study Area status during most of the 1990s--that were heavily impacted 
when illegal immigration moved east into that area. The Border Patrol 
and BLM joined with San Diego County and others to meet this threat. To 
further address the situation, in 1999, the Congress passed the Otay 
Mountain Wilderness Act of 1999 (Public Law 106-145), sponsored by 
Representative Brian Bilbray, which designated the 18,500-acre Otay 
Mountain Wilderness Area. This legislation balances important 
wilderness values with the need for law enforcement and border 
interdiction efforts that are necessary to curtail illegal immigration 
in the immediate area. The legislation recognized the land management 
need for Border Patrol, drug interdiction, and fire management 
authorities to continue to access the area, consistent with law, given 
the proximity of the area to the international border.
    Beyond the resource issues posed by illegal immigration, the BLM is 
concerned about the number of immigrant deaths both at Otay Mountain 
and in the Imperial Desert, and the associated humanitarian and public 
safety concerns. In recent years, the Border Patrol has reported a 
steady increase in the number of deaths due to drowning in canals, 
dehydration, and exposure to the elements.
    While the combined efforts of the Border Patrol, BLM, and other 
resource and law enforcement agencies resulted in a decrease in illegal 
immigration here in California, we have seen numbers rise again over 
the last three years as the infrastructure along the border in Arizona 
and elsewhere is put in place and border security is strengthened in 
those areas.
    As a result, the threat and impacts to public land on the 
California border are once again increasing. Immigrant trails are 
increasingly being used, trash and human waste along these trails and 
at campsites is increasing, and escaped campfires lit by immigrants 
continue to be a major threat to wildlands along the border. The 
increased frequency of wildland fires is a primary issue for resource 
management along the border and is having a serious impact on our 
ability to sustain unique species, such as the Tecate Cypress found on 
Otay.
    The BLM is committing more time and effort to the management of the 
public lands along the border. The BLM has increased its collaborative 
efforts by working with a multitude of agencies to provide for a more 
secure border and protection of natural resources.
    In addition to the BAFC, a second formal collaborative effort of 
several State, Federal, and local government agencies is the Borderland 
Management Task Force (San Diego Chapter). The focus of this Task Force 
is to identify and discuss issues along the border in California, 
including environmental impacts of cross border traffic, access and 
infrastructure issues with Border Patrol, and public and employee 
safety concerns. The Task Force has been instrumental in expediting the 
implementation of infrastructure--such as fences, vehicle barriers, and 
remote cameras--along the border which serves the Border Patrol in 
carrying out their important border security mission. The BLM and the 
U.S. Border Patrol meet regularly to coordinate management decisions 
that might affect border operations, such as routes of travel, species 
habitat, and wilderness issues.
    A special training program has also been developed for new and 
veteran Border Patrol agents developed by the BLM, the U.S. Fish and 
Wildlife Service, San Diego County, and the California Department of 
Fish and Game. In order to better manage the immigration issues now 
facing the Border Patrol and land managers, the training emphasizes 
local natural history, resource protection, agency missions and goals, 
the Endangered Species Act and the Wilderness Act, and low impact 
hiking skills. New Border Patrol agents receive this training, and 
refresher training is provided for senior agents and trainers. This 
training is being expanded to include newly assigned National Guard 
personnel joining in the border security effort.
    The BLM and the U.S. Border Patrol have placed more than 100 signs 
warning migrants of the hazards associated with crossing the border 
illegally. The signs warn of the dangers from heat, fire, rugged 
mountains, drowning, and poisonous snakes.
    The BLM law enforcement staff closely coordinates with the San 
Diego and Imperial County Sheriff's Departments to meet two major 
objectives: 1) to protect public land, resources and BLM facilities; 
and, 2) to maintain safe environments for public land users and BLM 
employees. When BLM law enforcement officers conduct routine patrols 
and provide information to visitors, their presence serves as a 
deterrent to illegal immigration. In addition, they provide support for 
volunteer groups and BLM employees conducting habitat restoration. They 
also assist with fire investigations and rescue stranded immigrants.
    Due to the close proximity of the border to several major highways 
in the area (in one area the distance is less than 1,000 yards), 
illegal immigrant and drug trafficking is often intense. If these 
smugglers manage to reach the road, they often resort to excessive 
speed, driving without lights, or driving down the wrong side of the 
freeway to escape, resulting in vehicle accidents and serious injuries.
    Vehicles that don't make it to the road are often damaged, 
resulting in fluid spills (gasoline, motor oil, radiator fluid, etc.) 
as well as hazardous objects (glass, torn sheet metal, etc.) that harm 
public land environments. Abandoned vehicles are often left in place 
and the burden for removing them falls on the BLM. If the vehicles are 
not removed quickly, they are often set afire by vandals, creating an 
even larger safety and environmental concern.
    A third very important formal collaborative effort to address 
border security and resource management is the Department of the 
Interior's Border Field Coordinating Committee. The Field Coordinating 
Committee is made up of field representatives from the BLM, Bureau of 
Indian Affairs, Bureau of Reclamation, Minerals Management Service, 
National Park Service, U.S. Geological Survey, and U.S. Fish and 
Wildlife Service, as well as representatives from the Office of the 
Secretary of the Interior.
    The Field Coordinating Committee addresses natural and cultural 
resources protection and sustainable development in the border region. 
Partnerships and agreements with Mexico's Secretariat for the 
Environment and Natural Resources, National Institute of Anthropology 
and History, National Institute of Statistics, Geography and 
Information, and other Mexican organizations have been fostered and 
maintained by the Field Coordinating Committee. These relationships 
have been invaluable in educating Mexican officials about the resource 
damages associated with illegal immigration, reinforcing the message 
that maintaining border security is a vital factor in protecting 
natural and cultural resources.
    In conclusion, border security is extremely important in managing 
natural and cultural resources on public lands, and protecting the 
safety of public land users. In southern California, it is a shared 
responsibility and the BLM continues to work in close collaboration 
with a broad diversity of partners--and in cooperation with our 
Congressional delegation--to provide appropriate support to border 
security activities that assist us in meeting our resource protection 
mandate.
    Thank you for the opportunity to present testimony before the 
Committee today. I would be happy to answer any questions.
                                 ______
                                 
    Mr. Pearce. Thanks a lot. Mr. Manjarrez, why don't you give us your 
five minutes and let us keep moving along. Thank you.

STATEMENT OF VICTOR MANJARREZ, DEPUTY CHIEF PATROL AGENT, U.S. 
                 CUSTOMS AND BORDER PROTECTION

    Mr. Manjarrez. Good morning, gentlemen. Chairman Pearce and 
Congressman Bilbray. On behalf of the men and women of the 
Border Patrol welcome to San Diego Sector. It is an honor and a 
privilege to appear before you today to discuss our continuing 
efforts along the border in the interest of homeland security. 
The Department of Homeland Security and Customs and Border 
Protection are steadfast in our commitment to securing the 
homeland.
    Operation Jump Start gives CBP an immediate short-term 
resource that allows an increase in border security while 
recruiting and training additional Border Patrol agents and 
implement the Secure Border Initiative. Operation Jump Start 
will greatly assist in moving forward with our mission as we 
continue to gain, maintain, and expand operational control of 
the border using the right combination of manpower, tactical 
infrastructure, and smart border technology.
    Tactical infrastructure is a key component but not the only 
component of this mix of resources needed to accomplish our 
primary mission of preventing terrorists and terrorist weapons 
of destruction from entering the United States. Tactical 
infrastructure that is currently being built by National Guard 
Department of Resources along the southwest border is a great 
example of partnership with the Department of Defense. These 
projects include many along the southwest border including my 
area of responsibility, Tucson Sector.
    Through Department of Defense and National Guard support 
today, which includes pre-Jump Start time periods, the 
southwest border has received 47 miles of all-weather roads, 75 
miles of primary fencing, 54 miles of permanent vehicle 
barriers, and 57 miles of high-intensity lighting. Our efforts 
in these urban areas have already produced tangible results and 
we are expanding the support with the National Guard personnel 
as entry identification teams on the immediate border.
    We recognize there are many challenges that lie ahead. We 
are concerned with the level of illegal activity in our remote 
border areas. Many southwest border locations have unique 
environmental concerns and lack road infrastructure conducive 
to efficient border enforcement operations. We must work toward 
an enforcement solution in these areas that promotes 
conservation of our natural resources. Yet, enhances our 
ability to secure the border.
    As you know, an important key to the overall strategy of 
border enforcement is a collaborative effort among the law 
enforcement partners. An example of this effort is a memo of 
understanding was recently signed with the Department of 
Interior and the U.S. Department of Agriculture.
    This MOU allows us to make significant strides toward 
providing access for Border Patrol agents in sensitive 
locations, improving coordination, joint training, and a 
greater understanding of each other's mission. We believe 
improved relations from this MOU and our day-to-day 
interactions will lead to a greater preservation of the 
environment as well as a safer one. The Border Patrol with the 
Department of the Interior has implemented a National Public 
Land Liaison Officer Program to foster already strong and 
growing working relationships.
    The purpose of this program is to increase interaction, 
closer relationships, and it is a vital requirement to gain 
greater operational control in remote border areas as we make 
gains in immediate urban areas. The men and women of the CBP 
and Border Patrol face challenges on a daily basis and are 
determined to <plus-minus>protect the United States and its 
citizens. They place themselves in harm's way to protect us and 
to protect our way of life.
    I would like to thank you for the opportunity to present 
testimony today and look forward to answering any questions 
that you may have.
    [The prepared statement of Mr. Manjarrez follows:]

  Statement of Victor Manjarrez, Deputy Chief Patrol Agent, Office of 
   Border Patrol, U.S. Customs and Border Protection, Department of 
                           Homeland Security

    Chairman Pombo, Ranking Member Rahall, and other distinguished 
Members of the Committee, it is a privilege and an honor to appear 
before you today to discuss our latest efforts along the border, which 
include the critical role tactical infrastructure has in assisting the 
Department of Homeland Security (DHS), and especially U.S. Customs and 
Border Protection (CBP), in our mission of securing our Nation's 
borders.
    Our immigration system is broken. Every day, thousands of people 
try to enter our country illegally. Most of these people are coming to 
America to work and provide a better life for their families. After 
all, in their home countries, they make only a fraction of what they 
could make in the United States. Our strong economy creates the demand 
for these workers, places tremendous pressure at the border, and makes 
our job of securing the border very difficult.
    To most effectively secure our border, we must reform our 
immigration system to relieve this pressure. We need comprehensive 
immigration reform that provides additional resources for border 
security, establishes a robust interior enforcement program, creates a 
temporary worker program, and addresses the problem of the estimated 11 
to 12 million illegal immigrants already in the country.
    We are taking significant steps to secure the border--more than any 
other time in our history. Since 2001, funding for border security has 
increased by 66 percent. DHS, working in conjunction with its Federal 
partners, has apprehended and sent home more than 6 million illegal 
aliens. On May 15, President Bush announced his plan to increase the 
number of CBP Border Patrol agents by 6,000 by the end of 2008. This 
will bring the total number of Border Patrol agents to over 18,000, 
doubling the number of agents since the President took office in 2001. 
These additional agents will serve as a tremendous resource and will go 
a long way in helping us secure the border.
    As interim measure, until CBP can hire and train these additional 
Border Patrol agents, the President ordered the Secretary of Defense to 
work with our Nation's Governors to deploy up to 6,000 National Guard 
soldiers to the Southwest Border. Since the President's Oval Office 
address, DHS and CBP have worked closely with the Department of Defense 
and National Guard Bureau to get these soldiers integrated in our 
efforts to secure the border. We are calling this mission Operation 
Jump Start.
    As of July 27, there are nearly 5,000 National Guard troops on duty 
for Operation Jump Start and in the four Southwest border states. These 
troops are making a difference. Over the last several weeks, the 
National Guard, working in their support capacity, has contributed to 
over 1,200 alien apprehensions and helped seize over 12,200 pounds of 
Marijuana. Even if this infusion were not occurring, there would be 
hundreds of National Guard troops assisting DHS in our counter-
narcotics mission. The Guard troops have also allowed us to move 263 
Border Patrol agents from the back offices, where they were performing 
essential support functions and logistics jobs, to the front lines. 
These agents are now working every day on the border to detect and 
apprehend illegal aliens, and seize narcotics and other contraband.
    The National Guard soldiers currently are, or will be, supporting 
the Border Patrol with logistical and administrative support, operating 
detection systems, providing mobile communications, augmenting border-
related intelligence analysis efforts, building and installing border 
security infrastructure, and providing training. However, law 
enforcement along the border between the ports of entry will remain the 
responsibility of Border Patrol agents. The National Guard will play no 
direct law enforcement role in the apprehension, custodial care, or 
security of those who are detained. With the National Guard providing 
surveillance and logistical support, Border Patrol agents are free to 
concentrate on law enforcement functions of border enforcement. The 
National Guard engineering and technology support of tactical 
infrastructure has been a tremendous force-multiplier, expanding the 
enforcement capacity of the Border Patrol while freeing up additional 
agents who were performing some of these support tasks.
    The Border Patrol has a history of nearly two decades working with 
National Guard and Reserve units to leverage their unique expertise, 
workforce, technology, and assets, in support of our mission and as a 
force-multiplier. We're proud to work shoulder-to-shoulder with our 
National Guard colleagues. They have given us a tremendous jumpstart on 
our overarching plan to secure the border--the Secure Border Initiative 
(SBI).
    As I mentioned earlier, National Guard support will be an 
immediate, short-term measure that allows DHS to increase our 
deterrence and border security capabilities, while DHS trains 
additional Border Patrol agents and implements SBI which is a broad, 
multi-year initiative that looks at all aspects of the problem across 
the board--deterrence, detection, apprehension, detention, and removal. 
SBI, as envisioned by the Secretary and Commissioner, addresses the 
challenges we face with integrating the correct mix of increased 
staffing, greater investment in detection technology and 
infrastructure, and enhanced coordination with our partners at the 
Federal, state, local, and international levels for every segment of 
our Nation's borders. CBP Border Patrol's component of SBI, named 
SBInet, will integrate multiple state-of-the-art systems and 
traditional security infrastructure into a single comprehensive border 
security suite for the department. Under SBI, DHS wants to create a 
common operating picture for agents, via the use of integrated sensors 
and other interoperable technologies and systems. The technologies will 
help agents detect, identify and respond to illegal activities.
    There is no stretch of border in the United States that can be 
considered completely inaccessible or lacking in the potential to 
provide an entry point for a terrorist or terrorist weapon. Stretches 
of border that in the past were thought to be impenetrable, or at least 
highly unlikely locations for entry into the United States, have in 
recent years, become active illegal entry corridors as other routes 
have been made less accessible to smugglers. We must consider all 
available information, including the vulnerability of our Nation's 
borders, when determining future infrastructure requirements and asset 
deployments.
    SBI undertakes an integrated approach to the continuum of border 
security and future deployments of personnel, infrastructure and 
technology. The deployment of the various components will be risk 
based, considering, for example, current intelligence, operational 
environment and field commander's requirements. Under this approach, 
one portion of the border may require more technology in relation to 
personnel, while another portion may require more tactical 
infrastructure improvements than either personnel or technology. SBI 
will not be a ``one-size-fits-all'' deployment.
    One part of SBI, is the placement of Tactical Infrastructure (TI), 
such as fencing, vehicle barriers, high intensity lighting, and road 
improvements. These infrastructure elements act as a force multiplier, 
helping agents to secure the border, with speed and flexibility of 
personnel redeployment made possible by shortened response times. TI 
elements are critical for the U.S. Border Patrol to achieve the proper 
balance between personnel, technology, and border infrastructure. But, 
TI alone will not secure the border.
    We recognize the challenges that lie ahead. Our goal is nothing 
less than to gain, maintain, and expand operational control of our 
Nation's borders through the right mix of personnel, technology, and 
tactical infrastructure. The assistance of the National Guard and our 
Federal, state, local, and tribal law enforcement partners, will 
greatly enhance our ability to effectively and efficiently protect our 
Nation's borders.
    The men and women of U.S. Customs and Border Protection face these 
challenges every day with vigilance, dedication to service, and 
integrity, as we work to strengthen national security and protect 
America and its citizens. I would like to thank you for the opportunity 
to present this testimony today. I look forward to responding to any 
questions that you might have.
                                 ______
                                 
    Mr. Pearce. Thank you very much.
    Mr. Ingram.

          STATEMENT OF CHRIS INGRAM, VICE PRESIDENT, 
                GULF SOUTH RESEARCH CORPORATION

    Mr. Ingram. My name is Chris Ingram. I am Vice President of 
Gulf South Research Corporation. I did convince her that I 
could come but I don't know what the cost is going to be.
    GSRC is a small environmental services firm located in 
Baton Rouge, Louisiana, but we do provide environmental 
services to Federal agencies nationwide. Particularly we have 
been involved in environmental planning services for every 
border patrol sector along the southwest border.
    I personally have been involved in planning tactical 
infrastructure along the southwest border for over 15 years 
starting with Joint Task Force 6 which was established in 1989 
by the first President Bush.
    I was also GSRC's project manager for the Environmental 
Impact statement for the border infrastructure here in San 
Diego. Our efforts on that project included wetland 
delineations, surveys for protected species, permit assistance, 
agency and public scoping meetings. In fact, we conducted well 
over 24 agency coordination meetings during the preparation of 
the BIS.
    Our efforts also included mitigation planning and 
implementation. In fact, right now we have two major mitigation 
restoration programs ongoing here in San Diego County.
    Although Secretary Chertoff signed the waiver last year, 
CBP and Border Patrol has still kept us involved in 
environmental planning for the continuation of the border 
infrastructure system here in San Diego.
    The BIS that we prepared identified there were going to be 
significant impacts as caused by the construction of the border 
infrastructure system. However, Border Patrol consistently, 
continuously planned and designed the BIS and is still doing so 
in a manner to try to minimize the impacts. Although the 
mitigation plan presented in the BIS is no longer viable due to 
the waiver, I still believe that the long-term benefits are 
going to far outweigh the short-term adverse effects of 
construction of the BIS.
    These benefits would be derived from the elimination of 
illegal traffic that cuts across Lichty Mesa, Spooner's Mesa, 
the Tijuana estuary and other sensitive areas trampling 
vegetation, discarding trash, disturbing sensitive wildlife. 
The BIS has also been designed to reduce the sedimentation from 
entering the Tijuana estuary from the current enforcement 
footprint.
    There have been many lessons learned from the San Diego 
border infrastructure system that have been transferred to 
other border patrol sectors across the southwest border. I have 
personally seen a lot of the damage that has been caused by 
illegal foot and vehicle traffic in many of our national parks 
and wildlife refuge areas. I feel that with the proper 
planning, coordination, and mitigation the tactical 
infrastructure can be constructed to minimize the short-term 
adverse impacts and provide long-term benefits.
    Thank you for the opportunity to speak to you. I will 
answer any questions that you might have.
    [The prepared statement of Mr. Ingram follows:]

         Statement of Christopher John Ingram, Vice President, 
                    Gulf South Research Corporation

    Gulf South Research Corporation (GSRC) is an environmental 
consulting firm located in Baton Rouge, Louisiana. We have been in 
operation under our current ownership for 13 years. GSRC provides 
environmental planning services, primarily for the Federal Government, 
throughout the Nation. GSRC has provided these services, including 
protected species surveys, wetland delineations, cultural resources 
surveys, environmental restoration, and impact analyses, to the Border 
Patrol for 8 years. These services have been provided to every Border 
Patrol Sector along the entire southwest border and in several northern 
border Sectors. Personally, I have been involved in planning Border 
Patrol projects for over 15 years.
    I served as GSRC's Project Manager for the completion of the San 
Diego 14-mile Border Infrastructure System (BIS). GSRC was first 
contracted to participate in this project in May 2000 and we continue 
to be involved in the planning aspects, even though Secretary Chertoff 
signed an environmental waiver last year. GSRC was initially contracted 
to prepare the Environmental Impact Statement (EIS) for the completion 
of the BIS. However, that scope quickly expanded to include additional 
protected species surveys, wetland delineations, over 24 agency 
coordination and public meetings, permit assistance, and mitigation 
planning and implementation. Regarding the latter issue, we currently 
have mitigation programs on-going at Arnie's Point and Spring Canyon, 
west of Cactus Road. The mitigation at Arnie's Point is a 23-acre 
vernal pool restoration site. The Spring Canyon mitigation is a 16-acre 
site, which is being used to offset wetland impacts at Spring Canyon, 
Deadman's Creek, and Johnny Wolf Creek. The Spring Canyon mitigation 
program is in its infancy. However, the Arnie's Point mitigation 
program is in its 3rd year and has proven to be very successful, to the 
point that we have additional protected species which had not been 
reported at Arnie's Point and surrounding areas for many years.
    While admittedly, the completion of the BIS would result in 
significant impacts, as indicated in the EIS, the BIS has been designed 
and will be constructed in a manner to minimize these effects. Although 
the mitigation proposed in the EIS is no longer viable or valid due to 
the waiver, I still believe that in the long-term, the BIS will provide 
substantial benefits to the area north of the BIS, particularly the 
Tijuana River Valley and estuary. The numerous illegal foot trails that 
cut across Lichty Mesa, Spooner's Mesa and the estuary will be 
eliminated and these trails will be revegetate naturally. Trash and 
illegal fires will also be reduced or eliminated. And, finally, the 
erosion and sedimentation that currently exits along the border roads 
in these areas will be ameliorated.
    There were many lessons learned during this project and most of 
these lessons have been transferred to other OBP Sectors that are 
planning similar tactical infrastructure. With proper planning and 
coordination, such infrastructure can be constructed to minimize short-
term adverse impacts and provide long-term benefits to the environment.
                                 ______
                                 
    Mr. Pearce. Thank you, Mr. Ingram.
    Mr. Bilbray has notified me, Ms. Powers, that I have 
pronounced your town the way that I would expect it to be in 
Washington and he says it is the way we would do it in New 
Mexico, from Jamul, California. Thank you very much for being 
here today and let's hear from you.
    Ms. Powers. Thank you.
    Mr. Bilbray. Just to say how confusing it was, I remember 
the International Boundary and Water Commission called our 
community to the north up there, the back country, Hulian 
instead of Julian and he proceeded to lecture me on the fact 
that it is actually a Spanish name. I tried to remind him that 
it was named after a Julian from the American South who was a 
Civil War veteran. Just shows you we can confuse everybody.
    Go ahead. I am sorry.

 STATEMENT OF CAROLYN POWERS, SPOKESPERSON/HISTORIAN, TIJUANA 
              RIVER VALLEY EQUESTRIAN ASSOCIATION

    Ms. Powers. Mr. Chairman and Congressman Bilbray, it is an 
honor to appear before you today to discuss the importance of 
the increased border security efforts on Federal lands to stem 
the flow of illegal immigration for a highly permeable border.
    My name is Carolyn Powers and I am an equestrian. I have 
been a longstanding border resident and activist. I have two 
grandchildren to which I would like to leave a legacy of a safe 
and sane U.S./Mexican border area. The Tijuana River Valley has 
a history rich in diversity. The Kumeyaay Indians, Hernan 
Cortes, Juan Cabrillo and Father Serra and Kino have left their 
mark.
    Representing the darker side of the sieve-like stretch of 
land we have endured rum runners during Prohibition, drug 
smugglers since the '60s, and a constant stream of ``coyotes'' 
or smugglers, and ``pollos'' or illegal immigrants, streaming 
across our borders.
    Criminal acts such as rape, robbery and murder have 
impacted those border areas that are also recreational areas 
such as Smugglers Gulch, Goat Canyon, Soccer Field and Spooner 
Mesa. Due to the persistence of ``Light Up the Border'' 
advocate Muriel Watson who gave our pledge tonight, and the 
exposure given by ex-mayor and conservative talk show host, 
Roger Hedgecock, and the resolve of Congressman Duncan Hunter, 
most of the border between the San Diego/Tijuana border 
crossing and the Pacific is now lit up decreasing the frequency 
and severity of criminal activities.
    Prior to ``Operation Gatekeeper,'' it was not unusual to 
encounter 80 to 100 illegals running down our equestrian trails 
with Border Patrol in hot pursuit. Gatekeeper was characterized 
by high concentrations of agents working the border itself and 
requires a very extensive budget to maintain.
    My horse would spook at the border action. I began carrying 
carrots and stopping the runners and asking them to please feed 
one to my horse, first in Spanish to the illegals and then in 
English to the agents. My horse now begs for carrots on the 
trail.
    The pollos act subservient when met on the trail, stepping 
back to allow you to pass, but the smugglers do not. A typical 
group of six to eight hard-looking men burdened with identical 
backpacks, tell-tale tattooed tears on their cheeks (prison) 
and a bad attitude would block the trail and wait like trolls 
to be asked for permission to proceed.
    They would look thoughtful as if reluctantly considering if 
you should be allowed, and then finally nod indicating you 
could ride by. A higher percentage of these arrogant empowered 
smugglers travel our trails now. It is frightening and grossly 
insulting to have this occur on American soil.
    As Congressman Bilbray mentioned, we used to joke about the 
trails in the Tijuana River Valley all being north-south 
trails. The trails ran through farms, estuaries, ranches and 
homes avoiding the streets and the waiting Border Patrol. 
Congressman Bilbray can tell you about the time his old 
lifeguard skills were called upon when he and his family were 
awakened in the middle of the night by screams. He found that 
an illegal family had jumped his fence and fallen into his 
swimming pool. They couldn't swim so Congressman Bilbray came 
to the rescue.
    Not everybody had happy endings. Undocumented aliens 
startled a quarter horse worth $40,000 in a valley ranch and 
the horse bolted, injured its leg and needed to be put down. 
Another property owner was successfully sued by an illegal who 
his dog had bitten as he trespassed in the middle of the night.
    Every afternoon cast-off plastic bags were collected by 
workmen paid by the county and every morning there would be 
another mountain of plastic north of the river. They used the 
plastic bags as boots. They were sold by an entrepreneur vendor 
south of the river. There is an area that used to be called 
``Underwear Point'' in a national estuary due to the amount of 
castoff muddy clothing.
    There is also the cost of medical care to illegal aliens 
that is shouldered by county governments. Resources which 
should provide a safety net for our citizens have become 
inadequate. The recent ``Horse Fire'' in San Diego County, 
that, again, Congressman Bilbray mentioned, scorched over 
17,000 acres which included some really prime recreational 
areas including our revered Horsethief Canyon. It has been gone 
for years.
    Tijuana is the most violent cartel-oriented border city in 
Mexico. We are now plagued with a new kind of border violence. 
Beheadings are not just reserved for the terrorist activities 
abroad. This vile act has become part of the criminal cartel 
scene in Baja California. A headless body was recently 
discovered in Smugglers Gulch at the border. Many of the 
criminals and organized crime syndicates responsible for these 
types of heinous acts are known to operate on both sides of the 
border and lives of Americans are increasingly being placed in 
jeopardy.
    Where infrastructure has been installed along the border 
crime rates have decreased, in some areas as much as 80 
percent. Modern infrastructure such as electronic cameras, 
satellite surveillance, border lights, and a strong border 
fence are needed to protect us from criminal activities. We 
need our Government to protect us. We remember when it was not 
safe for motorists to drive down Interstate 5 because of a high 
number of illegals walking in the median of an interstate 
highway.
    U.S. Border Patrol responsible for securing our borders and 
protecting the lives of Americans understand how grave the 
consequences may be if they fail to get it right every single 
time and the adversary gets it right only once.
    Thank you for the opportunity to present this testimony 
today and I look forward to responding to any questions you 
might have.
    [The prepared statement of Ms. Powers follows:]

        Statement of Carolyn E. Powers, Spokesperson/Historian, 
              Tijuana River Valley Equestrian Association

    Chairman Pombo and members of the committee, it is an absolute 
honor and privilege to appear before you today to discuss the 
importance of the presence of federal law enforcement agencies and 
increased border security efforts on federal lands.
    My name is Carolyn Powers, and I am an equestrian and a long 
standing border resident and community activist. I have two daughters 
and two grandchildren to which I would like to pass along the legacy of 
a safe, sane and clean environment who live in and use the lands near 
the U.S./Mexican border.
    The issues I have been involved with these last 15 years have 
included border security and sovereignty, recreational safety, 
wastewater collection and treatment facilities, water quality, 
availability and flood prevention in the Tijuana/San Diego area with 
emphasis on the Tijuana River Valley.
    In 1992 we started a political watch group, CARE, formed to monitor 
and improve conditions affecting border infrastructure, parklands and 
recreational access. We have hosted issue-oriented meetings for the 
Public, as needed, to address specific problem areas. I have educated 
legislators and their staff concerning border issues and agencies. I 
used to give a two day post election ``classroom'' for new community 
reps including a horseback tour of the Tijuana River Valley. You know 
the rap--``...but just what is an IBWC?''
    I am a fund raiser for The Water Station, a volunteer oriented 
group dedicated to saving lives in the California-Arizona deserts by 
placing water at strategic locations. No Politics...just humanitarian 
kindness.
    I am here now to talk to you about life as it exists today along 
the US-Mexican border and the threats we suffer due to illegal 
immigration and terrorist activities due to our highly permeable 
border.
    The Tijuana River Valley has a history rich in diversity that has 
ranged from the Kumeyaay Indians clamming and fishing through the 
summer months along our beaches, explorations by Hernan Cortes and 
conquistador Juan Cabrillo through the spreading of the gospel 
according to Fr. Junipero Serra (in 1769) and Fr. Kino.
    Representing the dark side of the sieve-like stretch of land 
considered our national border, we have suffered rum runners during 
Prohibition, drug smugglers since the 60s and a constant stream of 
``coyotes'' (smugglers) and ``pollos'' (undocumented immigrants) 
streaming across our borders.
    Criminal acts such as rape, robbery and murder have impacted those 
border areas such as Smugglers Gulch, Goat Canyon, Campos Ditch, the 
Soccer Field and Spooner Mesa. Due to the persistence of ``Light Up the 
Border'' advocate Muriel Watson, the exposure given same by ex-mayor 
and conservative talk show host, Roger Hedgecock and the resolve of 
Congressman Duncan Hunter most of the border between the San Diego/
Tijuana crossing and the Pacific is now lit up, decreasing the 
frequency and amount of the criminal activities.
    Prior to ``Operation Gatekeeper'' in the 1990s, it was not at all 
unusual to encounter 80-100 immigrants running down our equestrian 
trails. I was more often than not riding alone when encountering the 
northbound illegal immigrants. After Gatekeeper activities had begun, 
there were often Border Patrol agents in hot pursuit. Gatekeeper was 
characterized by high concentrations of agents working the border 
itself.
    My horse tended to spook with the activities and the smell of fear 
in the air. In order to counter this reaction I learned to say 
``carrot'' in Spanish and started to stop the runners and asked them to 
please feed my horse a carrot (I would hand them carrots), first in 
Spanish to the immigrants, then in English to the Border Patrol. Pretty 
soon, instead of spooking, when disturbed on the trail, my horse would 
beg for the carrots she had learned to expect.
    The pollos have been relatively subservient in their demeanor when 
encountered on the trail, stepping back to allow our passage, but the 
smugglers are not. A typical group of 6 to 8 hard looking men burdened 
with identical backpacks, tattooed tears on their cheeks (denoting 
prison time) and a bad attitude would block the trail and wait for me 
to apologetically request passage. When I would acquiesce, they would 
nod their heads as if reluctantly considering allowing me to pass and 
finally nod their heads indicating that I could ride around them. It 
was pretty frightening and actually grossly insulting to have occurring 
on U.S. soil.
    We used to joke about the trails in the Tijuana River Valley all 
being north-south trails. Most of the trails ran through farms, 
estuaries, ranches or residences avoiding the streets and the waiting 
Border Patrol. Congressman Bilbray can tell you about the time his old 
lifeguard skills were called upon when he and his family were woken in 
the middle of the night by screams from his backyard. When he 
investigated, he found that a Mexican family had jumped the fence and 
fallen into his swimming pool. They couldn't swim, so Congressman 
Bilbray to the Rescue.
    Many residents' tales didn't have such happy endings. Immigrants 
startled a quarter horse worth $40,000 in a valley rim ranch and the 
horse bolted, caught it's leg on some fencing and needed to be put down 
to end it's suffering. Another unlucky property owner was successfully 
sued by an immigrant who his dog had bitten as he trespassed on his 
property in the middle of the night.
    Vendors used to sell plastic trash bags for a dollar apiece to use 
as boots to cross the Tijuana River. Every day the bags were collected 
by workmen paid by the County of San Diego and every morning there 
would be another mountain of plastic waiting on the north side of the 
river.
    There is also the cost of medical care to illegal immigrants that 
is shouldered by County governments. Resources that should provide a 
safety net to U.S. citizens are inadequate in border states due to the 
hit taken by those counties from our neighbors coming north to have 
their babies, collect welfare and treat their infirmities. Passing laws 
against illegal immigration does not enforce those laws. The Border 
Patrol does.
    Throughout the north of the border zone there are inordinate signs 
of illegal trespass. The infamous north/south trails, frequently 
traveling through sensitive habitat, are littered with plastic bottles, 
disposable diapers, clothing and human excrement. In the Tijuana River 
National Estuarine Research Reserve there is an area that used to be 
called ``Underwear Point'' due to the castoff muddy clothing littering 
the estuary. The estuary itself is scarred with trails that will take 
years to revegetate, even though American citizens would be cited and 
fined for just being caught there. This is an environmentally sensitive 
area regarded nationwide as being a prime breeding site for fisheries 
and endangered wildlife alike.
    The recent ``Horse fire'' in San Diego County which has razed over 
17,000 acres is believed by fire investigators to have been the result 
of a campfire built by the immigrants and not extinguished. I was on 
alert for days lining up transportation and boarding facilities for 
friends and their animals. One of my very favorite trails, Horsethief 
Canyon has been totally wiped out by the fire. We continue to endure 
brush and forest fires regularly that have been set by coyotes to 
divert the Border Patrol.
    A few years ago, when I was preparing to write a comment on an 
environmental impact report about making improvements to some access 
and patrol roads on BLM lands adjacent to the border in the Otay Mesa 
area, I requested a ride-a-long with a patrolling Border Patrol agent. 
There were individuals, NGOs and agencies that were contesting the 
plans to make the rutted dirt roads safer with grading plus regularly 
scheduled maintenance. The agent and I began our drive east of the 
Tijuana border crossing and ended up on Otay Lakes Road close to a 
popular camping site. I mentioned to the agent that I was used to 
riding my horse on long trail rides so that other than being cautious 
around cliffs (I do have a fear of heights) for him to carry on with 
his patrol as usual. The next day, I ended up with blood in my urine 
and a bump on the head from bouncing so hard that my head was hitting 
the vehicle roof, even with my seat belt in place. My ride only lasted 
2 hours while normally, agents are patrolling for 4-6 hours a day. 
Efforts to improve border conditions would far exceed any negative 
impact that these activities may have on environmentally sensitive 
areas.
    Tijuana is the most violent Mexican cartel-oriented border city in 
Mexico. We are now plagued with a new kind of border violence. 
Beheadings are not just reserved for the terrorist activities abroad. 
This vile act has become part of the drug cartel scene in Baja 
California and there has been a recent discovery of a headless body in 
Smugglers Gulch at the border. This reprehensible sight should not be 
tolerated for the sake of not only ourselves, but more brutally, our 
children and grandchildren who also ride these trails regularly.
    Equally important is the killing of innocent civilians, government 
officials, and law enforcement officers, robberies, assaults, 
kidnappings, and extortion, which is becoming an all too familiar 
scenario in many cities just south of our border. Many of the criminal 
entities and organized crime syndicates responsible for these types of 
heinous acts are known to operate on both sides of the border and the 
lives of innocent Americans are increasingly being placed in jeopardy.
    This is U.S. soil and we should not have to endure fear and danger 
while being or recreating near our border s.
    When funding became available for the manpower required to 
implement ``Operation Gatekeeper'' in the 90s, illegal border passage 
decreased greatly. Gatekeeper required, however, consistent and 
expensive budgetary considerations to keep it going successfully. The 
operation was dependent upon a high number of Border Patrol agents 
maintaining visual and audible contact with each other across the 
stretch of border to be controlled. The Gatekeeper era became the 
safest period to recreationalists in many years.
    The funding available for Border Patrol operations has proven to be 
extremely variable. I remember some years when agents were coming in to 
work on their vehicles on their days off because money was not 
available for mechanics. Because living expenses are so high, 
especially in California, many agents would leave their employment 
shortly after costly training, to work for other law enforcement 
agencies where they were paid more. The attrition rate has been 
deplorable. It has resulted in a higher percentage of arrogant, 
empowered smugglers on our trails and considerably more traffic in the 
U.S..
    Where infrastructure has been installed at the border, crime rates 
have decreased, in some areas as much as 80%. Complaints about illegal 
crossers running through neighborhoods have decreased and overall 
community safety has increased.
    Apprehension numbers in the San Diego Sector have dropped more than 
75% from a high of over 500,000 per year in1995 to less than 130,000 
per year in 2005. The installation of the primary fence has almost 
eliminated vehicle drive-throughs and high-speed pursuits at the 
border.
    Electronic camera and satellite surveillance, border lights, 
vibration detection sensors, a strong, safe border fence and a few 
additional agents should be prerequisites in, at least, high traffic 
areas. I realize that this isn't the answer to all of the problems 
associated with illegal immigration, but it is a step in the right 
direction and as citizens of the U.S., we need our government to 
protect us.
    The all too recent terrorist activities of 9-11 should be strong 
reminders of just how vulnerable our Mexican borders really are. It is 
important that we take very seriously the ever-growing threat of 
terrorism and also recognize that individuals from other parts of this 
world would do harm to innocent Americans if they were only able to 
gain entry into the United States.
    Without infrastructure in the border area of the Tijuana Estuary, 
the County Regional Park or the State Park, any trails or recreational 
plans will place users at a significant risk for criminal activity, 
robberies, assaults, theft and rapes. Infrastructure in the area south 
of the Tijuana Estuary will reduce the law enforcement operational 
footprint from almost 5,000 acres to about 200 plus acres. This will 
deter the uncontrolled foot traffic through the estuary, helping to 
protect the sensitive environment, and making it safe for recreational 
users of the park system.
    We remember when it was not safe for motorists to drive down 
interstate 5 because of high numbers of illegal crossers walking or 
running in the median of an interstate highway. Billboards warning 
traffic along the freeway depicted families holding hands and running 
across the road.
    The men and women of U.S. Border Patrol, who are responsible for 
securing our borders between the ports of entry and protecting the 
lives of Americans, understand how grave the consequences may be if 
they fail to get it right every single time and the adversary gets it 
right only once. If more isn't done to secure our borders, then our 
generation needs to be prepared to accept responsibility for placing 
the future of this great nation in a precarious and potentially 
unmanageable position.
    I would like to thank you for the opportunity to present this 
testimony today and look forward to responding to any questions you 
might have.
                                 ______
                                 
    Mr. Pearce. Thank you very much.
    Ms. Keeler, thank you for making the drive over from New 
Mexico. We appreciate you being here.

STATEMENT OF JUDY KEELER, CO-OWNER, KEELER RANCHES, ANIMAS AND 
                      HACHITA, NEW MEXICO

    Ms. Keeler. Thank you for letting me come and speak to you 
today.
    My husband and I have two ranches. One is located 30 miles 
south of Animas and it has a unique problem in that there is a 
lot of drug trafficking going through it. The other ranch is 
five miles east of Hachita, New Mexico, and there we have a lot 
of illegal immigrants passing through on their way to I-10. 
Both ranches have their share of illegal activities and both 
illegal activities are killing our nation.
    I am here today to tell you I have been raised on the 
border. I lived there all of my life. I have spent 50 plus 
years and I have a lot of friends, both Mexican-Americans and 
Americans, and this is not a racial issue. This is an issue 
dealing with people. There are atrocities happening not just to 
our public lands but to the people that are trying to cross the 
border and it needs to be noted in the records that Mexico is 
aware of what is happening but they are turning a blind eye to 
what is happening to their people.
    For instance, July 3rd we were having a family gathering on 
the ranch and an individual that no one saw come in was in the 
corrals. He fell to the ground in convulsions. We ran over to 
assist him. He had been walking with a group of Mexicans coming 
into the U.S. and he had not been able to keep up with the rest 
of the group.
    The coyote offered him some speed pills to help him keep up 
but it didn't work so they left him behind. He showed up in the 
corrals convulsing because he was dehydrated and the pills had 
a negative effect on him. We called the emergency services and 
they came as fast as they could. Of course, the Border Patrol 
showed up first and he was taken to the Silver City Hospital.
    There was another incident just recently where a whole 
group was going through. They had three young children that 
were dehydrated and exhausted. We asked them if we could call 
the Border Patrol and have them come assist them but the group 
wouldn't wait and they went on and we have no idea what 
happened to these small children.
    The human impacts, both to the Mexican people that are 
coming across and the impacts to the people in the United 
States, are tremendous. Not just that. There is also impacts to 
our wildlife and to our livestock operations and it is 
economically draining on the ranchers that are along the 
border. It is economically draining to the communities that are 
along the border and it is not a good deal.
    New Mexico shares 186 miles of border and we have a lot of 
open space. Most of that consist of ranches. It is made up of 
public and Federal lands, state lands, and also public lands. 
In our ranch in Hachita we share five miles of the border with 
Mexico. Actually, we are still five miles north of the border 
but Highway 9 runs all the way from Rodeo, New Mexico to El 
Paso, Texas. In that area of five miles we have at least 20 to 
30 foot paths that are going from Mexico to the interstate and 
each foot path carries at least six to 30 immigrants. This is 
on a daily basis.
    They carry in their backpacks. We find backpacks. We find 
plastic bags. We find human feces. We find all sorts of things 
on our ranch. It is not healthy for us. It is not healthy for 
the livestock. One rancher reported that one of his calves had 
a plastic bag hung in its throat. It couldn't eat, couldn't 
spit it out, couldn't drink. He finally rescued the calf.
    In another instance he had pasteurella show up in his 
livestock. The New Mexico vet was called in and, after 
researching, they determined that the illegal immigrants were 
congregating around our troughs and they have kept the 
livestock at a distance so that they couldn't get a drink of 
water. This had lowered their resistance and they were unable 
to fight off the disease.
    If this is happening to our livestock, it is definitely 
happening to our wildlife as well. We have deer and antelope. 
We also have several threatened species, aplomado falcons. We 
haven't seen any but we have the habitat potential for it. BLM 
provided nets to go over three steel-rimmed tanks but the 
illegal immigrants cut the nets.
    The Bureau of Land Management comes back, patches the net 
so that now it is just a patchwork of net. It was supposed to 
keep any aplomados or the eagles from drowning if they got into 
the nets. These are resources that our Government is putting 
out to protect these endangered species that are not being very 
effective and it is costing us money. It is draining our tax 
dollars.
    The greatest tragedy in my mind is what is happening to the 
Mexican people and to the people. We need some relief. We need 
a fence. I don't know that a large tall fence is going to work. 
We do need a road. In New Mexico where I am at there is no road 
along the border so the Border Patrol patrols Highway 9 but it 
is not very effective and we have so much open space it is not 
even funny. It is hard for them to protect the area. It is hard 
for them to get there.
    The local sheriff's department if you have a problem or 
anything like that, the response time to get to our ranch is 
usually four hours. If we have an emergency--and we did several 
years ago have 16 Chinese immigrants show up at our ranch in 
Animas--it took the Border Patrol and the state police and the 
local law enforcement agencies four hours to get down there.
    In the meantime, the Chinese guys were very agitated. They 
were kicking their coyote, the guy that brought them across. It 
was a very frightening experience for my children because they 
weren't sure if they were going to overwhelm us and steal a 
vehicle or eat their cats. They were very concerned about their 
cats. These instances happen. It happens to people. That is 
what I am concerned about is the people that live down there 
and the wildlife.
    Do I have any solutions? Yes. I think we need to put up a 
fence. I think we need to build a road. I think while we are 
building the road we should put in some fiber optics so that 
cameras can be put in that can monitor the traffic. This could 
be a great deterrent. I don't think a high wall is going to 
work. I don't think building a wall like China is going to work 
because people are going to get across.
    I believe we need a guest worker program because there are 
a lot of people that need the help. And the people in Mexico 
need to be able to come here and get a job. That is my personal 
belief.
    [Reaction from the crowd.]
    Mr. Pearce. I will remind you that you will not make 
comments. These people are trying to do their best to describe 
their viewpoint. You will please refrain.
    Thank you, Ms. Keeler. Please continue.
    Ms. Keeler. Well, we don't all have to agree but I do think 
that we need to work together to forge some solutions. I would 
like to suggest while I am talking that maybe the Border Patrol 
could do some sensitivity lessons and learn that the ranchers 
are not their enemies. We are their friends and we can work 
with them. This isn't across the board. There are sectors that 
work better with the people than other sectors do.
    I do believe our biggest resource, our most important 
resource, is not our open spaces or our scenic rivers. It is 
our people and it is the people in Mexico and we need to treat 
them with civility. We also need to hold Mexico accountable for 
their actions. I do believe that they know what is happening to 
their people as they cross into the United States. We do need a 
border policy that we can all agree upon.
    I am very proud to be an American and I just want to leave 
you with this thought. I don't blame the people for wanting to 
come across to this great land because we do have a great land. 
What other nation started by declaring that, ``We hold these 
truths to be self-evident, that all men are created equal, that 
they are endowed by their Creator with certain inalienable 
rights.'' Rights that cannot be transferred to their government 
or another individual, the right to life, liberty, and the 
pursuit of happiness.
    As Thomas Jefferson so eloquently stated, ``Can the 
liberties of a nation be thought secure when we have removed 
their only firm basis, a conviction in the minds of the people 
that these liberties are a gift of God?'' We need to export not 
just our democratic form of Government. We need to export our 
constitution and our Bill of Rights and our Christian heritage. 
If Mexico would incorporate those into her democracy and treat 
her people like we treat our people, it would be a much better 
world for everybody. Thank you.
    [The prepared statement of Ms. Keeler follows:]

          Statement of Judy Keeler, Co-Owner, Keeler Ranches, 
                     Animas and Hachita, New Mexico

    Honorable Chairman Pombo, members of the House Committee on 
Resources, and especially our most honorable Congressman Steve Pearce 
from New Mexico. On behalf of my neighbors, family and myself, I thank 
you for holding this hearing on the importance of border security on 
federal lands, and for the opportunity to testify before you.
    My name is Judy Keeler. My husband, Murray, and I own two ranches 
along the New Mexico/Mexico Border. One ranch is located 30 miles south 
of Animas, New Mexico. It's approximately 12 miles north of the Mexican 
border and 5 miles east of the Arizona border in what's called the 
Bootheel of New Mexico. The other ranch is 7 miles east of Hachita, New 
Mexico, 45 miles west of Columbus, New Mexico and 5 miles north of the 
Mexican border. Both ranches are comprised of federal, state and 
private lands. Both ranches have their unique challenges; one has a lot 
of Latin Americans passing through it, the other has a lot of drug 
traffic passing through it. Both activities are illegal and both are 
destroying our nation.
    As I read through the Resources Committee's Disclosure Requirement 
I was struck by question 6--what professional licenses, certifications, 
or affiliation do I hold that are relevant to my qualifications to 
testify on this subject matter? I wrote, None.
    In reality, however, I have 54 years of experiences living along 
the border. I serve on the Hidalgo County Public Land Advisory 
Committee, have served 9 years on the Jaguar Conservation Team for 
Arizona and New Mexico and belong to several ranching and civic 
organizations.
    As a third generational New Mexican, and a 5th generational 
rancher, I grew up in the border lands, received my formal education in 
the border schools and enjoyed the border lands for recreation, as well 
as sustenance.
    As a young, impressionable child I was blessed to have grown up in 
the small town of Hachita, NM. Before Hillary Clinton's book, It Takes 
a Village, was published, I lived the phenomenon of a totally 
integrated community. Our town was a composite of America.
    I learned my first words in Spanish while tagging along with our 
Mexican worker as he built fences on our ranch. Although he never spoke 
English with anyone else, he taught me Spanish, using his broken 
English. He was a friend and a helper.
    Many of my school mates were bilingual. I shared meals with them. 
Their parents watched over my brother and I, just as my Mother and Dad 
cared for their children. We learned quickly, at an early age, 
regardless of nationality, none of us could get away with any mischief 
in our community. It didn't matter what language we spoke, we were 
neighbors. No we were more than that, we were family.
    Even today, my friends are from every race, color, creed and 
religion. That's how I was raised, that's how I live and that's the 
example I set for my children. It was to these friends and family 
members, many with Spanish surnames that I turned for advice when 
invited to speak. The testimony I'm giving today is a composite of 
their thoughts and suggestions, as well as my own.
    I'm giving you this background in order to preface what I'm about 
to say. The solutions offered here are not developed from some racial 
bias. They come from our heart and are based on facts and personal 
experiences.
    The problems along our southern border were not created in a single 
day and they won't be solved in a single day. They were not created by 
the Democrat Party or the Republican Party. They were created by 
imperfect human beings, irregardless of their nationalities or party 
affiliations, trying to solve a problem from the top down. What I see 
happening along our border cannot compare to 50 years ago. Times have 
changed and I'm here to discuss those changes.
    What are the problems along our southern border today?
    When the flood of illegal immigration finally came to the attention 
of our national leaders, their first reaction was to provide additional 
personnel and protections in and around our urban areas. As a former 
resident of El Paso, Texas, I understood this emphasis and agree it 
needed to be done.
    However, as border security tightened around the urban areas, the 
illegal traffic began to be funneled through the more open, rural areas 
of the border states, first in California, then Arizona and finally 
into New Mexico.
    Now, in order to resolve this situation, we're going to have step 
up border security in the rural areas, just as we did around the urban 
areas.
    We don't need more laws; we only need to enforce the ones that are 
already on our books.
    Mexico certainly enforces her immigration laws. If you've ever 
visited Mexico, you know they have check points where you must show 
your permiso (permission) to visit the interior. If you're papers are 
not in order, you will be detained by the Federales until the matter 
gets resolved. Your living conditions won't be the most comfortable for 
the duration of the time you spend in that nation.
    Why should the U.S. be expected to do anything less?
    How many illegal immigrants are coming across our border? What is 
happening to our federal, state and private lands as a result of this 
immigration? And, how do we resolve it? These are the answers we seek 
today.
    New Mexico shares 186 miles of border with Mexico. There are three 
(3) Border Patrol Sectors along this route: Las Cruces, Deming and 
Lordsburg. According to the Lordsburg Border Patrol Sector Chief, where 
our Animas ranch is located, one thousand (1,000) illegal immigrants 
are apprehended on a monthly basis. Although I tried to find out the 
apprehension rate for the Deming Sector, where our Hachita ranch is 
located, I ran into computerized answering machines and endless 
bureaucratic red tape.
    However, since the Deming Sector contains the border towns of 
Palomas and Chiapas, Mexico where many illegal immigrants start their 
trek into the United States, in addition to about 50 miles of border, 
it's safe to assume they apprehend twice (2xs) the number of illegal 
immigrants.
    It's the opinion of many that for every one illegal immigrant the 
Border Patrol apprehends; at least three (3) to five (5) pass through 
undetected. I hope you can envision what 3,000--10,000 people can do to 
the natural resources in one month.
    I'm sure I don't need to remind you that ranches in the West are a 
checkerboard of federal, state and private lands. The destruction to 
the land is not limited to just the federal lands. It's happening 
across ownership boundaries.
    Our ranch in Hachita has about 5 miles of frontage on New Mexico 
State Highway 9 which runs parallel with the Mexican border from Rodeo, 
New Mexico to Santa Teresa, New Mexico. It's not uncommon in that 5 
mile radius to find 20 to 30 footpaths on a daily basis. Each footpath 
bearing anywhere from 6 to 30 individuals trekking northward from 
Mexico to Interstate 10, or other predestined pickup sights.
    A neighboring rancher told me he built 4 1/2 miles of fence 
recently, in cooperation with the Bureau of Land Management (BLM). They 
did it through a cooperative project that used range improvement--8100 
money--as its source. In that 4 1/2 miles he came across at least 60 
trails. His concern before building the new fence was that it would be 
cut by the illegal immigrants as they passed through. He's been lucky; 
so far the fence is still intact.
    The nets the BLM placed over his 3 steel rim tanks several years 
ago have not faired as well. Originally placed there to protect any 
Aplomado Falcons from drowning, these nets have been cut by the illegal 
immigrants and patched by the BLM so many times they are now just a 
mass of patches.
    Border Patrol agents are not above cutting fences or laying them 
over when pursuing illegal immigrants. I can't begin to tell you how 
many times we've come across our fences cut, not just by the illegal 
immigrants, but by the Border Patrol themselves. We understand the need 
to pursue and capture the illegals, especially their coyotes, but it 
would be nice if the Border Patrol would repair the damage they create, 
or at the very least, contact us so we can make the repairs.
    In fact, it would a lot of help if Border Patrol agents were given 
``sensitivity'' classes and encouraged to befriend ranchers instead of 
taking an adversarial approach. Ranchers are not their enemies; we can 
assist them in their task if they won't talk down or berate us.
    We live in a very tender desert environment that has been hard-hit 
by drought over the last 10 years. Additional human impacts only serve 
to further stress the land, our livestock, the wildlife and our limited 
resources.
    One of our most limited resources is water. As one couple from 
Washington State observed as they walked the Continental Divide Trail 
in our area, ``the only water we found was at the windmills''. This 
always comes as a surprise to people that visit from the eastern and 
western coastal states.
    Water is vital to every community and business, including the 
ranching industry. But it is very limited in the West. Wildlife and 
cattle are both dependent upon the permanent waterings ranchers 
provide. Most of these waters are found on private land where our 
predecessors developed windmills, troughs and dirt tank impoundments, 
and we, as modern-day ranchers, maintain and continue to develop 
additional ones.
    These waterings are also utilized by the illegal immigrants. Unlike 
cattle and wildlife, humans can and do turn on valves and break floats 
draining the precious water onto the ground. They also defecate and 
bathe in these waters, cut nets that are supposed to protect the 
wildlife and continually stress our limited water resources.
    In addition, they congregate near the waters to rest. Livestock and 
wildlife won't come to water when there are a lot of people around. One 
rancher in our area had an outbreak of pasteurella in his calves. The 
state veterinarian was called in to find out how the outbreak 
originated. After a week of research, they determined the cattle were 
stressed by all the activity that kept them away from the water, which 
made them more susceptible to disease. If this is happening to our 
livestock, one can rightly surmise the wildlife are also impacted 
making them just as susceptible to diseases.
    One of the biggest impacts from the illegal activity is the trash. 
All one has to do is drive along Highway 9 between Rodeo and El Paso, 
Texas to see the trash that has been dropped by the illegal immigrants. 
Plastic water jugs, plastic bags, paper and other items litter the 
area.
    To really see the impacts, however, one needs to get off the road 
and walk through some of the draws and gulleys. My husband and I make 
it a habit of picking up the litter on our ranches, regardless of 
whether it's federal, state or private land. It always amazes me how 
many backpacks and water bottles we find. No one else cleans up after 
the illegal immigrants. In fact, the Border Patrol will often make the 
immigrants leave their water bottles, sacks of food and clothing or 
backpacks on the ground before loading them into their vehicles.
    One rancher in our area reported he had a calf with a plastic bag 
hung in its teeth. The poor animal couldn't spit the bag out nor could 
he swallow it. No doubt he had a hard time eating and drinking until 
the rancher dislodged the bag. No telling how many other calves die 
before they can be found and rescued.
    We also find human feces and toilet paper littering our ranches. 
This trash not only creates an eye sore for those who pass by, but a 
health hazard to livestock, wildlife and other human beings.
    Reports tell us that many of the illegal immigrants are bringing 
invasive species, as well as diseases, into our country. An employee of 
the U.S. Fish and Wildlife Service reported that one reason the 
Chiricahua Leopard Frog is on the brink of extinction is because of a 
lethal fungus that can be transported from one water hole to another by 
wildlife and humans alike. Called the chytrid fungus it has been linked 
to amphibian deaths in places as far away as Australia and Costa Rica. 
It kills frogs by growing on their skin, making it hard for them to use 
their pores to regulate water intake. The frogs literally die of thirst 
in the water.
    Archeological sites are also being impacted by this traffic. 
Perhaps not intentionally, but these sites are being destroyed by the 
increased human activity.
    Our grasses are being trampled out where the trails cut across the 
land. In the places where large groups of illegal immigrants congregate 
to rest and regroup, vegetation becomes nonexistent. Fire can also have 
a negative impact on grasses. Several fires, started by illegal 
immigrants building campfires, have burned so hot they've destroy not 
just the grass, but the root systems so the grass can never grow back. 
As a rancher, we cannot afford to lose our grasses. Without them we 
have no livestock operation.
    It's also costing our communities a lot of money to provide medical 
services for the illegal immigrants. On July 3rd we had an immigrant 
show up in our corrals during a family gathering. No one saw him walk 
in. But we did see him thrashing on the ground in convulsions and ran 
to his assistance. We called the border patrol and emergency services, 
which are very limited and not always available in our rural community. 
Until one of them arrived, we made him as comfortable as possible; 
offering him Gatorade and water to rehydrate him.
    He told us he was from Oaxaca that's in the extreme southern 
portion of Mexico and had sold everything he owned to pay a coyote 
$3,000 to bring him into the U.S. When he couldn't keep up with the 
rest of his group, the coyote gave him some pills to pep him up. When 
this failed to help, he was left behind. Lost, dehydrated and 
despondent, he found his way to our home.
    The Border Patrol was the first to respond, placed him in the back 
of their vehicle and transported him. We learned the next day he was in 
the Silver City hospital with kidney failure.
    In another instance my husband came across an illegal immigrant 
that had been beat up by his coyotes. They also stole the money he had 
in his pockets and left him to die. The poor guy wanted a ride into 
town, but my husband knew if he was caught transporting an illegal 
immigrant his vehicle could be impounded and he could be fined. 
Offering him some crackers and what water he had, he asked if it was 
okay to call the Border Patrol as soon as he was within cellphone 
service.
    The man was afraid the Border Patrol was like the Federales in 
Mexico and begged him not to call. Murray assured him the federal 
agents were different in the U.S. and would take care of him. The guy 
finally agreed to let him call for help. We never heard whether the 
Border Patrol was able to find him.
    A few weeks ago three illegal immigrants, a husband, wife and young 
native Indian girl from Mexico, came to our home in Hachita seeking 
help. The Indian girl had not been able to keep up with their group so 
the coyote had left them in the mountains. The couple was concerned 
that if they left the girl alone, she would die. Although they had sold 
everything they owned to buy their way into the U.S., and would return 
to their country destitute, they stayed to help their fellow human 
being. We called the Border Patrol. They picked them up.
    Most recently we had a group with three young children pass 
through. The children were dehydrated and exhausted. Although we tried 
to persuade them to let the Border Patrol come get them, they trekked 
on. Only the Lord knows if they made it.
    According to the Luna County Sheriff's Department, they find at 
least 10 illegal immigrants dead each year. These are the ones that are 
reported and they are able to find. Many go unreported and 
undiscovered. Although damage reports to property are down this year, 
the sheriff's office still has 5 to 6 reports each month that range 
from minor damage to broken water lines and valves to grand theft of 
guns, cash, and autos.
    I could go on and on with my stories but my time to speak is 
limited. In my mind the human impacts; to both the residents that live 
along the border and the illegal immigrants that pass through, are the 
most tragic results of all this illegal activity. We're leaving a 
legacy to our children that won't be a positive one. No doubt my 
children and grandchildren will never forget the trash, resource 
damages, or our little friend from Mexico writhing in convulsions as he 
lay in our corrals fighting for his life.
    I don't believe elected officials in Mexico are blind to the 
tragedies and indignities their people suffer in order to come to the 
United States. Many of my friends believe they turn a blind eye to this 
travesty and allow the United States to care for their downtrodden and 
poor.
    NAFTA may have brought industrialization to northern Mexico, but it 
has not resolved the problems lurking farther south. Many of the 
illegal immigrants are from southern Mexico, as well as Central 
America. They hope to find a better life here. No one can fault them 
for this desire. But, they have no idea what ordeals they will pass 
through in order to achieve their dream.
    One immigrant showed up at our ranch in Animas asking how far it 
was to Denver. We asked if he intended to walk there. When he responded 
affirmatively we told him it was about 600 more miles and it would take 
him at least a month to walk it. He let us call the Border Patrol. They 
returned him to Mexico.
    What are our solutions? How can we resolve the situation?
    The solutions will not be easy. There must be a many pronged 
approach, including a fence and a guest worker program.
    We must show our neighbors to the south some tough love. Mexico has 
to acknowledge it has a problem. They must assume the responsibility to 
care for their people and own up to the failure of their country to 
meet those needs. The nation must be held accountable.
    The U.S. needs to realize Mexico has a caste system. They have the 
haves and they have the have nots. There is no middle class even though 
it is nation rich in untapped natural resources and with a people that 
have tremendous potential. Under the present conditions individuals 
born into this caste system have no means of escape, except to come to 
the United States.
    Have you ever wandered why we don't have an influx of immigration 
from Canada? Could it be because Canada does not have the abject 
poverty Mexico has? Mexico must stop shipping its poverty across the 
border. They must create opportunities for their people and give them 
hope for a future. How do they do this? They need to encourage and 
support small businesses other than illegal drugs. They also need to 
provide free education beyond the 8th grade. They must build trust 
between their government and their people. This is an awesome task that 
can only be accomplished by men of integrity and honor.
    In the meantime, Mexico needs to reciprocate in securing the 
border.
    I'm not a proponent of building a wall between the U.S. and Mexico. 
I believe it will be too expensive and ultimately it will not stop the 
illegal immigrants. But, we do need a fence. First, we need a law that 
clearly defines the border area, not the 50-150 miles zone as proposed 
in Border XXI, but a 60 foot easement where a road can be built along 
the border. And, the money to build a fence and road must be 
appropriated by Congress.
    Fiber optics could be put in as the road and fence are built with 
well-placed cameras that can monitor illegal crossings. With the fiber 
optics this information could be sent to the nearest Border Patrol 
headquarter and monitored 24/7.
    The fence does not have to be some colossal feat. It can be 
practical and achievable. It could be built with railroad ties set on 4 
feet centers with 4 or 5 strands of wire that would allow the wildlife 
to migrate between the U.S. and Mexico. The cameras could act as the 
deterrent, not the fence.
    We also need to define whose responsibility it will be to maintain 
this fence. I know ranchers that have gone to their grave trying to 
seek a solution to this issue with our federal government. It's time to 
get it resolved!
    The Army can be very efficient in patrolling our borders. In 
October of last year they held maneuvers in the Hachita/Columbus area. 
They headquartered on the federal lands on our ranch next to Highway 9. 
In 10 days they assisted the Border Patrol in apprehending over 1,000 
illegal immigrants. Although they slowed down the crossings during the 
month they were there, the illegal crossings resumed as soon as they 
left. In fact, a big celebration was held in Palomas, Mexico the 
evening the Army headed for Fort Bliss.
    Their Strikers and some of their other heavy equipment tore up the 
land where they headquartered but we were impressed with their 
dedication to our country, their technology and their resolve to 
apprehend the illegal immigrants.
    The Army is not a long-term solution, however. They need too much 
support personnel and equipment to carry out their job. It is estimated 
that for every one (1) Army personnel to watch the border, three (3) 
support personnel are required. They require sleeping quarters, food 
and other essentials while on deployment. This can be very expensive 
over an extended period of time. The Border Patrol does not require the 
same kind of support. They do need, however, the same technology that 
is available to our Army.
    I understand the number of illegal immigrants apprehended has very 
recently dropped. No one knows why. The numbers began to fall about a 
week before the National Guard arrived. Some think it's because the 
Border Patrol might be doing a better job apprehending the coyotes that 
guide the immigrants across the border; others believe changes in the 
catch and release policy have kept a lot of the illegal immigrants from 
recycling.
    No matter the reason, we are pleased President Bush has called up 
the National Guard. Their assistance will help the Border Patrol agents 
stay on task and alleviate some of the administrative details that so 
often bog them down.
    New Mexico State Police have also had a physical presence along the 
New Mexico border for some time now; thanks to Governor Richardson. 
However, we also need to think about empowering our local law 
enforcement agencies. The local sheriff offices are all too often 
under-funded and understaffed. It's their job to respond quickly to 
their rural constituents. But, their resources are stretched to the 
max. They need additional officers, improved communications and support 
from our federal government. It would be nice if Congress would allow 
some of our tax dollars to trickle back down from Washington, D.C., to 
help out the local law enforcement agencies instead of building up the 
federal bureaucracy.
    Although joint agency agreements may bring some of the federal 
money down to the local law enforcement level, all too often the 
federal hierarchy signing on to these agreements are rotated out of the 
local area so there's never any consistency in personnel or policy. 
Neither do they take the time to get acquainted with the local people, 
their customs, the rural roads or the land. All too often there is 
little accountability to the state and local law enforcement agencies; 
or the rural citizens. The usual response to mishaps and 
misunderstandings is CYA. We don't need more federal bureaucrats, just 
some financial help to do the job ourselves!!
    In addition, we need to start penalizing big corporations that 
recruit and hire illegal immigrants. Our first bad experience with 
illegal immigration happened about 12 years ago. Nineteen (19) Chinese 
immigrants and their coyote showed up at our Animas ranch. They had 
been lost in the Peloncillo Mountains for three days without food or 
water. Visibly agitated and upset, they kept kicking and pushing their 
coyote and would not let him out of their sight.
    Their behavior frightened my children. They were afraid the Chinese 
immigrants would overpower my husband, steal our vehicle, eat their 
pets; or worse yet, kill one of us. Gratefully, none of this happened. 
But it did take four hours before the law enforcement agencies arrived. 
In the meantime, the immigrants fought over the water hose to get a 
drink, cooked some pork from our freezer and fought over the spoon so 
they could lick the grease that was left in the pot.
    Although we had a hard time communicating with them, we finally 
understood they wanted to use our phone. They called Van Nuys, 
California and the Bronx, New York. Sixteen other Chinese immigrants 
were discovered hiding on the Gray Ranch the next day. We found out 
later they were a part of a large group that had paid $10,000 a piece 
to be transported into the United States. They came by boat from China 
to Columbia, crossed Mexico by bus, and were going to walk across the 
border mountains to Rodeo where they were to be picked up and 
transported to Phoenix, Arizona, then flown to New York city. There 
they would be indentured to their employer until the money was paid 
back. And some think slavery has been abolished in the United States of 
America. For sure it was too expense for the U.S. to deport them back 
to China. I've always wandered what happened to them.
    Our nation's greatest resources are not our old growth trees, 
pristine grasslands, scenic rivers or open spaces. Our greatest 
resource is the people who make up this great country. We need to know 
that we too are secure in our own freedoms so we can build a better 
future for ourselves, as well as our fellow human beings. Only then 
will all the resources of our world be protected and plentiful.
    In my opinion, if all the nations in the world, starting with our 
sister nation Mexico, would adopt, not just our democratic form of 
government, but the precepts our Founding Fathers tried to instill in 
our nation, life would be much better for everyone. What other nation 
began by declaring that ``we hold these truths to be self-evident, that 
all men are created equal, that they are endowed by their Creator with 
certain inalienable rights'': Rights that cannot be transferred to 
their government or another individual; the right to life, liberty and 
the pursuit of happiness.
    As Thomas Jefferson so eloquently stated: ``Can the liberties of a 
nation be thought secure when we have removed their only firm basis, a 
conviction in the minds of the people that these liberties are a gift 
of God?''
    I thank God for the Constitution of the United States of America 
and that I live here. Instead of exporting democracy, we should be 
exporting our Constitution, including our Bill of Rights and our 
Christian heritage! If we would all treat one another in the same way 
we want to be treated, what a better world we would all live in. It's 
such a novel concept!!
    Until these human rights can be secured in other nations, we need 
some relief from the flood of people that our seeking what does not 
exist in their own countries.
    In summary, there are no easy solutions to our border dilemma. It 
may take years to resolve these issues. Fences won't work. Diplomacy 
isn't working. Perhaps it's time we start thinking out of the box, put 
our head together and come up with solutions that will work.
    Thank you for inviting me to give my testimony.
    [NOTE: Pictures attached to Ms. Keeler's statement have been 
retained in the Committee's official files.]
                                 ______
                                 
    Mr. Pearce. Thank you very much.
    Mr. McGarvie, appreciate you being here today.

          STATEMENT OF JIM McGARVIE, VICE PRESIDENT, 
                 OFF-ROAD BUSINESS ASSOCIATION

    Mr. McGarvie. Thank you. I would like to respectfully 
object to the sequence of speakers. That is a difficult 
testimony to follow. She did a great job of personalizing the 
situation.
    Good morning, Mr. Chairman, Congressmen Radanovich and 
Bilbray. Thank you for the opportunity to testify this morning.
    My name is Jim McGarvie. I am Vice President of the Off-
Road Business Association (ORBA), a nonprofit trade association 
of businesses in the off-highway vehicle recreation industry. 
Our members, the future profitability of our members businesses 
rely upon the continued existence of OHV recreational 
opportunity on public lands. I am also on the board of 
directors of the San Diego Off-Road Coalition, another 
nonprofit organization of end users, off-roaders gathered 
together to try to promote our sport in a responsible manner.
    I am here not only representing those two organizations but 
speaking for the OHV recreation community in general. At first 
glance border security would seem to have little to do with OHV 
recreation. Certainly there are impacts from illegal 
immigration with far greater import than those impacting OHV 
recreation. Impacts to OHV recreation are not insignificant and 
are important.
    I will break those impacts down into two broad categories, 
the impact of border security upon OHV recreation and the 
impact on OHV recreation when that border security fails.
    The impact upon OHV recreation of border security. No one 
believes more strongly than I in the necessity of a strong 
border but there is always a price for security. Including in 
the negative impacts of a strong border are a few which effect 
OHV recreation. Probably the greatest of those are the closures 
of public lands to OHV recreation in the name of border 
security. There are dirt roads and trails in the Cleveland 
National Forest east of San Diego which used to be open to OHV 
recreation but are now closed to us in the name of Homeland 
Security.
    There is a portion of the desert managed by the Bureau of 
Land Management between Interstate 8 and the Mexican border 
known as the Yuha Desert. In the Yuha, all privately owned 
motorized vehicles are required to remain on designated roads 
and OHVs, those not licensed for street use, are restricted to 
only three of those trails presumably to protect species that 
exist in that area.
    If we violate those restrictions, we are subject to fines, 
vehicle confiscation and possible jail time. However, the 
Border Patrol frequently traverse the area in pursuit of 
illegal immigrants. We understand and sympathize with the 
mission of the Border Patrol but, in effect, the illegal 
immigrants are causing the area to be heavily utilized by 
vehicles in chase with the consequent impact upon the 
environment, while we cannot access the area with vehicles for 
recreation.
    The impact on OHV recreation when border security fails. 
The border fencing in the San Diego area has proven quite 
successful in reducing illegal border crossings in that area, 
but has pushed the problem further east into public lands 
managed by the BLM and the Forest Service. A prime example is 
in the Imperial Sand Dunes Recreation Area (ISDRA) in Imperial 
County near the Arizona and Mexico borders.
    This is one of the most popular OHV areas in the country, 
seeing as many as 200,000 off-roaders on a busy holiday 
weekend. The Mexican border is ill-defined where it crosses the 
dunes and impossible to fence in that area. It is relatively 
easy to violate the border without realizing it.
    Because of the proximity to the border, the ISDRA, 
particularly that portion known as Buttercup Valley between 
Interstate 8 and the border has been the scene of armed 
robberies and shootings attributed to thieves entering the 
country illegally and then fleeing back across the border. I 
provided you gentlemen with a map of that area and a newspaper 
article about that particular incident.
    There has also been drug smuggling reported in that area. 
Many off-roaders now stay away from the Buttercup area due to 
the risks involved. In fact, one BLM employee told me under the 
condition of anonymity that he would not take his family 
camping there. That tells you something.
    Another example of lost OHV opportunity due to a less than 
secure border has been referred to a couple of times already 
this morning, the ``Horse Fire,'' a wildfire which occurred in 
the mountains east of San Diego just last month. This fire 
consumed almost 17,000 acres, most of which are in the 
Cleveland National Forest including portions of two wilderness 
areas.
    In addition to the terrific impact upon our natural 
resources as consequences of fire suppression efforts, as well 
as the fire itself, the OHV area closes to San Diego and the 
largest of only two legal OHV areas this side of the desert was 
largely consumed and will be closed for the foreseeable future.
    What was the cause of this fire? According to a Cleveland 
National Forest press release, and I quote, ``Based on the fire 
investigation, the cause of the fire was an abandoned campfire 
in a side drainage of Horsethief Canyon. Evidence collected at 
the scene suggest that the campfire was left by undocumented 
immigrants.'' More OHV opportunity lost, more recreational 
opportunity lost, more loss of profits for the OHV industry.
    Thank you very much.
    [The prepared statement of Mr. McGarvie follows:]

             Statement of James McGarvie, Vice President, 
                     Off-Road Business Association

    My name is Jim McGarvie. I am Vice President of the Off-Road 
Business Association (ORBA), a nonprofit trade association of 
businesses in the off-highway vehicle (OHV) recreation industry. This 
is a huge and rapidly growing industry, estimated to contribute 
approximately nine billion dollars annually to the economy of the State 
of California alone. The future of this industry is directly related to 
the amount of OHV recreation opportunity available. As land open to OHV 
recreation shrinks, for whatever reason, industry profits shrink as 
well. The primary mission of ORBA is to prevent further loss of access 
to public lands. I am testifying today not only representing the Off-
Road Business Association but representing OHV recreation in general.
    At first glance, border security would seem to have little to do 
with OHV recreation. Certainly there are impacts from illegal 
immigration with far greater import than those impacting OHV 
recreation. But impacts to OHV recreation are not insignificant, and 
are important.
    I will break those impacts down into two broad categories: The 
impact of border security on OHV recreation and the impact on OHV 
recreation when border security fails.
The impact upon OHV recreation of border security:
    No one believes more strongly than I in the necessity of a strong 
border. But there is always a price for security. Included in the 
negative impacts of a strong border are a few which effect OHV 
recreation. Probably the greatest of those are the closures of public 
lands to OHV recreation in the name of border security. There are dirt 
roads and trails in the Cleveland National Forest and on BLM land east 
of San Diego which used to be open to OHV recreation, but have been 
closed to us in the name of Homeland Security.
    There is a portion of the desert managed by the Bureau of Land 
Management (BLM) between Interstate 8 and the Mexican border known as 
the Yuha desert. In the Yuha, all privately-owned motorized vehicles 
are required to remain on designated roads--and OHV's are restricted to 
only three of those--presumably to protect species that exist there. If 
we violate those restrictions we are subject to fines, vehicle 
confiscation and possible jail time. However, the Border Patrol 
frequently traverses the area in pursuit of illegal immigrants. We 
understand and sympathize with the mission of the Border Patrol, but in 
effect illegal immigrants are causing the area to be heavily utilized 
by vehicles in chase, while we cannot access the area with vehicles for 
recreation.
The impact on OHV recreation when border security fails:
    The border fencing in the San Diego area has proven quite 
successful in preventing illegal border crossings in that area, but has 
pushed the problem further east into public lands managed by the BLM 
and the Forest Service.
    A prime example is in the Imperial Sand Dunes Recreation Area 
(ISDRA) in Imperial County near the Arizona and Mexico borders. This is 
one of the most popular OHV areas in the country, seeing as many as 
200,000 off-roaders on a busy holiday weekend. The Mexican border is 
ill-defined where it crosses the dunes, and it is relatively easy to 
violate the border without realizing it.
    Because of the proximity to the border, the ISDRA--particularly 
that portion known as Buttercup Valley between Interstate 8 and the 
border--has been the scene of armed robberies and shootings attributed 
to thieves entering the country illegally and then fleeing back across 
the border. There has also been drug smuggling reported in that area. 
Many off-roaders now stay away from the Buttercup area due to the risks 
involved. One BLM employee told me under the condition of anonymity 
that he would not take his family camping there.
    Another example of lost OHV opportunity due to a less than secure 
border is the ``Horse Fire,'' a wildfire which occurred in the 
mountains east of San Diego just last month. This fire consumed over 
16,000 acres, most of which are in the Cleveland National Forest, 
including portions of two wilderness areas. In addition to the terrific 
impact upon our natural resources as a consequence of fire suppression 
efforts and the fire itself, the OHV area closest to San Diego--and the 
largest of only two legal OHV areas this side of the desert--was 
largely consumed and will be closed for the foreseeable future. What 
was the cause of this fire? According to a Cleveland National Forest 
press release, ``Based on the fire investigation, the cause of the fire 
was an abandoned campfire in a side drainage of Horsethief Canyon. 
Evidence collected at the scene suggests that the campfire was left by 
undocumented immigrants.'' More OHV opportunity lost; more loss of 
profits for the OHV industry.
Solutions:
    I don't have the answers to this problem. If I did I would probably 
be working in Washington, DC. From a layman's standpoint the fence 
seems to work well where it exists. Perhaps it would work even better 
if it continued further east. It seems to me that where there is a 
fence along the border, the work of the Border Patrol is made 
significantly easier. It is likely that, were the border fenced through 
the back country and desert east of San Diego, most if not all of the 
closures of areas of OHV opportunity could be reopened. Many of the 
risks to off-roading families would be eliminated. The number of 
illegal immigrants dying in their attempt to find work in the United 
States would be drastically reduced, as would the number of illegal 
campfires.
    Thank you.
    [NOTE: Attachments to Mr. McGarvie's statement have been retained 
in the Committee's official files.]
                                 ______
                                 
    Mr. Pearce. Thank you, sir.
    Mr. Nassif, thank you very much.

           STATEMENT OF AMBASSADOR THOMAS A. NASSIF, 
             PRESIDENT, WESTERN GROWERS ASSOCIATION

    Mr. Nassif. Thank you. Mr. Chairman, Congressmen Radanovich 
and Bilbray, first let me say how much respect and admiration 
we have for our Border Patrol, the job they do without the 
necessary tools to do it correctly, one of which is 
comprehensive immigration reform.
    I am President and CEO of Western Growers and I appreciate 
the opportunity to testify before you today not only on behalf 
of Western Growers but on behalf of the Agricultural Coalition 
for Immigration Reform and the National Coalition of 
Agricultural Employers.
    Western Growers is an agricultural trade association whose 
3,000 members grow, pack and ship approximately 90 percent of 
the vegetable and 70 percent of the fruits and tree nuts in 
California and Arizona. That is about 50 percent of all the 
produce in the United States.
    We grow the best medicine in the world. Our farms and 
ranches are the open space. We are the green space. Because we 
derive our living from the land, we are the best stewards of 
the land. Our members are committed to preserving those 
resources for future generations of Americans.
    In summary, my testimony today will focus on the impact of 
immigration policy on the environment. In addition, we are 
deeply troubled by the fact that our current enforcement only 
approached immigration policy has forced determined migrants 
into the often-deadly deserts of the southwestern United 
States.
    Hundreds of miles of illegal trails and roads have been 
created from undocumented aliens crossing through refuge lands. 
This proliferation of trails and roads damages and destroys 
cactus and other sensitive vegetation, disrupts revegetation 
efforts, disturbs wildlife and their habitat, and causes soil 
compaction and erosion.
    Western Growers believes it is necessary to preserve the 
environmentally fragile desert lands along the southern border 
by opening legal channels to migration while securing our 
borders. At the same time, we recognize that as the border 
becomes more secure the human traffickers are forced to direct 
illegal aliens to areas of the border that have not been used 
previously for this traffic. This illegal traffic is 
increasingly moving toward and into very environmentally 
sensitive Federal and nonFederal lands and creating 
environmental havoc.
    Illegal trails and roads carved by immigrants can destroy 
vegetation, wildlife habitat, and effect erosion patterns. 
Conservationists and biologists estimate that it could take 
over a century for fragile desert soils and plants to recover 
from this damage. Further insult to this precious land is 
caused by the trash and garbage strewn about by these 
traffickers.
    It has been estimated that the average desert walking 
immigrant leaves behind eight pounds of trash during a journey 
that under the best-case scenario lasts one to three days. 
Assuming that half a million people cross the border illegally 
into Arizona annually, that translates to 2,000 tons of trash 
that immigrants dump each year.
    According to a report released by Defenders of the 
Wildlife, one of the nation's most progressive advocates for 
wildlife and its habitat, establishing a simple and feasible 
guest worker program is the single most important reform that 
Congress can enact to protect our precious desert lands.
    There is a sensible solution to this problem which will not 
only protect environmentally sensitive Federal lands in the 
southwest, but will also bolster the national security, benefit 
the U.S. economy, and provide humanitarian relief. That is a 
simple, feasible guest worker program.
    It is axiomatic that a program that allows workers to enter 
the United States legally directs those workers to enter and 
establish points of entry rather than the unforgiving southwest 
desert. The bottom line is that the U.S. economy needs 
additional workers to do many of the jobs that Americans will 
not do.
    [Audience reacts.]
    Mr. Nassif. It is beyond dispute that no one in this 
audience raises their children to become farmworkers. The 
simple fact is our crops are going to be harvested by foreign 
workers. The only issue is whether or not the harvesting occurs 
in the United States where for every farmworker job we create 
3.5 jobs Americans will do or whether some foreign economy will 
benefit from that labor.
    Our members are reporting labor shortages in increasing 
numbers throughout California and Arizona. If our farmers 
cannot obtain an adequate labor supply, they will be forced to 
sell their farms to developers eliminating the open space, or 
alternatively they will move their production, as is happening 
today, to Mexico or other countries where those willing to do 
agricultural work are plentiful.
    If our farmers cannot provide the supermarkets and food 
service companies with locally grown product when they need it, 
they will find it offshore in Mexico or China.
    Mr. Chairman, it is hoped that this testimony will provide 
a pathway that secures our borders, preserves our delicate 
environmental resources both public and private, and benefits 
our economy for future generations. Thank you very much.
    [Applause.]
    [The prepared statement of Mr. Nassif follows:]

             Statement of The Honorable Thomas A. Nassif, 
                   President and CEO, Western Growers

    Mr. Chairman, and Members of the Committee, thank you for the 
opportunity to testify today on behalf of Western Growers. It is very 
much appreciated that you are holding this important hearing here in 
California.
    Western Growers is an agricultural trade association whose 3,000 
members grow, pack and ship 90 percent of the fresh vegetables and 
nearly 70 percent of the fresh fruit and nuts grown in Arizona and 
California, about one-half of the nation's fresh produce. I like to say 
that we grow the best medicine in the world--fresh fruits, vegetables, 
and nuts. Western Growers is a member of the Agricultural Coalition for 
Immigration Reform (ACIR) and the National Coalition of Agricultural 
Employers (NCAE). Both are large national coalitions of agricultural 
employers who support comprehensive immigration reform. Western 
Growers, ACIR and NCAE strongly support reform of the H-2A temporary 
agricultural worker program, which currently is inaccessible to most 
farmers in California and Arizona. We also support an earned adjustment 
of status for experienced agricultural workers currently employed in 
agriculture. These experienced farm workers are necessary to maintain 
current levels of agricultural production.
    My name is Tom Nassif. I am President and CEO of Western Growers. I 
first represented the agriculture industry as an associate, and then as 
a partner, in the law firm of Gray Cary Ames & Frye specializing in 
agricultural labor law. I represented the Imperial Valley Vegetable 
Growers Association and numerous growers and shippers in the Imperial 
Valley, Central Valley and Arizona on all kinds of agricultural labor 
law matters. I left the practice of law in 1981 to join the Reagan 
Administration, first as Deputy and Chief of Protocol for the White 
House, and then as Deputy Assistant Secretary of State for Near East 
and South Asian Affairs in the Office of Protocol in 1983 and in 1985. 
I was then named by President Reagan as his Ambassador to the Kingdom 
of Morocco.
    Since joining Western Growers in 2002, our trade association has 
constantly dealt with a multitude of environmental and land issues on 
behalf of members. These issues include environmental regulation, such 
as pesticide regulation; water use and storage; and food safety and 
security, among other things. I have not received federal grants of any 
kind. Western Growers has received limited grants through market 
development programs (MDP) such as the Market Access Program (MAP) and 
other MDP's administered by the United States Department of 
Agriculture's Foreign Agricultural Service (FAS) program.
    To help our members stay competitive in an increasingly fierce 
global marketplace, Western Growers provides a host of services on 
which our members rely, including representation in government affairs; 
communications and media relations; and international trade and 
transportation services, to name a few. Western Growers Assurance Trust 
(WGAT) is the largest insurer of benefits for the agriculture industry, 
offering a variety of health care, dental, vision service and life 
insurance plans, to farmers, their employees, and others affiliated 
with the agriculture industry. Today, more than 100,000 farm employees 
and their dependents receive employer sponsored benefits through WGAT. 
In addition, for over 30 years WGAT has contracted directly with 
doctors, dentists, pharmacies and hospitals in Mexico to provide 
seasonal farmworkers with access to healthcare in Mexico.
    In summary, my testimony today will focus on immigration policy, 
and specifically, the impact of immigration policy on the environment. 
Our farmers and ranchers are the open space, we are the green space. 
Because we derive our living from the land, we're the best stewards of 
the land. Our members are committed to preserving those resources for 
future generations of Americans.
    In addition, we are deeply troubled by the fact that our current 
enforcement-only approach to immigration policy has forced determined 
migrants away from official ports of entry into the forbidding and 
often deadly desert of the Southwestern United States. Hundreds of 
miles of illegal trails and roads have been created from undocumented 
aliens crossing through refuge lands. This proliferation of trails and 
roads damages and destroys cactus and other sensitive vegetation, 
disrupts re-vegetation efforts, disturbs wildlife and their habitat, 
and causes soil compaction and erosion. Moreover, hundreds of tons of 
debris, such as water bottles, diapers, and abandoned vehicles are 
jettisoned on federally protected lands by undocumented aliens. History 
clearly demonstrates that when legal channels to immigration are made 
available, illegal immigration plummets. The evidence is clear that a 
comprehensive approach to immigration reform, one that recognizes the 
economic realities of the needs of employers and foreign workers is 
crucial to reducing illegal immigration. The creation of a feasible and 
reliable guest worker program will drastically reduce illegal 
immigration, thereby preserving precious environmental resources.
Western Growers is Dedicated to Preserving the Environment
    To put this issue into context, it is important to fully understand 
California's reliance on agriculture, and the country's reliance on 
California agriculture. California is the nation's leading agricultural 
exporter. Between 16-19 percent of California's agricultural production 
is exported to international markets annually, totaling more than $6.5 
billion in revenues.
    California is the largest producer of specialty crops in the United 
States. These specialty crops provide 60 percent of America's daily 
nutritional value. California produces 99 percent or more of the 
following specialty crops: almonds, artichokes, clingstone peaches, 
dates, figs, kiwifruit, nectarines, olives, persimmons, pistachios, 
plums, dried (prunes), raisins and walnuts. The number one export is 
almonds.
    Many Western Growers members are third and fourth generation 
farmers. It is not unusual to find fifth and sixth generation farmers 
among our members. Western Growers' Chairman, Will Rousseau's great-
grandparents arrived in Arizona via covered wagon and began farming the 
land. Many have been farming the same exact same land that their 
grandfathers, great-grandfathers and great-great-grandfathers farmed so 
many years ago. Their longevity and fixedness is a testament to the 
environmentally friendly, sustainable farming practices that have been 
successfully implemented and improved upon for generations. This is the 
very definition of sustainable agriculture which refers to the ability 
of a farm to produce perpetually. An ever increasing number of our 
members are engaged in organic farming. The movement toward organic 
production is consistent with our members' ever-present desire to be 
more environmentally friendly, while also satisfying increasing 
consumer demand for organics.
    Environmental protection is a priority for the conservation of 
precious natural resources, the continued health of our planet, and the 
continued viability of the fresh produce industry. Western Growers 
members recognize their responsibility as global citizens and they 
continually strive to reduce the environmental impact of the work they 
do and the commodities they produce. Western Growers takes pride in the 
fresh produce industry's history of innovation and thoughtful food 
production practices. How our production practices impact the 
environment is of the utmost importance to us, and environmental 
considerations are integral to our members' business practices. From 
the time the soil is prepared for planting and throughout the food 
production and processing cycle, our members take care to keep their 
agricultural activities environmentally sound and our fruit, vegetable 
and nut products, nutritious and safe to eat.
    Recognizing our role as an environmental leader and steward, in 
1991 Western Growers adopted and implemented the Western Growers 
Environmental Code of Concern, which guides our members on 
environmental practices.
    Increasingly, Western Growers and state and national agricultural 
groups are working more closely together because of a mutual 
recognition that California and Arizona agricultural fields, orchards 
and vineyards constitute the present and future green space and open 
space of these productive states. Consider these statistics about 
California agriculture:
    <bullet>  More than one-quarter of California's landmass is used 
for agriculture--about 27.7 million acres, including 5 million acres of 
federal grazing land.
    <bullet>  Roughly 1.5% of the state's total agricultural land 
(including a similar percentage of its cropland) was converted to urban 
uses between 1988 and 1998.
    <bullet>  Every year, 20,000 acres of California farmland is turned 
into housing developments.
    Clearly, agriculture is one of the greatest industries of this 
great state. Our bountiful harvest supplies the nation and the world 
with the best fruits, vegetables and nuts in the world. However, if our 
growers can't find a dependable and legal workforce, they will have no 
choice but to shut down their operations or move production to Mexico 
and other foreign soils. This will necessarily expedite the paving over 
of precious farmland. And once a farm is paved over, it can never be 
converted back to green space.
Western Growers Believes it is Necessary to Preserve the 
        Environmentally Fragile Desert Lands Along our Southern Border 
        by Opening Legal Channels to Migration
    Western Growers and its members support border enforcement in a 
clear recognition of the need to secure our nation. At the same time, 
it recognizes that as the border becomes more secure, it is forcing 
``coyotes'' or human traffickers to direct illegal aliens to areas of 
the border that have not been used previously for this traffic. This 
illegal traffic is increasingly moving toward and into very 
environmentally sensitive federal and nonfederal desert land. This 
increased illegal traffic in fragile desert lands is causing 
environmental havoc.
    The environmental destruction of such treasures as the Organ Pipe 
Cactus National Monument, a 330,000-acre park in the Sonoran Desert on 
the Arizona-Mexico border, is caused primarily by two distinct but 
diametrically opposed groups. First, the professional illegal human 
smugglers are traveling along these highly sensitive areas in 
increasing numbers. This coyote traffic consists of both foot and 
vehicular traffic, both of which trample the fragile desert flora. 
Illegal trails and roads carved by immigrants can destroy sensitive 
vegetation and wildlife habitat, and affect erosion patterns. 
Conservationists and biologists estimate that it could take over a 
century before fragile desert soils and plants recover from the damage.
    Further insult to this precious land is caused by the trash and 
garbage strewn about by these traffickers. It has been estimated that 
the average desert-walking immigrant leaves behind 8 pounds of trash 
during a journey that, under the best case scenario, lasts one to three 
days. Assuming a half million people cross the border illegally into 
Arizona annually that translates to 2,000 tons of trash that migrants 
dump each year.
    Migrant trash is especially vexing because it is scattered along 
remote areas where it is dangerous to grazing cattle and wildlife and 
difficult and expensive for waste management crews to reach and pick 
up.
    According to a report released by Defenders of Wildlife, one of the 
nation's most progressive advocates for wildlife and its habitat, 
immigrant traffic and border patrol activities have left the following 
examples of damage:
    <bullet>  Vehicles abandoned by illegal immigrants are expensive to 
remove and towing them causes additional damage.
    <bullet>  Trash and human waste left behind by illegal immigrants 
affects soil and water quality.
    <bullet>  Low level helicopter flights by the Border Patrol disturb 
wildlife and habitat areas.
    <bullet>  Off-road vehicle patrols damage fragile regions vital to 
local wildlife. U.S. road, light, and fence-building projects disturb 
wildlife, destroy habitat and shift animal migratory patterns.
    Thus, it is not just the coyotes and the human cargo that cause 
substantial damage to the habitats of the southwest. Federal, state, 
and local law enforcement groups and their volunteer counterparts 
travel over these same desert lands in an effort to apprehend those 
sneaking across the border. Law enforcement agencies along the border, 
as laudable as their mission is, use large motor vehicles that cause 
further damage to the desert environment. Moreover, the flow of 
migrants into the desert compels the necessary humanitarian efforts by 
U.S. citizens to journey into the dangerous desert to help save the 
lives of vulnerable migrants who become stranded in the desert. Again 
while noble of intention, the sensitive desert habitats become further 
harmed.
Western Growers Supports a Solution that Enforces our Borders, Enhances 
        the Environment and Preserves Agriculture in California and 
        Arizona
    There is a sensible solution to this problem, which will not only 
protect the environmentally fragile federal lands of the Southwest, but 
will also bolster national security, benefit the U.S. economy, and 
provide humanitarian relief. The bottom line is the U.S. economy needs 
additional workers to do many of the jobs that U.S. workers will not 
do. It is beyond dispute that Americans do not raise their children to 
perform stoop labor or otherwise toil in the fields, vineyards, and 
orchards of our country's farms. The simple fact is: our crops are 
going to be harvested by foreign workers. The only issue is whether or 
not the harvesting occurs in the United States where our economy will 
benefit from the 3.5 jobs created upstream and downstream for every 
farmworker job, or whether another country will reap those economic 
benefits.
    A reliable, legal guest worker program must be established so that 
workers can come legally to our country and become legally employed in 
jobs where there are insufficient domestic workers to do the job. In 
the past, there was a program that accomplished this and discouraged 
aliens from illegally entering the US. While the bracero program was 
much maligned because of a lack of labor law protections and perceived 
exploitation of foreign workers, today, there are ample laws in place 
to protect guest workers from unscrupulous employers.
    I would direct the Committee's attention to several excellent and 
well-researched studies on topic. The first is by Douglas S. Massey, a 
professor at Princeton University, on behalf of the Cato Institute 
which concludes that the enforcement-only approach to immigration 
policy has not only failed, but has had the opposite of its intended 
effect. The study demonstrates how the last twenty years of enforcement 
only policy has driven migration flows into the desert. (The executive 
summary of the report, titled Backfire at the Border: Why Enforcement 
without Legalization Cannot Stop Illegal Immigration, is attached as 
Exhibit 1)
    In addition, two studies by Stuart Anderson for the National 
Foundation for American Policy are also very illuminating. One is 
titled The Impact of Agricultural Guest Worker Programs on Illegal 
Immigration, and the other is Making the Transition from Illegal to 
Legal Migration (executive summaries attached hereto as Exhibits 2 and 
3, respectively). The first report focuses on agricultural guest 
workers and concludes, among other things:
    <bullet>  ``By providing a legal path to entry for Mexican farm 
workers the bracero program significantly reduced illegal immigration. 
The end of the bracero program in 1964 (and its curtailment in 1960) 
saw the beginning of the increases in illegal immigration that we see 
up to the present day.
    <bullet>  It is recognized that the number of INS apprehensions are 
an important indicator of the illegal flow and that, in general, 
apprehension numbers drop when the flow of illegal immigration 
decreases.
    <bullet>  In the 1950s and 1960s, senior law enforcement officials 
in the U.S. Border Patrol and elsewhere in the INS understood and 
promoted the use of market forces to reduce illegal immigration and 
control the Southwest border. A February 1958 Border Patrol document 
from the El Centro (California) district states, ``Should Public Law 78 
be repealed or a restriction placed on the number of braceros allowed 
to enter the United States, we can look forward to an increase in the 
number off illegal alien entrants into the United States.''
    It is axiomatic that a program that allows workers to enter the 
U.S. legally directs those workers to enter at established points of 
entry. Workers who are given the opportunity to enter the United States 
legally, do not have to, and do not want to, journey through the 
unforgiving Southwest desert. Establishing a simple and feasible guest 
worker program is the single most important reform that Congress can 
enact to protect our precious desert lands. Employers would embrace 
such a program since they presently want to hire legal workers, but 
currently have no way to do so or verify they are doing so.
    Currently, if a prospective employee presents identity and work 
authorization documents that appear valid on their face, the employer 
must accept those documents without further investigation or risk being 
sued for discrimination and bias. Establishing a feasible guest worker 
program, where guest workers would be provided a counterfeit-proof ID 
card, is key to protecting threatened federal lands, as well as 
preserving precious farmland.
    Our members are reporting labor shortages in increasing numbers, 
throughout California and Arizona, due in part to the ever tightening 
enforcement of the Southwest border. If our farmers cannot obtain an 
adequate labor supply, they will be forced to go out of business and 
sell their farms to developers, or alternatively, they will move their 
production to Mexico or other countries where those willing to do 
agricultural work are plentiful. The marketplace has dictated that 
production must be moved out of the United States where there is not 
sufficient harvest labor. Consumers and, therefore, supermarkets demand 
a ready supply of the highest quality fresh fruits, nuts and 
vegetables. It is unacceptable for the producer to fail to deliver 
these products to market due to a shortage of harvest labor. If the 
supermarket can't get locally grown product when it needs it, it will 
rely on Mexico, China and other countries for its supply. As we import 
more produce, the United States will become increasingly dependent on 
foreign nations for its food. We will then be dependent on foreign 
countries for food as we are now dependent on other countries for oil. 
Thus, maintaining a safe, healthy and abundant domestic supply of fresh 
fruits, nuts and vegetables is a national security imperative.
Conclusion
    Mr. Chairman, it is hoped that this testimony will help to provide 
a pathway that secures our borders, preserves our delicate 
environmental resources, both public and private, and benefits our 
economy for future generations. If our farm land is lost due to the 
lack of labor, the land will be developed, and that green space will be 
lost forever. The solution, a viable guest worker program, unites 
environmentalists, farmers, economists, and humanitarians, for the 
common good. Providing legal channels for immigration, channels that 
direct immigrants away from sensitive and lethal desert lands, to 
official ports of entry, is critical for the environment, the economy, 
and the future of this nation.
    Thank you very much for the opportunity to share our views. I will 
be pleased to answer any questions you may have.
    [NOTE: Attachments to Ambassador Nassif's statement have been 
retained in the Committee's official files.]
                                 ______
                                 
    Mr. Pearce. Thank you, Mr. Nassif. I appreciate your 
patience in view of the intolerance and lack of respect of some 
members of the audience.
    Before we go to questions from the Committee, I would like 
to ask unanimous consent that the statement of Muriel Watson be 
included in the record. Without objection, so ordered.
    [The prepared statement of Ms. Watson follows:]

         Statement submitted for the record by Muriel Watson, 
          Bonita, California, on behalf of LIGHT UP THE BORDER

    Mr. Chairman and Members of this Committee:
    Thank you for the opportunity to contribute to this hearing. It is 
a good use of our responsibilities as citizens. I have had my first 
experience back in El Paso. Texas before the 'Rodino; committee in 
1971.
    At that time, I was petitioning for the continued use of the fleet 
of planes that was part of the U.S. Immigration deportation agenda. The 
planes were flown by bilingual, trained U. S, Border Patrol Agents who 
were highly skilled multi-engine pilots.
    These flights went to Europe and Asia as well as all over our 
Country. The planes and Border Patrol crews were used by the Bureau of 
Prisons to move federal inmates from institution to institution to 
relieve gang tensions and maintain a level of calm within the prison 
walls. These same planes took Border Patrol Agents (who were also 
federal marshals) to Montgomery Alabama during the School integration 
events. These planes flew civil rights attorneys from State to State 
for the Justice Dept. in their Court appearances on behalf of the civil 
rights cases. These planes flew the Attorney General of the United 
States when needed. These planes were stationed at Baltimore Airport 
for Congressional use as well as being stationed in El Paso, for 
deportation cases ordered by AG Robert Kennedy for New Orleans resident 
Carlos Marcelos. These planes moved illegal aliens back to their 
homelands quickly. On the trips to Europe these planes and crew rescued 
the Hungarian refugees after their revolution. This took several trips 
where the refugees were taken to an Army camp in New Jersey for 
processing and sent on their way.
    I went to Washington to lobby the case for these planes that were 
being grounded. I had White House contacts and from Senator John Towers 
Office was informed that not only would the planes stay in use but that 
we would get some badly needed 'new ones.'' These planes went down and 
I was called ``A dangerous woman'' by John Rooney of New York who 
hinted that I was lying. Richard White of El Paso backed me up but 
somewhere in the jungle of the Immigration service they wanted the 
planes down and go to `bus service' for sending people home.
    I also talked about more manpower and equipment for on the line at 
the border but according to press reports Mr. Rooney, chair of 
appropriations said that Ins Director didn't ask for more funds because 
they were not needed...We had 1600 U.S. Border Patrol Agents for the 
entire Country at that time and INS was at the DESIRED LEVEL OF 
CONTROL.
    HERE IT IS 2006 and we are at the crossroads of a level of 
uncontrolled that is ravishing the security of the Country.
    EVEN THE 1979 Event in Tehran, and when the hostages were taken the 
INS was the Agency that could not come up with an accurate figure for 
the number and place of the Iranian Students in the Country or where 
the other holders of 'student visas' were located. The Universities for 
the most part according to press reports didn't want that information 
revealed as a privacy issue. When it was stated by the Immigration 
service in March of 1980 that while our citizens were being held in 
Tehran almost 11,000 Iranian Students entered the Country despite the 
Presidents order to halt the reentry of people from Iran-Today, we are 
concerned about the impact of illegal aliens on our community 
especially after 9/11. Even the Congressional Hearings on 9/11 listed 
as a prime objective the 'security of our borders and the validity of 
our visa documents
    In my observations over the last three decades there has been a 
concerted effort to destroy the mission of the Border Patrol. This 
small agency was formed in 1924 by the Labor Dept. to protect our work 
force and the open borders outside the PORTS Of ENTRY. It has been 
shortchanged and manipulated to suit policy that declared that the 
DESIRED LEVEL OF CONTROL was being maintained.
                                 ______
                                 
    Mr. Pearce. Mr. Radanovich, sorry about the plane trouble. 
Glad you could make it here. Why don't you lead us off with the 
questions.
    Mr. Radanovich. Thank you, Mr. Chairman. It is a pleasure 
to be here this morning. Sorry about that. Got stuck in Los 
Angeles on the way down for a little bit. It is good to be with 
my colleague Brian Bilbray here.
    Is it your district, Brian?
    Mr. Bilbray. Close. It is Chairman Hunter's district.
    Mr. Radanovich. OK. We like Duncan, too. I am sorry I 
didn't get to hear the testimony from all the panel members but 
I do have some questions regarding this issue, Mr. Manjarrez 
especially. I wanted to ask you some questions regarding the 
Bracero program which was in operation during the 1940s. I 
think it was from the 1940s to right around the 1960s.
    That was a legal means for providing Mexican farm workers 
to come to the United States and harvest crops and leave. It 
was more of a migrant worker program. It had some warts but it 
was deemed to be fairly effective, I think, during that time. 
Does Border Protection have any opinion on the effectiveness of 
the program at the time or anything.
    As I understand it, at the time this was in operation that 
illegal immigration in the United States was reduced to 
extremely low levels and that after the program was appealed in 
the 1960s that illegal immigration along, I believe, the 
Mexican border was up about 1,000 percent. Do you have any 
comments on that program and how it may have contributed to 
preventing illegal immigration?
    Mr. Manjarrez. Congressman, certainly the dynamics have 
changed considerably since then. The world, in fact, has 
changed considerably on that. As you have heard, the proposal 
from the President calls for a comprehensive issue, or 
immigration issue to be able to address all this.
    Obviously we are concerned with border security, immediate 
border security, but we know that is not the only facet or the 
aspect of immigration or the dynamic that we live along the 
southwest border. You would have to have interior enforcement 
and you have to have a method to relieve that pressure in the 
immediate border area so that we are not dealing with the 
numbers we are dealing with. We have reduced the number of 
clutter and really look at our primary mission, terrorists and 
weapons of mass destruction.
    Mr. Radanovich. The way I see the immigration issue, too, 
is kind of in my view blocked in thirds. The first one, and the 
most important one, is border protection and sealing the 
border. I think that has got to be our first priority. There 
are other issues as well and that is the impact especially from 
the area of the state that I come from in the Central Valley, 
the impact of the loss of types of workers who will harvest 
crops and what it does to the economy of the area.
    The third one is, I think, probably the most controversial 
and that is what did we do with the undocumented that are in 
this country already and those are just three very contentious 
issues. I guess my question for you was if we had border 
protection today, if the Congress finally got their act 
together and passed it, how long would it take for you to seal 
the border? How long would it take for you to implement a plan 
assuming it was just an order to seal up the border?
    Mr. Manjarrez. Well, the question is often asked how many 
Border Patrol agents do you need? It is not simply a case of a 
number of agents. We speak of the proper mix of resources from 
agents, technology, to tactical infrastructure. Those dynamics 
really change from environment to environment.
    For example, in San Diego, an area that would classify as 
an urban environment, you will see more of the primary fence, 
the secondary fence, a large infusion of Border Patrol agents 
and technology. When you start getting to the rural areas, 
remote areas the dynamics----
    Mr. Radanovich. So five years, 10 years, 20 years? What 
will it take? If you had all the resources that you needed, how 
long would it take?
    Mr. Manjarrez. Well, the Secure Border Initiative is a 
multi-year plan. It is as fast as resources come in. The number 
of Border Patrol agents will be by the end of calendar year 
'08. It is as fast as we can get technology, sir.
    Mr. Radanovich. Say that again?
    Mr. Manjarrez. It is as fast as we can get technology and 
implement the tactical infrastructure. That can vary in time in 
terms of the tactical infrastructure in the field.
    Mr. Radanovich. If the Congress passed a legal guest worker 
program today and all the resources that you want, how long 
would it take to implement something like that?
    Mr. Manjarrez. Under the Secure Border Initiative it is a 
multi-year plan. I believe the plans have ranged anywhere from 
four to five years to have the resources on the ground that 
have a definite impact. As quickly as we hire the agents and 
put them on board. That one piece, sir.
    Tactical infrastructure is a second piece and technology. I 
think technology is probably going to be more longer term 
taking a little bit more time to develop and put out there 
because there are things out there that we simply don't know 
about but they are the whiz bang type of things that will also 
do the job efficiently.
    Mr. Radanovich. So in either case, on border security or 
guest worker, each one of those you are saying multiple
    years.
    Mr. Manjarrez. Multi-year, sir.
    Mr. Radanovich. Multiple years. In the undocumented issue, 
if you had all the resources in the world, how long would it 
take to round up 12 million illegal immigrants and get them out 
of this country?
    Mr. Manjarrez. I certainly would not like to be the 
Immigration Enforcement, the ICE people, at that point. Again, 
that would be part of the Interior and Enforcement which is 
part of the plan under the Secure Border Initiative. It is 
going to be the application of those resources. It is not just 
one on the border. At the same time it is hiring additional 
personnel to do those things for interior.
    Mr. Radanovich. All of them will take many years.
    Mr. Manjarrez. Yes, sir.
    Mr. Radanovich. Mr. Chairman, just one more quick question, 
if I may.
    You had mentioned that the issue is the pressure on the 
border in order to get border protection. Do you believe a 
guest worker program, a migrant worker program, a Bracero 
program would aid in helping us seal off the border?
    Mr. Manjarrez. I think any program that reduces the 
pressure on the border will assist in border security.
    Mr. Radanovich. I thank you and I look forward to the next 
round of questions, Mr. Chair.
    Mr. Pearce. Thank you very much.
    Mr. Bilbray.
    Mr. Bilbray. Thank you, Mr. Chairman.
    Victor, I am going to get you in real trouble today. If 
there was a number one reason why we have illegal immigration, 
what would be that reason?
    Mr. Manjarrez. The difference in economy, sir.
    Mr. Bilbray. So there is a lack of capital and job 
opportunities south and there is a lack of labor and an 
overabundance of capital and investment in the north.
    Mr. Manjarrez. Yes, sir.
    Mr. Bilbray. In a word, is it fair to say that the number 
one source of illegal immigration is illegal employment? People 
willing to hire people who are here illegally?
    Mr. Manjarrez. Yes, sir.
    Mr. Bilbray. It is not that we lack fencing. It is not that 
we lack Border Patrol agents. It is that people are hiring 
people illegally in this country.
    Mr. Manjarrez. Yes, sir.
    Mr. Bilbray. Now, Steve said that the Administration's 
position is that we need robust interior enforcement. Is it 
fair to say that we have robust interior enforcement today?
    Mr. Manjarrez. No, sir. It is not fair to say that.
    Mr. Bilbray. Would it be fair for me to say that the 
greatest deficiency we have in immigration enforcement is not 
at the border, is not with fences, is not with Border Patrol 
agents at the border, but it is the lack of interior 
enforcement?
    Mr. Manjarrez. Yes, sir.
    Mr. Bilbray. With 40 percent of the people illegally in the 
country if we control every access between our port of entries, 
stop all illegal entries, will we ever be able to control 
illegal immigration without interior enforcement?
    Mr. Manjarrez. No. That is an important piece, sir.
    Mr. Bilbray. The Administration says its policy is for 
robust interior enforcement. What is stopping the 
Administration from doing that enforcement today?
    Mr. Manjarrez. I was waiting for the question that would 
get me in trouble and that is the one, isn't it, sir? Sir, the 
only way I can really answer is the immediate border area in 
terms of outlining our requirements on the immediate border 
area. There is an understanding not only with ourselves but, 
ask any Border Patrol agent that goes in the field, there is a 
magnet that here in the interior. If that magnet is either 
reduced or turned off or rechanneled or reprogrammed somehow, 
we will have at some point people making those attempts.
    Mr. Bilbray. I just have to tell you because some people 
say why have you been so outspoken on this, especially the 
areas with high populations of immigrants that I have 
represented over the last 30 years. Frankly, Mr. Chairman, I am 
one of the few people that serve in Congress who have rescued 
illegals when they are drowning. I have recovered their bodies 
when they haven't made it. I have seen them slaughtered on the 
freeway. I didn't read about them slaughtered on the freeway 
during the Bonsai charges. I saw it.
    It is funny how people can be outraged at the users of 
drugs and relate that they are responsible for the deaths. I 
just want to tell you, Victor, the Border Patrol agents are not 
responsible for the deaths that have happened along the border 
for the last 30 years. Everybody who is hiring an illegal is 
personally responsible for those deaths. Here is what I am 
asking, is that my constituency, my citizens when they leave my 
district and they drive north up by 5, don't they have to go 
through a checkpoint with your agents in it?
    Mr. Manjarrez. Yes, sir.
    Mr. Bilbray. When my constituency goes up by 15, don't they 
have to go through the Border Patrol?
    Mr. Manjarrez. Yes, sir.
    Mr. Bilbray. They go out 8, God forbid, to go to New 
Mexico, they have to go through your agents?
    Mr. Manjarrez. Yes, sir.
    Mr. Bilbray. My citizens want to know if we are surrounded 
by agents, why aren't they at the Home Depot? Is there a reason 
why you cannot have your agents in the morning--when I drove 
down Alga Road this week, I almost rear-ended a car that was 
pulled alongside while people were standing there and everyone 
knows they are there.
    Are you allowed to have your agents leave the checkpoint or 
leave the border for two or three hours and just come over and 
do the common decency of checking that these people are legally 
applying for jobs? Are you allowed to do that, Victor?
    Mr. Manjarrez. Congressman, I really can't speak on behalf 
of San Diego sector but it was a common practice to look at 
those areas and enforce those areas. I don't know what the 
current practice is on that.
    Mr. Bilbray. I will tell you what the current practice is. 
The fact is as soon as you did that, the general citizen, the 
general person out there, the average citizen did not call up 
and protest, did not call up and say, ``I don't want these 
agents in my neighborhood because I want to hire these 
people.'' The average citizen didn't do it and the political 
pressure has been to look the other way.
    Have you ever heard of the concept by the Border Patrol 
agents that they call the ``hundred yard dash freebie?'' If you 
get 100 yards north of the border, you are free. I am sorry to 
pick on you because when it comes down to it interior 
enforcement is where it is going.
    I would like to go down to the other end, though, and ask 
the Ambassador if we create new Bracero program and we do a 
carve-out recognizing that you have truly a need for guest 
workers to come here, work, and then go home, if we create that 
and we do not have an interior enforcement to make sure those 
people don't walk away from your program and go start hanging 
drywall, don't you think you are going to have problems with 
the guest worker program if we don't have a viable interior 
enforcement program, that that is an essential part of making a 
guest worker program truly guest worker and not a back-door 
immigration policy?
    Mr. Nassif. We have always supported an aggressive interior 
enforcement at the job site. We have always supported a fraud 
proof identification card so that when we get a Social Security 
card or driver's license we don't have to be immigration cops 
to determine whether or not those are fraudulent or not. We 
would that people go through the border illegally through the 
port of entry using false documents and at the port of entry 
they can't even determine whether they are false or legal.
    Many of those illegals come right through the port of 
entry. For agriculture we need to have people who come into 
this country to work in agriculture. That is why we support the 
Ag Jobs Bill because it provides that if these guest workers 
come over, they have to work in agriculture for a given period 
of time.
    Mr. Bilbray. Thank you very much. I have no more questions 
until the next round.
    Mr. Pearce. Thank you very much.
    Mr. Manjarrez, I am not very tolerant of the burst of 
emotion from the audience but this is typical of what is 
happening because people feel like the Federal Government 
basically hasn't done its job.
    [Applause.]
    Mr. Pearce. Please, please. We are trying to work our way 
through an argument here, working our way through a discussion. 
How did we get to where we are today with regard to border 
enforcement? It has taken us 30 years to get to this point. 
Why?
    Mr. Manjarrez. You are absolutely right, sir. It has taken 
us decades on that. It is not going to turn on a dime without a 
real commitment. We haven't seen that commitment. We have seen 
the----
    Mr. Pearce. Where is the commitment lacking from?
    Mr. Manjarrez. Well, I think the commitment is coming, 
Chairman.
    Mr. Pearce. Where was it lacking from?
    Mr. Manjarrez. I think it was a will. Border Patrol agents 
have wanted to do the job and it is just to receive the 
appropriate funding to do so and the resources to do so. As you 
well know, we have through Congress been receiving additional 
and significant funds the greatest in our history. We have made 
some tangible gains. We are not done. We are not close to being 
done. We fully realize that, but I think we are on the right 
track.
    I think the opportunity to continue on this right track, 
the support for the Secure Border Initiative which is an all-
encompassing. Not just immigration but terrorism and everything 
that we deal with are methods and programs that are leading us 
down the right path to get to the point where----
    Mr. Pearce. Do you actually need legislation? We are all 
talking nationwide and we are all hyperventilating about what 
kind of legislation. Do you even need legislation to secure the 
border?
    Mr. Manjarrez. Absolutely, sir.
    Mr. Pearce. What legislation do you need? In other words, 
that is your mandate right now.
    Mr. Manjarrez. It is the legislation in terms of--well, it 
is the funding mechanisms.
    Mr. Pearce. Those funding mechanisms have been done. What 
we are still debating in Congress, in other words, we have 
10,000 people headed your way. They are in the pipeline. They 
are training. They are going to be on the border. I think 5,000 
or 6,000 in the first year and the next year will be another 
5,000 or 6,000.
    I am asking do you really need more justification to secure 
the border? That to me has been the problem in the past that 
the agency was not focused on the problem. With all due respect 
to your great service and the people in the field, somewhere it 
has gone wrong and I don't personally think we need 
legislation. I will let you think about that.
    Ms. Keeler, you know the Johnson Ranch which is about 20 
miles from you, I suspect. Thank you for your graciousness in 
not calling us every day but Mr. Johnson called us almost every 
day to update us on the new failures at the border. I 
appreciate him doing it because it kept us really in tune and 
wired pretty hard. We were having very difficult behind-the-
scenes discussions with Border Patrol.
    In my mind just either a lack of commitment in the agency 
or whatever. In the last three weeks we have seen different 
calls coming from Mr. Johnson. Tell me what you are seeing on 
your ranch in the last three weeks. Are you seeing a decrease 
or what?
    Ms. Keeler. I had talked to Joe before I came here and he 
is seeing a decrease in the illegal immigrants coming across 
but we are not still where we are, although we have had a lot 
of activity recently by the Border Patrol which indicates that 
they are catching a lot more people in our area. We are not one 
of those that will complain.
    We kind of complain to the locals, not to our sector chiefs 
or even to you because I hate to be a pain in the neck. It is 
decreasing. We can't figure out whether it is because possibly 
the catch and release policy that up until then they catch them 
and take them over to Columbus.
    They release them into Palomas and then they come back the 
next day. We have changed that so that they are not just 
getting released back into Mexico. Possibly the National Guard 
presence there is helping a lot. Although the decrease 
according to Joe, he started seeing a decrease prior to the 
National Guard showing up.
    I would like to say that we do have a presence and we have 
for almost a year now from the state highway or the state 
policy department that we really appreciate Governor Richardson 
sending them down to kind of patrol the area. They do get on 
track. We have a friend that works for the police department, 
the state police, and they do track the illegals going across. 
I like the cooperative manner.
    I would like to see our Federal Government, our Federal 
agencies, our Border Patrol work closer with our local law 
enforcement agencies. There are a lot of things that we could 
do. I hate to put the burden completely on the Border Patrol 
because there are a lot of state and local law enforcement 
agencies that could help including the ranchers. If we were 
treated with respect and if we were given some means of 
communicating with these guys other than the phone because 
there is no phone service down there unless you are at the 
house.
    Mr. Pearce. Thanks. I appreciate it.
    Mr. Radanovich.
    Mr. Radanovich. Thank you, Mr. Pearce.
    I wanted to kind of go into the employer issue and those 
that knowingly or unknowingly hires illegal immigrants to do 
their work for them because I think there are differences in 
employers and what they do. I want to start off by saying that 
10 years ago I thought this was a great idea when I was in 
Congress. Then Governor Pete Wilson sent a bill to the 
President of the United States for $3.5 billion which was the 
cost of the impact of illegal immigration on the State of 
California for one year.
    It was a great concept because it outlined the cost of this 
problem that we have. I supported that. I voted for Prop 187. I 
am in strong support of the minutemen on the border because 
they have really finding got this issue to the Congress right 
now. The constituents that I have, the 660,000 people that I 
represent in the Central Valley, big agriculture, will tell you 
beyond a doubt that our first job is to seal the borders, 
protect the borders and stop illegal immigration.
    I will tell you that there is a difference in the kind of 
employers that in some ways depend on the illegal immigrants 
because there is no legal way to get workers to harvest crops 
and they are different than, say, what might be large 
employers. I hate to say box doors but I am not going to accuse 
anybody of hire illegals in large companies who do it because 
they can get them cheaper.
    If they didn't, they would have to raise rates but they 
would probably find people to do those jobs. The difference 
between that and agriculture which is mainly seasonable which 
is during a very short time of the year you need a lot of 
workers and it is not pleasant work and the American people 
won't do that. If you raise your rates too high, you are 
competing on an international basis and it puts the price of 
your crops so high that you basically go out of business and 
need to go to a country where there is better labor.
    These folks don't hire illegal immigrants because they are 
presented with documentation that looks like they are legal. 
There is a rule out there that if you question the legality of 
that document, you can't proceed to find out whether that 
person is an illegal or not. They are in between a rock and a 
hard spot because they need labor quick and they need labor 
that is willing to do the job.
    They are willing to pay a fair rate but Americans will not 
do those jobs. Those are the people that I represent. Those are 
the folks that I need to find a way as we are trying to sort 
out this problem on illegal immigration to try to preserve so 
that our nation's food supply that Mr. Nassif talked about, 50 
percent of the fresh produce in this country doesn't go to 
another country and become a strategic liability the way oil 
is.
    That is where I am coming from. Now, there is a legal guest 
worker program in existence in the United States right now. It 
is called H2A. Mr. Nassif, a lot of my growers in my district 
are members of Western Growers and I am very pleased that you 
are here today. I do want to ask you if you would go into the 
H2A program and give me an idea of whether you think it works 
or not. Does it work for seasonable agriculture the way we have 
in the Central Valley and does it provide an adequate means to 
get workers?
    Mr. Nassif. No. The H2A program does need reform and that 
is part of the package that passed out of the Senate in the Ag 
Jobs Bill. The fact is if we want to bring in a foreign worker, 
the H2A program says you first have to go in the United States 
and advertise that job so we do that. We go to the Department 
of Employment, newspapers, and we ask for people willing to do 
the work.
    When we don't get any workers, or if we get one or two 
workers, that obviously isn't going to fill our need. We then 
say to the Federal Government, ``Here is what we have done. 
Tell us whether it is adequate or not and, if it is, can we now 
go to a foreign source?'' They will determine whether that is 
true. Then if we hire someone from a foreign country, we have 
to pay for their transportation to the United States.
    We have to pay for all of their food. We have to provide 
them housing. We cannot give them a housing allowance. We have 
to provide them with housing. Let's say California uses 400,000 
farm workers. How are you going to find housing for 400,000 
farm workers in California? What city or county is going to 
allow us to build housing for 400,000 workers and how much will 
that cost with the increasing price of land today? So it is a 
very unworkable program that needs changing.
    Mr. Radanovich. But you are in favor of housing allowance 
that allows them--gives them money to find lodging. Right?
    Mr. Nassif. Yes, we are.
    Mr. Pearce. Thank you. The gentleman's time has expired. 
With all due respect to my colleagues, we are going to try to 
get back on to the discussion of Federal lands and the impact 
of immigration. Otherwise, the speaker is going to ask us to do 
the same hearing again next week and I am not sure I can make 
it out next Saturday. I will go ahead and go to questions next.
    Mr. Borchard, you have heard Ms. Powers discussing the 
impact to their recreational association or even her own 
attempts at recreational horseback riding through the closing 
of roads due to supposedly illegal immigration problems. Tell 
us a little bit about that because it sounds familiar to the 
same closing of roads up in the national forest and the BLM 
area back away from the border and we have a different reason 
there. Tell me a little bit about what your justifications are 
and what you are doing to get those areas that are not 
wilderness or should be accessible to our citizens back open.
    Mr. Borchard. The BLM goes through a decisionmaking process 
when determining what routes to allow to remain open or to 
close. Some of the factors that are considered during that 
decisionmaking process include recreation both equestrian, 
hiking----
    Mr. Pearce. I understand. I don't need to hear about the 
process. I understand you have a process but you heard her 
testimony that actually trails are being shut down and so your 
process is coming up with an agreement that shuts it off.
    Isn't that right, Ms. Powers? Isn't that basically what you 
said? There are areas that the trails have been closed down to 
just three trails? Was that your testimony or was it Mr. 
Ingram?
    Ms. Powers. It wasn't mine but I found that to be true at 
times. I have found that my working very carefully----
    Mr. Pearce. Turn your mike on if you would.
    Ms. Powers. Over the years I have worked very closely with 
the Border Patrol, for instance, with their infrastructure 
planning and I found a lot of good positive give-and-take 
considering our equestrian trails. With BLM that is not 
necessarily the truth.
    Mr. Pearce. OK. Mr. McGarvie, you maybe were involved in a 
little bit of this discussion that talked a little bit about 
the lack of access to normal citizens and the reason give is 
Homeland Security?
    Mr. McGarvie. Yes, Mr. Chairman. I may not have been clear 
when I mentioned only three trails in the Yuha Desert which are 
open to off-highway vehicles. That is due to environmental 
concerns, not security. However, there are roads and trails 
within the Cleveland National Forest. Two that come to mind 
that are posted on their website is closed due to Homeland 
Security, Thing Valley Road and Kitchen Creek Road. I think 
there are others and I think there are also some on BLM land.
    Mr. Pearce. OK. Mr. Manjarrez, when we have a problem in a 
national park, who has jurisdiction? Is there even a question 
of jurisdiction? Who stops the problem of illegal immigration 
through the parks? I know it is a significant thing like I saw 
in Sequoia National Park, again Oregon Pipes. Who has 
jurisdiction and is that a big problem?
    Mr. Manjarrez. That is a good question. In the past, that 
was a big problem--the jurisdiction. That really is not an 
issue at this point anymore. Typically when we have activity of 
illegal immigration we are the first responder jurisdiction on 
that but that is always done in close coordination with our 
public land managers.
    Mr. Pearce. OK. So it is no problem today who pays the 
bill?
    Mr. Manjarrez. In terms of the enforcement, we pay the 
bill.
    Mr. Pearce. So you go on the national parks and you are 
responsible on national parks and you are responsible on 
national park boundaries and your agency is comfortable paying 
the bill because we had a hearing about a year ago where there 
was great disagreement between the park service and border 
patrol who actually paid the bill. The jurisdiction was 
actually clear but then there was the friction over whose 
budget it came out of. You are saying no problem now. Border 
Patrol recognizes it is your budget and your problem.
    Mr. Manjarrez. Well, again, it is the enforcement, sir. I 
am not sure if I am understanding your question. What 
additional costs are you talking about? When we enforce on a 
public land----
    Mr. Pearce. When you enforce on a national park, you don't 
have any problem paying the bill?
    Mr. Manjarrez. I think we have, sir. I think we have 
continued to pay that bill.
    Mr. Pearce. OK. Thank you. My time is about to elapse. Do 
you have more questions, Mr. Radanovich? I will come back to 
you if you do.
    Mr. Radanovich. Not at this moment.
    Mr. Pearce. Mr. Borchard, you mentioned in your testimony 
that the border enforcement provision in Mr. Bilbray's Otay 
Wilderness bill. Should there be a similar provision included 
in all appropriate wilderness study areas along the border? Is 
that something that you would recommend? You mentioned the 
Bilbray provision or the enforcement provision in Mr. Bilbray's 
Otay Wilderness bill. Is that enforcement something that you 
would expect Congress to give the agency in all wilderness 
areas or WSAs?
    Mr. Borchard. Yes, sir. I would consider wilderness areas 
where border----
    Mr. Pearce. If you could turn your mike on. These mikes 
need to either come on or go off. By the way, thanks to the 
West Hills High School for providing these services to us. The 
place is excellent. The auditorium is great. We just hope that 
the wolves that they represent are not on the endangered 
species list but thank you very much.
    Go ahead, Mr. Borchard.
    Mr. Borchard. Yes, sir. I would consider where border 
security issues are a concern in wilderness areas that Congress 
consider and take up and study the necessary actions that they 
feel and that public land managers advise them along with in 
cooperation with Border Patrol advice that they would consider 
necessary to assist the Border Patrol in carrying out their 
mission of increasing the security as well as considered the 
mission of the public land agency in protecting those 
resources.
    Mr. Pearce. Mr. Bilbray, would you like to ask questions?
    Mr. Bilbray. Yes. Thank you, Mr. Chairman. Steve, I might 
just note it is sort of interesting on this side of the border 
how we always refer to Mexico as the Republic of Mexico. I 
don't know if it is a cultural thing from prior to the 
revolution. The last time I looked at the map it is the United 
States of Mexico but that is just an editorial note I always 
love to throw in.
    Victor, back to where we were talking about interior 
enforcement. Is there a policy that--where are you based at 
again?
    Mr. Manjarrez. Tucson sector, sir.
    Mr. Bilbray. Are you guys allowed to go to areas in the 
neighborhood of--the vicinity of the border region and check 
for documentation or are you only allowed to work your 
checkpoints and your border? Are you allowed to do any interior 
enforcement in the area within 60 miles of the border?
    Mr. Manjarrez. Typically we don't do interior enforcement, 
sir. We will look at some of the urban areas like San Diego and 
places like Douglas, Nogales, and Naco, immediate town areas. 
Typically right on the border. We are doing border enforcement. 
If the question is do we go into businesses and check 
employment verifications? The answer is no. We simply don't do 
that type of enforcement.
    Mr. Bilbray. In Tijuana Valley sector we use extensive off-
road vehicles for enforcement. The trails that are used by your 
agents are through habitat areas traditionally as has been 
pointed out a lot by the off-road vehicle people. What would be 
the impact of your enforcement capability if the Department of 
Interior, Fish and Wildlife, basically told you that you could 
not access those areas anymore?
    Mr. Manjarrez. It would be devastating. Access is a key. 
The closer we are to the border, the greater chance or problem 
we have to make that interdiction before they make the entry 
into the United States.
    Mr. Bilbray. So just as with the wilderness areas we have 
had to sort of change the rules and allow impact on an area 
that we normally would not allow with roads or off-road 
activity, with the area outside of the wilderness areas, it is 
your opinion that as long as we have as much illegal 
immigration as we do, we are going to have to maintain that 
impact and just accept it as part of the cost of protecting the 
rest of the area.
    Mr. Manjarrez. I don't think it is ever acceptable, sir. I 
think we always strive to be able to compress those areas that 
we are working. Even if there wasn't a single entry or any 
connectivity, we would still need an enforcement zone in the 
immediate border area.
    Mr. Bilbray. OK. Mr. Ingram, we are talking about you 
working on the Smugglers Gulch, Goat Canyon area?
    Mr. Ingram. Yes, sir.
    Mr. Bilbray. OK. One of the things I was very interested in 
is I saw the maps of the alternatives that were being proposed 
by people who claimed to be representing the environmental 
community. Instead of doing a straight cut and fill, they were 
talking about doing a switchback.
    Mr. Ingram. Yes, sir.
    Mr. Bilbray. Am I wrong as a layman to look at their plan 
and see that their footprint of disturbing habitat was probably 
about three or four times larger than the footprint you are 
proposing with your cut and fill?
    Mr. Ingram. I think, if I remember correctly, Congressman, 
it was as large, if not larger. The main concern within 
Smuggler's Gulch in particular was that the surface area of the 
manufactured slopes were going to be greater in switchback 
alternative than in the embankment fill.
    Mr. Bilbray. OK. And the Goat Canyon area, how are we going 
to approach the trash problem? Do you have any way of 
engineering our problem with the siltation or problems that are 
already coming across the border and impacting the--this is the 
estuarine area. I mean, this is one of the largest Federal 
estuarine preserves in the country. It has been impacted 
severely. Are you able to design in there the siltation from 
Mexico that has obviously been a problem in the past in that 
region?
    Mr. Ingram. The designs that are currently on the border 
infrastructure system are designed to control the sedimentation 
runoff of the project footprint. They are not going to control 
sedimentation or trash coming north from Mexico. It will 
capture some of it but it will not----
    Mr. Bilbray. You know the photo of the Flucacho Channel, 
Ms. Powers? Do you have a comment on that question? Go ahead.
    Ms. Powers. Yes. I would just like to say that this really 
maybe isn't touching on today's subject but the sedimentation 
gets worse every year through Goat Canyon as well as Smuggler's 
Gulch because of the development on the Mexican side. Isn't 
there some way to put some kind of pressure on Mexico to do 
something to control the sedimentation there?
    Mr. Bilbray. Hopefully with our cooperative effort and 
border regional infrastructure things like international bank 
loans and everything else we can do that. I think there are so 
many related problems, so much of the trash we see down there 
people are thinking it is just coming from Tijuana and that may 
be a degree of it but massive amounts of that trash is directly 
related to the immigration issue.
    As the lady from New Mexico pointed out, this one is going 
right into an estuarine sanctuary that 50 percent of my 
hometown was condemned because the Federal Government thought 
this property was so precious and so important to the Nation 
that it must be preserved. Almost to the day that the Federal 
Government condemned it, it has been polluted and trashed from 
a foreign country and it just seems like if it was that 
important to take half of my hometown, it should be important 
enough to make sure we have the resources to protect it.
    Ms. Powers. I know that the estuary fills up to almost in 
some years three feet of sedimentation in the estuary. It 
doesn't take long at all.
    Mr. Bilbray. Yield back, Mr. Chairman.
    Mr. Pearce. Mr. Radanovich.
    Mr. Radanovich. Thank you, Mr. Chairman.
    Mr. McGarvie, welcome to the Subcommittee. Thank you for 
being here. I have a question for you. What has been the 
financial impact of the ORV community from the closures related 
to illegal immigration? And can you add into that not 
necessarily off-roaders but those who were affected including 
part stores, food shops, and the like?
    Mr. McGarvie. Congressman, I am sorry. It is difficult to 
quantify that cost. I think it is intuitive that there is a 
cost. If you carry it to extreme, the reduction in public lands 
open to motorized vehicles, it is obvious that eventually that 
market will go away and those businesses dedicated to that 
market would die.
    How much does it cost the industry for every acre closed? I 
can't answer that question. It cost not only in terms of lost 
sales to our members, it also cost in terms of cramming more 
and more recreation into smaller and smaller areas with the 
obvious difficulties resulting from that situation.
    Mr. Radanovich. Thank you.
    Mr. Ingram, can you give me an idea of what are the 
environmental benefits to enforcing the border in your opinion?
    Mr. Ingram. As several folks have talked about, there is 
just a tremendous amount of discarded trash. There are illegal 
trails that have been created through the wilderness areas, not 
only here in East San Diego County but Arizona and New Mexico 
that has synergistic effects of increased erosion, 
sedimentation in streams and estuaries. The wildfires that have 
been caused, or inadvertently caused by my illegal alien 
campfires have destroyed just thousands of acres.
    In addition, they have inadvertently destroyed some 
sensitive plant and animal species. Congressman Bilbray 
mentioned earlier that down at Imperial Beach at Monument Mesa, 
Butter Field State Park, before the primary fence was built 
there were thousands of illegal aliens coming across there. 
Least tern nests and snowy plover nests were destroyed. After 
the fence was constructed and enforcement had tightened up the 
terns and the plovers are coming back and nesting there.
    Mr. Radanovich. Thank you, Mr. Ingram.
    Mr. Nassif, are you familiar with a program that many years 
ago Senator Diane Feinstein had worked with some of the ag 
community groups in Central Valley on a pilot program called 
Welfare to Work. It was a program that tried to take people off 
of welfare and do some of the farm labor programs. Are you 
aware of that program that was done?
    Mr. Nassif. I am not very familiar with it, no.
    Mr. Radanovich. It was begun in an effort to convince 
Senator Feinstein who thought that the Valley's unemployment 
rate could offset the need for workers in harvest programs. I 
believe there were about three people that showed up for work 
one day and probably lasted about two weeks. Can you tell me 
are we experiencing a worker shortage in agriculture right now?
    Mr. Nassif. Yes. I would say we just recently tried to do 
some studies to find out what the shortage is as of right now. 
It looks like there have been probably crop losses of over $4 
to $5 million just in what is being harvested right now. We 
have another 10,000 acres that are moving out of California and 
moving into Mexico because the supermarkets do require 12 
months every day stable supply of the same quality produce and 
you can't do that in any area.
    No area can produce for 12 months so you have to go to 
different areas and sometimes fill the gap. I am getting calls 
for the first time from people who are saying, ``No one is 
applying for jobs. No one is asking if I'm hiring. I'm unable 
to harvest crops because I don't have sufficient labor.'' When 
we don't harvest crops, it is because the market is so bad it 
isn't economically worth it. When we don't harvest a crops when 
it is a good market because we don't have a labor supply, that 
is economic capital punishment.
    Mr. Radanovich. Thank you.
    Mr. Chairman.
    Mr. Pearce. Thank you very much.
    Ms. Powers, you in your testimony talk about a long, long 
understanding of kind of the border areas and your riding out 
there and how the complexity has changed. Even the feeling of 
the people you interact with on the borders that are coming 
illegally. It is the same thing I hear from New Mexico that 
people have lived on the border for decades have said it used 
to be you didn't feel uncomfortable and now you do.
    You have these gangs standing there wanting you to ask 
permission in our country to pass. How many riders just have 
given up on this? How many just don't go out there because of 
their fear? Can you give us some idea of how it has affected 
the recreational pattern of the equestrian community?
    Ms. Powers. I would say that out of the percentage of 
riders that are down there, a lot more of them are now riding 
in arenas, in event type oriented things rather than going out 
on the trail. They don't even know what the trails look like. 
In terms of loss of people using those trails, maybe as much as 
20 percent in the daytime hours. We used to have beautiful 
moonlight rides. People weren't afraid to take their children 
out and about in the far reaches of it. I would say there is a 
lot of fear there now.
    I am a little stupid. I don't get afraid of things like 
that so I still tend to go out by myself a fair amount. I know 
my horse can outrun them so it doesn't seem to bother me.
    Mr. Pearce. Right.
    Ms. Powers. I think the fear is reality based that there is 
a lot of danger out there.
    Mr. Pearce. Yes, there is. That is well documented.
    Ms. Powers. There are rapes and there are knife-point 
muggings.
    Mr. Pearce. Mr. Manjarrez, the testimony that I am hearing 
in the Second District of New Mexico as I travel around about 
the very potent, 90 percent potent methamphetamine is a huge 
problem. Do you as we look at the Federal lands, do you find 
the production of illegal drugs to be occurring or the growing 
of illegal drugs occurring in your jurisdiction or are you 
finding it anywhere out here or is it something that eases on 
up? Do you have a Sequoia set in your jurisdiction?
    Mr. Manjarrez. No, sir. We do have about 178 miles of the 
262 in Tucson that are public lands.
    Mr. Pearce. So what are you finding as far as either the 
trafficking or the growing or the production or whatever?
    Mr. Manjarrez. Within Tucson sector we haven't really seen 
anything in terms of production. We do see in the eastern part 
of the state along the New Mexico state line the traffic going 
up to Highway 80 to get to the portal area and things of that 
nature where it is produced in Mexico being brought up in these 
remote areas. Quite frankly it gets into the interior of the 
United States but we rarely run into anything where there is 
production being made.
    Mr. Pearce. How about methamphetamine in general as a 
problem for the Border Patrol? Are they on the rise? Are they 
desperately high or just modestly high? What is the status?
    Mr. Manjarrez. Meth has always been rather small, sir. It 
is typically an issue that are at the ports of entry that we 
have seen. Marijuana is one of the largest narcotic. That has 
been on the rise. It is about 20 percent higher compared to 
last year in the same time frame. Cocaine is about 3 percent 
higher than last year. We are talking about 8,000 pounds for 
the year.
    Mr. Pearce. Mr. Borchard, any comments from you on the 
crossing of the public lands, the BLM lands?
    Mr. Borchard. Yes, sir. Some drug smugglers as well as 
human smugglers do transport marijuana across the border on 
public lands.
    Mr. Pearce. Be sure and pull your mike up. We have people 
in the back of the room trying to hear.
    Mr. Borchard. Yes, sir. Public lands are used by smugglers 
for both people and drugs. We have been successful in some of 
our interdiction efforts along the border in capturing drugs 
smugglers.
    Mr. Pearce. Does the BLM have its own enforcement division? 
How do you work that?
    Mr. Borchard. Yes, sir. We have our own program with law 
enforcement officers here in the California desert district. We 
have about 45 officers on our staff.
    Mr. Pearce. Mr. Bilbray.
    Mr. Bilbray. I have no questions at this time.
    Mr. Pearce. Mr. Radanovich.
    Mr. Radanovich. Mr. Chairman, I am done with my questions. 
Thank you very much.
    Mr. Pearce. Thank you very much. Which one of you would be 
most knowledgeable about the Endangered Species Act? I am 
sorry, the Historic Preservation Act?
    Mr. Ingram, you are reaching for your microphone. Tell me a 
little bit about it because this is a problem we run into in 
New Mexico is trash that is being left there. There is trash 
right now. At what point does it become protected by American 
law?
    Mr. Ingram. I can't answer that.
    Mr. Pearce. I will answer it for you. In 50 years. In 50 
years trash becomes protected so that in New Mexico a tin can 
that is more than 50 years old can't be moved and we can't do 
projects. I would just tell you, Ms. Keeler, that this trash 
that is being left there, Mr. Manjarrez, you in not sealing the 
border are putting her ranch at risk because 50 years from now 
she will not be able to graze over these areas.
    In New Mexico we have had projects shut down in the last 
three weeks because a tin can is found that some vagrant left 
over 50 years ago. It seems ludicrous on the face of it but 
when you are dealing with it shutting down the industry of a 
community it is not quite so fun. What do you do, Mr. Manjarrez 
when you find trash and you find the people who are there with 
their backpacks? Do you have them leave it there? Do you have 
them clean up? We have our backpackers trained in this country 
if you pack it in, pack it out. What is your policy as an 
agency on the trash that you find?
    Mr. Manjarrez. The policy is very much like you described, 
sir. If we find a backpack, they brought it in, they take it 
with them.
    Mr. Pearce. OK. Ms. Keeler, do they get it off of your 
land?
    Ms. Keeler. No. Unfortunately our experience has been the 
opposite. When they pick up a group of illegals they usually 
have them just leave everything that they have carried.
    Mr. Pearce. So, Mr. Manjarrez, does the agency have 
different rules in different sectors? Why would they be leaving 
that junk on her land that 50 years from now is going to impede 
her ability to sell that ranch, God forbid, or inherent the 
ranch or, at least, work the ranch?
    Mr. Manjarrez. We don't have different rules or policies.
    Mr. Pearce. So why would----
    Mr. Manjarrez. I would encourage any of the residents in 
any of the places to call. They need to bend the ear of that 
sector chief or that deputy chief.
    Mr. Pearce. I am sorry. Would you say that again? You 
encourage who?
    Mr. Manjarrez. Any of the residents.
    Mr. Pearce. Encourage the residents to take care of a 
problem that is brought on by the Federal Government because 
they can't secure the border and you expect them to get the 
dump trucks full and carry the stuff out of there? You 
encourage that? Sir, with all due respect, that is the reason 
these people are openly emotional about this issue, because the 
Federal Government keeps pushing the responsibility down to 
these people like this.
    Mr. Borchard, what do you all do with the trash that you 
find on public lands?
    [Participant reaction.]
    Mr. Pearce. Please. I am just asking. We are trying to get 
to some hard issues here.
    Mr. Borchard. We pick it up when we have the capability. We 
also partnership with local communities and volunteers who will 
assist us in gathering trash on public lands.
    Mr. Pearce. When we have the capability. How much trash is 
on the land in your jurisdiction now? Is it significant or is 
it not visible to the human eye? How would that be?
    Mr. Borchard. There is a significant amount of trash on 
public lands.
    Mr. Pearce. So what you are saying is we don't do much 
about it as a Federal Government. Is that more or less true? 
You said when we can get it and when we can we do it in a 
significant amount. I am assuming that we are not doing much 
about that.
    Mr. Borchard. No, sir. We have picked up trash in the past 
and we will continue to address that problem in the future.
    Mr. Pearce. It is still going to build up because as I tour 
around I will find that the Oregon Pipes tomorrow will be about 
30 percent shut down and I am going to find trash out there. I 
would guarantee it.
    Mr. Ingram, you had talked about the fence and what you 
called the B----
    Mr. Ingram. The Border Infrastructure System.
    Mr. Pearce. So we have a Border Infrastructure System that 
is the government term for fence, I think. If it is a good 
solution, do you have problems with people tunneling under the 
fence? Do you have trouble with people going over the fence? 
Tell me a little bit about that because when I am in New 
Mexico, I hear stories about in San Diego that people are 
taking GPS units and they are starting a tunnel underneath a 
house in Mexico and they can tunnel to an exact house over here 
on the American side. How do we protect against that and is 
that just a rumor that is circulates around in the paranoid 
Second District of New Mexico or is that an actual happening?
    Mr. Ingram. According to the news reports that I read, 
there are definitely tunnels underneath the completed part of 
the Border Infrastructure System here in San Diego. As well as 
there are other tunnels throughout the southwest border whether 
there are fences there or not.
    Mr. Pearce. Staff tells me that we are joined today by the 
Grossmont Union High School District representatives Dr. Terry 
Rhine, the Superintendent.
    Dr. Rhine, are you still with us? Ah, back there. Way in 
the back. Yes, sir. Thanks for having us in today. Evelyn Wills 
is the school board member who keeps him on while he does these 
sorts of programs on Saturdays. Thank you both for coming out 
today.
    Ms. Keeler, let's just hope people in the audience are able 
to get a feel for both you and Ms. Powers because both of you 
seem very comfortable with the relationship between different 
races. I know in New Mexico you have 400 years of cultures 
working together. You have this very deep tension that is 
pulling at you. You see really a group of people that you have 
gotten along with your whole life and then you have this 
different pressure of the illegal things happening.
    Then I sense from both Ms. Powers and Ms. Keeler that you 
just can't not respond. You gather funds for an organization 
that sets water out. There is the human condition of people 
coming through terrible circumstances and, yes, doing something 
illegal but, at the same time, they are human beings and how do 
you wrestle with that? So, I don't know. Do you have any 
closing observations? We are about to pull this to a close. 
Both Mr. Bilbray and Mr. Radanovich need to go so we will spend 
a couple minutes here and then we will start wrapping this 
thing up.
    Ms. Keeler. Personally it goes back to in my eyes we have 
to hold Mexico accountable for her people. We can't take care 
of everybody from there. It is an economic difference but I 
don't think we are going to change it by shipping all the money 
from the United States down to Mexico. In my opinion it is a 
moral obligation Mexico has to her people and she needs to be 
accountable for it and we need to hold them accountable for it.
    Mr. Pearce. I agree 100 percent. The Ambassador of Mexico 
has decided, I think, because I am a rural district that 
borders on Mexico that they would establish a relationship with 
me. We have continually pressed him. We accept that we are 
friends as neighboring nations but you as good friends need to 
be acting a little bit better as a good friend than what you 
are right now. They give us assurances but sometimes it is hard 
to see those assurances. The last time the President went to 
Mexico I was happy to see him publicly for the first time say 
to Mr. Fox that Mexico needs to do more and we will assume with 
the new president in Mexico that those conversations will 
continue.
    How has the illegal immigration impacted your ranch 
finances, Ms. Keeler? If you could make a guess, a decrease in 
percentage of revenues or whatever, what kind of financial 
impact do you get?
    Ms. Keeler. I think we have been very lucky so far. We 
haven't seen a lot of economic impacts negatively to the ranch. 
We are out there daily. We are constantly watching the waters 
and taking care of the livestock. We know when a float is 
broken we are right there. We fix it immediately. I can't 
really say that economically we have been impacted. We could if 
we weren't as diligent and if we didn't constantly out there 
watching and taking care of it.
    Mr. Pearce. You believe Mr. Johnson when he tells me and he 
shows me pictures of the dead cattle who are afraid to come up 
to the water tanks that are on the vast open ranges, whether it 
is public land or private land, that the cattle are afraid to 
come up and drink the water because so many people are 
traveling through there. Is that accurate?
    Ms. Keeler. Yes, it is definitely accurate. I would say 
that Mr. Johnson does have a lot more land to take care of than 
we do. Our ranch is just a 40-section ranch which people----
    Mr. Pearce. Just 40 sections?. That is from here to Los 
Angeles and there are just two people that live on it. You have 
to drive nine hours to get across it.
    Ms. Keeler. Some of the people from California were asking 
me, ``How large is your ranch?'' I said, ``We talk in sections. 
They said, ``How many acres are in a section?'' That is a 
relatively medium-size ranch. It is not a large ranch and we 
have a lot of roads going to it much to the chagrin of the BLM 
sometimes, but we are able to travel it quite well.
    Now, our ranch in Animas is a much rougher ranch and not 
nearly as accessible. You do have to go by horse if you want to 
see most of it. There because of the roughness we have a lot of 
drug activity. The people that are bringing in the drugs like 
to stay up in the mountains where it is rough and where they 
can't be tracked by the Border Patrol.
    Mr. Pearce. The drug problem, I want to take just a second 
for both the panel and the people in the audience. The 
methamphetamines that are coming across, you get one shot. You 
use it and you are probably going to be hooked. This is 90 
percent pure stuff that is coming across. Mr. Manjarrez, I am 
dealing with your agency right now. I am thinking about your 
agency and our inability to really secure our borders.
    The reason people get so frustrated is 11 percent of the 
kids in the high schools in New Mexico, that is almost three 
times the national average, are going to be hooked. They are 
going to try meth one time this year and they are going to be 
hooked. The meth is destroying their lives. It is an 
extraordinarily violent drug. If you are hooked on heroin and 
you want to get off heroin, you have a 40 percent chance if you 
raise your hand and say, ``I would like to get off heroin.''
    If you are hooked on meth and you want to get off, you have 
a 10 percent chance and of that 10 percent 75 percent will be 
back on it so we are developing an epidemic in this country. 
The very, very highly refined meth that we used to cook in 
basements around in homes in America now is coming across, I 
suspect, both borders. I don't live on the northern border so I 
don't know but it is definitely coming across the southern 
border somewhere, somehow.
    I appreciate the dedication of your people but the answers 
need to be given of how to secure this border. It is going to 
affect the lives of every single individual in this country. 
The stories that we are hearing about the meth addiction tell 
us that we have a suburb problem. Now, in El Paso sector they 
tell us that almost 80 percent of their crime-related cases at 
the border are actually meth related.
    That is a completely different picture than you paint. We 
have been too long overdue in curing the problems. Our Federal 
lands are being impacted at a dramatic rate. People are afraid 
to go hiking, walking, riding the off-road vehicles. It is 
unfortunate that we have allowed the problem to develop this 
far. We are sending help from the Congress.
    We have 10,000 agents that are coming to the border but I 
will tell you that an agency--the field agents tell me when I 
go there, and they have told me this in front of their 
superiors, that they spend about 20 percent of their time out 
on the border and 80 percent of their time is spent doing 
paperwork.
    An agency that can't figure out how to keep the most highly 
paid professionals on the border and contract out the paperwork 
or find somebody to do it at a cheaper rate is an agency that I 
think is asleep at the wheel. I think the American people are 
frustrated. They are expressing that frustration over and over 
again.
    I think that we have an obligation in Congress to offer the 
oversight but you all have the obligation to look at your 
internal procedures that have simply said for decades, ``Well, 
it's OK. It's not broken too badly.'' It is broken very badly, 
as your testimony said. I appreciate that honest 
straightforward evaluation. We look forward to working with 
you. We look forward to cooperating with you.
    Mr. Borchard, as a manager of public lands in this 
particular part of California, I hope that you are hearing the 
frustration out here that people have with our inability to 
focus, to clean up, to secure the public lands that we have.
    Mr. Ingram, I appreciate your testimony today.
    Ms. Powers, Ms. Keeler, thanks for the personal insights 
that you bring to the issue.
    Mr. McGarvie, always we tend to push the people in the 
recreation field off on the side and say, ``Well, they don't 
really count.'' I will tell you that Americans are insistent 
that they have some ability to get away and get out onto open 
lands. It is one of the best and the most enjoyable kinds of 
recreation. If we do not do our job here, then the people who 
are your constituents will not be able to have access.
    Mr. Nassif, we appreciate your testimony today and 
understand long-term we need to deal with who is going to pick 
the crops. Those are issues that Mr. Radanovich keeps in front 
of us frequently. I as an employer and previous employer 
understand when you say you can't tell the people who steal 
Social Security cards. They are look like every one. We had 
just recently 25,000 Social Security cards stolen blank.
    Somebody can fill them in and you as an employer can't know 
what is legitimate and what is not legitimate. Definitely we 
have tremendous problems to begin to unravel even if we secure 
the border. I think, gentlemen, that we must secure the border 
before we go into any of the other issues. I appreciate the 
participation of the panelists. Mr. Bilbray, thank you for 
coming over. Mr. Radanovich, thank you. We appreciate Mr. 
Hunter graciously allowing us to come into his district.
    Thank you as an audience for caring. I have attempted to 
express several times during the Committee meeting that it was 
not proper for the outburst of emotion but I do understand it 
and I do believe that we as a nation are beginning to have 
strong opinions about our border. Thank you all very much for 
coming out today and helping us in this process.
    [Whereupon, at 12:17 p.m. the Committee was adjourned.]

                               * * * * *



 OVERSIGHT HEARING ON BORDER SECURITY ON FEDERAL LANDS: THE IMPORTANCE 
                    OF SECURING THE NORTHERN BORDER

                              ----------                              


                        Monday, August 28, 2006

                     U.S. House of Representatives

                         Committee on Resources

                           Hamilton, Montana

                              ----------                              

    The Committee met, pursuant to call, at 1:00 p.m., at the 
Bedford Building (City Hall), 223 South Second Street, 
Hamilton, Montana, Hon. Tom Tancredo [member of the Committee] 
presiding.
    Present: Representatives Tancredo and Rehberg.
    Mr. Tancredo. Would everyone please take a seat. This 
hearing will come to order. By way of introduction, I am 
Congressman Tom Tancredo. Congressman Rehberg is joining me 
here. I want to express our appreciation for all the folks who 
put this together here, especially Mayor Randazzo who was 
responsible for helping us get the facility. It's an excellent 
one.
    I'm now going to recognize Congressman Rehberg for some 
introductions.
    Mr. Rehberg. If we might, and then I'll make opening 
comments after Chairman Tancredo makes his opening comments. 
But I just wanted to thank those of you who are in attendance 
now. And we'll begin by having the Boy Scouts of America, Troop 
1976 of Hamilton, Montana, Present the Colors, David Rygmyr, 
who is the Scout Master. If you will all stand and, please, 
remain standing.
    [The Colors were presented and the Pledge of Allegiance 
recited.]
    Mr. Rehberg. And we'll have the invocation led by Rick 
Laible, State Senator.
    Mr. Laible. Before I begin, let me tell you a story about 
an old Cherokee and his grandson. He said, my son, the battle 
is between two wolves, and they all are inside of us. One is 
evil. It is anger, envy, jealousy, sorrow, regret, greed, 
arrogance, self-pity, resentment, inferiority, lies, false 
pride, superiority and ego.
    The other is a good wolf. It is joy, peace, love, hope, 
serenity, humility, kindness, benevolence, empathy, generosity, 
truth, compassion and faith.
    The grandson thought about it for a minute and asked his 
grandfather: Granddad, which wolf wins? The old Cherokee simply 
replied: The one you feed.
    [The invocation was given.]
    Mr. Rehberg. Again, thank you, Rick, and the Boy Scout 
troop, and I'll turn it back over to Tom Tancredo now.

STATEMENT OF THE HONORABLE TOM G. TANCREDO, A REPRESENTATIVE IN 
              CONGRESS FROM THE STATE OF COLORADO

    Mr. Tancredo. Thank you, Mr. Rehberg. I want to remind 
everyone that this is a Congressional hearing so, please, I 
must ask you to refrain from outbursts either in support of or 
in opposition to whatever you are hearing at the time.
    I'd like to start this hearing by setting out the context 
for this Resources Committee review of the immigration issue. 
First of all, one thing about which everyone seems to agree 
today, or just about everyone--and it's hard to imagine that we 
can get agreement on a subject as difficult as this and it's 
challenging--but there is one thing that seems to be able to 
garner a majority of support or even a consensus, and that is, 
that we have a problem with regard to immigration; that the 
system is broken; that in some way or another it needs to be 
fixed. At that point there's a great deal of divergence as to 
exactly how to accomplish the task, and there are a number of 
different proposals out there for doing just that.
    This committee's role, however, was best summed up by 
former Interior Secretary Gale Norton who said that while 
primary responsibility for border security rests with the 
Department of Homeland Security, the Department of Interior 
agencies have an obligation to protect employees, visitors, 
natural resources and agency facilities.
    As a Congressional committee that has oversight of the 
Department of Interior we, too, have an obligation to insure 
that America's Federal lands are secure from the effects of 
illegal immigration. As an aside, I might add that it's 
incredible the amount of Federal land that does actually adjoin 
the borders and for which we have ultimate responsibility, 
especially, the parks system and wilderness areas and the like.
    It's also amazing to me having observed both on the 
northern and southern borders the amount of environmental 
degradation that has gone on. It is amazing that we have not 
had a much louder outcry from the folks, who are rightly so, 
interested and motivated by that particular issue.
    The current northern border strategy focuses on preventing 
terrorist activity and reducing instances of drug smuggling. 
Both of these crimes are often carried out by immigrants 
crossing into the--I should say, by the way, illegal 
immigrants--crossing into the United States from Canada via the 
vast and very unprotected Federal lands along the western part 
of the border.
    Given the potential dangers from these activities, the 
importance of securing the northern border cannot be 
understated. Recall, that Ahmed Rassem was planning to blow up 
Los Angeles International Airport when he was arrested as he 
crossed through Olympic National Park in Washington State.
    I'd also point out that the 9/11 Commission noted in their 
report that the northern border received little attention 
despite examples of terrorists entering from Canada. It's also 
important, I think, for us all to note and understand that as 
we place more and more emphasis let's say on the southern 
border, it gets a lot of attention just simply because of the 
numbers. The numbers of people crossing on the southern border, 
of course, are much greater than along the northern border and, 
hence, a lot of the attention and focus of the Nation is on 
that particular area.
    Nonetheless, when it comes to the issue of national 
security, we are only as strong as our weakest link. If we 
concentrate on the southern, the northern border becomes even 
more conducive to those who want to exploit our porous borders 
and to come into this country without our notice and under the 
radar, so to speak.
    That brings me to the point of the hearing. Today's hearing 
is about solutions. It's important for the Committee to hear 
what border security measures will be put in place as well as 
their benefits to all who live near and work and depend on 
these lands in various ways.
    Obviously, the key to implementing these solutions is 
legislation that ultimately passes Congress and is signed into 
law. The fact is that Congress has to a certain extent been 
hesitant to move on this issue because, of course, it is highly 
volatile. It is very, very controversial. And what you're 
seeing in a lot of states is they are taking up this mantle, 
and they are doing things about it themselves.
    Today, as a matter of fact, over 30 states have passed some 
form of legislation dealing with immigration, most of it being 
not terribly relevant. I shouldn't say relevant, but not 
terribly significant. But, nonetheless, they are dealing with 
it. Georgia, on the other hand, has passed major legislation 
dealing with immigration and the effects of illegal 
immigration.
    So it is happening and it is a natural response if the 
Federal Government does not do something when the people of 
this country are really very much interested in having 
something accomplished. It is that point where Congress is 
confronted with these two opposing points of view, but that's 
where we are today.
    The House bill is, I think, correctly focused on security 
and enforcement. The Senate bill, I believe, unnecessarily ties 
these issues to a host of provisions that have little to do 
with border security.
    To demonstrate how bad the Senate bill is, from my point of 
view, these add-ons have pushed the cost of the bill to over 
$126 billion over the next decade according to the most recent 
CBO estimates, including $50 billion in Federal benefits such 
as earned income tax and child tax credits, Medicaid and Social 
Security for those people that we would then make legal here or 
provide some sort of amnesty for. It's obvious that the 
Senate's idea of a solution may, in fact, bring more problems 
which will further erode our national security.
    [The prepared statement of Mr. Tancredo follows:]

 Statement of The Honorable Tom Tancredo, a Representative in Congress 
                       from the State of Colorado

    I'd like to start this hearing by setting out the context for the 
Resources Committee review of immigration issues. The Committee's role 
was best summed up by former Interior Secretary Gale Norton who said 
that while the primary responsibility for border security rests with 
the Department of Homeland Security, the Department of Interior 
agencies have an obligation to protect employees, visitors, natural 
resources and agency facilities. As the Congressional committee that 
has oversight of the Department of Interior, we too have an obligation 
to ensure America's federal lands are secure from the effects of 
illegal immigration.
    The current Northern border strategy focuses on preventing 
terrorist activity and reducing instances of drug smuggling. Both of 
these crimes are often carried out by immigrants crossing into the 
United States from Canada via the vast--and very unprotected--federal 
lands along the western part of the border. Given the potential dangers 
from these activities, the importance of securing the Northern border 
cannot be understated. Recall that Ahmed Rassem, who was planning to 
blow up Los Angeles International Airport, was arrested as he crossed 
through Olympic National Park in Washington State. I would also point 
out that the 9/11 Commission noted in their Report that the Northern 
border received little attention ``[d]espite examples of terrorists 
entering from Canada.''
    This brings me to the point of this hearing. Today's hearing is 
about solutions. It's important for the Committee to hear what border 
security measures will be put in place as well as their benefits to all 
live near, work and depend on those lands. Obviously, the key to 
implementing these solutions is legislation that ultimately passes 
Congress and is signed into law. It is at this point where the House 
and Senate depart ways. While the House bill is correctly focused on 
security and enforcement, the Senate bill unnecessarily ties theses 
issues to a host of provisions that have little to do with border 
security. To demonstrate how bad the Senate bill is, these ``add-ons'' 
have pushed the cost of the bill to $126 billion over the next decade, 
including $50 billion in federal benefits such as the earned income and 
child tax credits, Medicaid, and Social Security. It's obvious that the 
Senate's idea of a ``solution'' may in fact bring more problems which 
will further erode our national security.
    I want to now again recognize our host, Congressman Rehberg for any 
additional remarks he may have. As the ``person on the ground'' here in 
Montana, Congressman Rehberg has been a leader in educating all of us 
on the problems facing the Northern border.
                                 ______
                                 
    Mr. Tancredo. Now, I want to, again, recognize our host, 
Congressman Rehberg, for any additional comments he may have. 
He's the person on the ground here in Montana. Congressman 
Rehberg has been a leader in educating all of us on the 
problems facing the northern border, and I'm proud and happy to 
have Congressman Rehberg here today with us.

STATEMENT OF THE HONORABLE DENNIS R. REHBERG, A REPRESENTATIVE 
             IN CONGRESS FROM THE STATE OF MONTANA

    Mr. Rehberg. Thank you, Tom. I want to thank Representative 
Tancredo for his leadership on the immigration issue in the 
U.S. Congress. It has been a very important issue for him 
personally and legislatively over the years. He's kept the 
issue out in front of us, and he has led the effort in the U.S. 
House to continue to get out and hear from the American public.
    A number of months ago Speaker Hastert approached the 
Chairmen of various committees that have jurisdiction over the 
immigration issue, and asked that hearings occur over the 
course of the summer on areas within their jurisdiction. We're 
here today to talk specifically about the jurisdiction of the 
Resources Committee, something that doesn't get talked a lot 
about, but I felt it was necessary and lobbied to have a 
hearing in Montana as one of the 19 hearings that are occurring 
around the country in other areas in 12 different states.
    The majority of the hearings are occurring probably along 
the southern border. There are other hearings in places like 
Indiana, but I felt it necessary to try and have a hearing in 
Montana, and he offered the Resources Committee. I used to be a 
member of the Resources Committee before I was taken off the 
Committee because I was assigned to the Appropriations 
Committee. But I still attend quite a few hearings because of 
the resource issues.
    And, again, today, we are talking specifically about the 
impacts of illegal aliens crossing the border and its impact on 
Federal properties and states that have Federal properties. 
Certainly, there are other issues in the bill that both the 
House and the Senate are debating, and I'll have an opportunity 
to vote yes or no, for or against, some of them. Those issues 
are amnesty, guest worker program, the impacts on schools and 
hospitals, whether a fence is going to be constructed along the 
southern border and, ultimately, the cost to the Federal 
taxpayer for issues such as Social Security, Medicare and 
Medicaid.
    But Resources has the sole jurisdiction over management of 
Federal lands, and we are the ones within the Resources 
Committee responsible for the policy and legislative solutions.
    Interestingly enough, there's about 4,000 miles of northern 
border. It touches 13 states, not including Alaska. There are 
parks. There are forests, and there are four Indian 
reservations. The greatest concentrations of those properties 
are in Washington, Idaho and in Montana.
    It's ironic that one of the first criticisms or questions 
was, why Hamilton, Montana? My response is: Why not? Hamilton, 
Montana, is near Federal property. It's within the State of 
Montana. Montana was lucky to get the site for the Resources 
Committee hearing and is every bit as appropriate here. We 
probably would have been criticized if we would have had it in 
Malta, Havre or Scobey. But we're talking specifically about 
Federal properties and the impacts, specifically, to drug 
trafficking, terrorism and alien smuggling.
    You'll hear today, perhaps--I've heard it in the past from 
the U.S. Marshal, from the Border Patrol, from Customs, from 
the Sheriffs and such--that we not only have a problem, we have 
a growing problem in drug smuggling, whether it's marijuana or 
meth. We're seeing the effects of the successful closing down 
of certain portions of the southern border. It's not affecting 
the northern border because they're finding a way to get across 
our remote and sparsely populated north.
    We also heard from the U.S. District Court judges and our 
9th Circuit Court of Appeals judge, Sid Thomas, about the 
problems of prostitution. Asians, Koreans in specific, coming 
across the Canadian border using our Federal sparsely populated 
forest properties to get across the border.
    And so I thought it important to have the hearing for the 
location that has Federal properties, has a great deal of 
interest, and that's why Hamilton, Montana. So, again, I want 
to thank the Boy Scouts of America for being here today. I want 
to thank Sheriff Hoffman even though I didn't get a chance to 
introduce him before he gave the Pledge of Allegiance. And I 
want to thank all of you panel members for taking the time out 
of your busy schedules to travel to Hamilton to be with us 
today.
    Mr. Tancredo. Thank you, Denny. Now I'll introduce our 
panel. First up is Abigail Kimbell. She's the Regional Forester 
for Region 1 of the U.S. Forest Service. Next is Jeff Copp, 
Special Agent in Charge from the Denver Office of Immigration 
and Customs Enforcement. Following Mr. Copp is Chief Robert L. 
Harris, Customs and Border Patrol. Chief Harris joins us from 
Spokane, Washington.
    Glacier County Sheriff Wayne Dusterhoff will talk about the 
effects of immigration on local law enforcement. And Detective 
Sergeant Jeremy House, who heads up the Yellowstone County Drug 
Task Force, will discuss the drug trafficking that's crossing 
the northern border through the Federal lands.
    It is the policy of the Resources Committee to swear in 
witnesses. So if you will stand and raise your right hand.
    [Witnesses sworn.]
    Mr. Tancredo. Please, sit down. Let the record reflect the 
witnesses answered in the affirmative. Also, I would like to 
point out that there are lights in front of the table to 
control the time. Each witness has five minutes. When the light 
turns yellow, you have one minute. When it turns red, please 
wrap up.
    Your full testimony will appear in the record. Keeping 
statements at five minutes will allow for more time for 
questions.
    Mr. Tancredo. So thank you all and let's go ahead and start 
with Abigail Kimbell, Regional Forester.

STATEMENT OF ABIGAIL KIMBELL, REGIONAL FORESTER, REGION I, U.S. 
FOREST SERVICE, ACCOMPANIED BY JONATHAN HERRICK, SPECIAL AGENT 
   IN CHARGE, AND STEVE KRATVILLE, LEGISLATIVE AFFAIRS STAFF

    Ms. Kimball. Good afternoon. Mr. Chairman and Mr. Rehberg. 
Thank you for the opportunity to appear before you today to 
discuss the impacts of illegal border activity on national 
forests, specifically, within the Forest Services' northern 
region in Idaho, Montana and North Dakota.
    I'm accompanied today by Jonathan Herrick, Special Agent in 
Charge, and Steve Kratville from my Legislative Affairs staff.
    Let me start off by saying that the Administration believes 
that in order to most effectively secure our border we must 
reform our immigration system. We need comprehensive 
immigration reform that provides for increasing border 
security, establishes a robust enforcement program, creates a 
temporary worker program and addresses the issue of the 
estimated 11 to 12 million illegal immigrants already in the 
country.
    Mr. Chairman, understandably, the Committee has recently 
focused much attention on the impacts on Federal lands from 
border activity on the Mexican border. There are significant 
differences between the impacts on national forests along the 
southern and northern borders, and my testimony will focus on 
the Canadian border.
    There are 22.3 million acres of national forest within 50 
miles of the Canadian border, which includes those lands in 
Alaska. The national forests share 996 miles of national forest 
border with Canada, more than any other Federal land management 
agency.
    In the northern region alone, Northern Idaho, Montana and 
North Dakota, we share 100 miles of boundary with Canada. The 
illegal border issues in Alaska are significantly different 
than those based in the lower 48 given the great remoteness and 
difficult accessability. Individuals or contraband that enter 
the U.S. in Alaska can move to the lower 48 without customs or 
border protection.
    The Forest Service has had a presence here in Montana and 
Idaho for over 100 years. Still, these bordered areas are 
sparsely populated. The terrain ranges from river basin to high 
elevation mountain ranges and includes wilderness areas and 
other remote unroaded areas.
    The issue that we and the Forest Service have been most 
involved in regarding the border, aside from fire suppression--
the cause for much of the smoke in the air today--is drug 
smuggling operations. Though the resource impacts are few, the 
potential for conflict between employees and forest visitors 
contacting an armed or desperate smuggler are increasing. This 
does concern me.
    In the Northern Region I, we expect our 43 officers and 
special agents to aggressively pursue issues of resource use 
and damage, our public safety across our 25 million acres, and 
it is not possible to assign officers solely to support border 
operations.
    Mr. Chairman, while the Forest Service is a land management 
agency, not a border security or drug enforcement agency, we 
know that illegal drugs, other forms of contraband, and 
undocumented aliens have been smuggled across the Canadian 
border, sometimes through public lands.
    It is not acceptable or productive to perceive national 
forests as vulnerable by those who wish to enter or leave the 
country in violation of our laws. Likewise, our legal 
responsibility to manage the national forests is not an 
impediment to interagency cooperation and effective counter-
terrorism or anti-smuggling operations along the boarder.
    The events of September 11, 2001, significantly changed our 
Forest Service involvement in border security. Our law 
enforcement officers and special agents work with border 
security agencies to better secure our border to prevent 
terrorism and drug smuggling in a manner that also protects the 
national forests.
    Our chief, Dale Bosworth, meets regularly with his 
counterpart with the U.S. Border Patrol. Additionally, we work 
cooperatively with other Federal agencies who have border 
security and drug enforcement responsibilities such as the 
Federal Bureau of Investigation, the Drug Enforcement Agency, 
the Department of Interior Land Management the agencies in the 
Department of Homeland Security Customs and Border Protection 
Border Patrol, Immigration and Custom Enforcement and the Coast 
Guard. We assist other agencies when requested as active 
participants in multi-agency efforts.
    The Departments of Agriculture and Interior recently signed 
a Memorandum of Understanding with the Border Patrol with the 
overall goal of making the United States borders more secure. 
This Memorandum of Understanding outlines roles and 
responsibilities to be more effective and efficient in the way 
we address safety, security, emergency access and environmental 
protection necessitated by illegal border crossing or affecting 
public lands.
    Finally, Mr. Chairman, in considering effective strategies 
for securing our borders and protecting the public lands along 
the border, the committees could evaluate the tools provided to 
the public land management agencies. It is my view that the 
Forest Services has been provided with sufficient legal 
authorities. That concludes my testimony. I'd be pleased to 
answer any questions you may have.
    Mr. Tancredo. Thank you.
    [The prepared statement of Ms. Kimbell follows:]

           Statement of Abigail Kimbell, Regional Forester, 
                  Northern Region, USDA Forest Service

    Mr. Chairman and Members of the Committee:
    Thank you for the opportunity to appear before you today to discuss 
the impacts of illegal border activity on National Forest System lands 
within the Forest Service's Northern Region (R1) in Idaho and Montana. 
I am accompanied today by Jonathan Herrick, Northern Region Special 
Agent in Charge.
    Let me start off by saying that the Administration believes that in 
order to most effectively secure our border, we must reform our 
immigration system. We need comprehensive immigration reform that 
provides for increased border security, establishes a robust interior 
enforcement program, creates a temporary worker program, and addresses 
the problem of the estimated 11 to 12 million illegal immigrants 
already in the country.
    Mr. Chairman, understandably, the committee has recently focused 
much attention on the impacts on Federal lands from illegal border 
activity along the United States border with Mexico. There are 
significant differences between the impacts on National Forest System 
lands along the northern and southern borders and my testimony will 
focus on the northern United States--Canada border.
    There are more than 23.8 million acres of National Forest System 
lands within 50 miles of the international borders with Mexico and 
Canada. Of this, 22.3 million acres are adjacent to the northern 
border, including Alaska. There are 996 miles of National Forest System 
lands along the international border with 944 of those miles between 
Canada and the United States, more than any other Federal land 
management agency. National Forest System lands in Alaska have an 
additional 13,261 miles of coastline with the Gulf of Alaska and the 
Pacific Ocean. On the Ottawa, Hiawatha, and Huron-Manistee National 
Forests there are approximately 100 miles of common international 
border on the Great Lakes of Superior and Huron.
    A significant portion of National Forest System lands potentially 
impacted by illegal border activities are in the Forest Service's 
Alaska Region (R10). The Forest Service is the primary land management 
agency adjacent to the Canadian border. Illegal border issues in Alaska 
are greatly different than those faced along the Canadian border with 
the lower 48 States and vastly different than the issues along the 
Southwestern border.
    A unique issue with the international border in Alaska is that very 
little of it is accessible by automobile. Boat and aircraft are the 
primary modes of transportation in Southeast Alaska, which consists of 
numerous waterways and islands. Most of the border area is accessible 
by helicopter, ski or float plane. The border area, on both sides, is 
dotted with numerous remote landing strips which are maintained for 
continuous access and some are mere gravel strips along river drainages 
used on a regular basis. Individuals or contraband that enter the U.S. 
through Alaska, can then move to the lower 48 States without Customs 
and Border Protection or other agency intervention.
    The Forest Service has had a presence on the United States northern 
border for almost a hundred years. These border areas, to a great 
extent, are sparsely populated and the ability to cross over the border 
on foot undetected is much easier than on the southern border. 
Additionally, there are several areas where it is possible to cross by 
motorized vehicles, including snowmobiles, off-highway vehicles and 
even full-sized vehicles. Terrain on these forests ranges from flat 
river basins, to mountain tops reaching over 10,000 feet above sea 
level, to flat rolling countryside. They include wilderness areas, 
roadless areas and other unpopulated backcountry.
    The issue Forest Service law enforcement personnel have 
traditionally been most concerned with along the United States--Canada 
border is drug smuggling. The nature of smuggling operations along the 
border, however, generally results in few visible impacts on the 
resources.
    The Forest Service manages almost 193 million acres of National 
Forests and Grasslands in the United States and Puerto Rico. National 
Forest System lands provide opportunities for over 211 million people 
who visit and use these lands each year. Law enforcement is integral to 
the Forest Service mission of protecting the public, our employees, the 
natural resources and agency facilities and property.
    The Forest Service Law Enforcement and Investigation (LEI) program 
operates in national forests in 44 States through cooperation with 
Federal, State, Tribal and local law enforcement agencies and other 
Forest Service programs. The LEI staff:
    <bullet>  Provides high visibility uniformed patrol presence and 
prompt response to public and employee safety incidents and violations 
of law and regulation;
    <bullet>  Conducts criminal and civil investigations;
    <bullet>  Maintains strong relationships with cooperating law 
enforcement agencies, the Offices of the United States Attorney, and 
the Federal Court system;
    <bullet>  Works to reduce the cultivation, production and smuggling 
of cannabis and other controlled substances on NFS lands; and
    <bullet>  Coordinates and conducts anti-terrorist activities to 
provide a secure environment for the public and our employees and to 
protect public resources and facilities.
    The demands on LEI are increasing. From Fiscal Year 2004 through 
Fiscal Year 2005, violations against people and property increased 15 
percent across the National Forest System. In addition to handling 
minor infractions, petty offenses and misdemeanors, Forest Service law 
enforcement offices are asked to respond to:
    <bullet>  Events including environmental protests, threats and 
assaults on employees, and government property, domestic terrorist 
activity, large group gatherings, gang activity and fire-related 
emergencies;
    <bullet>  Crimes such as rape, homicide, domestic disputes, 
assault, robbery and other felonies;
    <bullet>  Calls to assist in traffic control, search and rescue, 
medical/emergency assistance, hazardous materials spills and other 
first responder incidents; and
    <bullet>  Deployment to assist in other national emergencies, such 
as the response of nearly half of our law enforcement workforce last 
year to Hurricane Katrina.
    LEI has approximately 695 full-time positions, with 110 being 
classified as special agents assigned primarily to completing 
investigative work and 467 law enforcement officers primarily providing 
patrol work on national forests and who are usually the first points of 
contact for the public.
    I know from personal experience that Forest Service line officers 
expect LEI personnel to aggressively pursue theft of forest products, 
protect wilderness and endangered species habitat, respond to potential 
criminal or public safety issues at Forest Service facilities, such as 
camp grounds, along with potential civil claims and a myriad of 
resource issues.
    Forest Service law enforcement personnel numbers are limited and 
with only 43 officers and special agents in the Northern Region spread 
across 25,000,000 acres, it is not possible to assign agents and 
officers solely to support border operations. Border operations and 
activities take personnel away from other critical land management 
enforcement and investigation responsibilities.
    Mr. Chairman, while the Forest Service is a land management agency 
not a border security or drug enforcement agency, experience shows that 
illegal drugs, other forms of contraband, and undocumented aliens have 
been smuggled across the border from Canada, sometimes through public 
lands.
    It would be unacceptable and counterproductive for National Forest 
System lands to be perceived as vulnerable by those who wish to enter 
or leave the country undetected or in violation of our laws. Likewise, 
our legal responsibilities to manage the public lands should not be 
perceived by our line officers or our law enforcement partners as an 
impediment to interagency cooperation and effective counter terrorism 
or anti-smuggling operations in border areas.
    The events of September 11, 2001, significantly changed Forest 
Service involvement in border security and have substantially increased 
the workload of our LEI personnel and line officers in working with law 
enforcement and border security agencies to better secure our border 
and prevent terrorists and drug smuggling in a manner that also 
protects the natural resources. That thinking goes to the top of this 
agency. Our Chief, Dale Bosworth, and our Director of Law Enforcement 
and Investigation, John Twiss, meet on a recurring basis with their 
counterparts in the U.S. Border Patrol.
    Additionally, Forest Service LEI works cooperatively with other 
Federal agencies that have border security and concurrent drug 
enforcement responsibilities affecting the National Forest System on 
the Canadian border and coast environments, such as the Federal Bureau 
of Investigation, the Drug Enforcement Agency, Department of the 
Interior land management agencies, and agencies in the Department of 
Homeland Security, the Custom and Border Protection's Border Patrol, 
Immigration and Custom Enforcement (ICE), and Coast Guard.
    Forest Service law enforcement officers and agents respond to 
reported National Forest border issues and assist other law enforcement 
agencies when requested as active participants in multi-agency efforts. 
The most significant such effort on the northern border is Project 
North Star.
    When Project North Star was created in 1989 as part of then-
President Bush's National Drug Control Strategy, its singular focus was 
narcotics interdiction. In 1999, the U.S. Border Patrol assumed 
management of Project North Star. Currently, this project serves as a 
forum to provide support for law enforcement agencies from the United 
States and Canada who were involved in multi-agency operations to avoid 
unwarranted duplication and accidental interference between independent 
operations. Project North Star's scope was to provide managers a way to 
improve border-wide and regional strategies, intelligence, training, 
planning and to more effectively employ assets.
    After September 11, 2001, all Federal agencies, including the 
Forest Service have begun to re-evaluate operational needs along the 
borders of the United States. Since 9/11, the focus and direction of 
Project North Star has changed from a singular item of narcotics 
interdiction to now include anti-terrorism, organized crime, drug 
trafficking, alien/contraband smuggling, money laundering, firearms 
trafficking, intelligence, and all other multi-national law enforcement 
issues that impact cross-border effectiveness on the United States--
Canada border.
    While the Department of Homeland Security has responsibility for 
patrolling the border and taking appropriate actions with cross-border 
violators, the Forest Service works in conjunction with other Federal 
land management agencies to respond to the effects of illegal 
activities on the public lands.
    The Departments of Agriculture and the Interior have recently 
signed a Memorandum of Understanding with the Border Patrol with the 
overall goal of making the United States borders more secure. The MOU 
outlines roles and responsibilities in order for all agencies to become 
more effective and efficient in the ways they address safety, security, 
emergencies, access and environmental protection necessitated by 
illegal border-crossing on or affecting public lands.
    Finally, Mr. Chairman, in considering effective strategies for 
securing our borders and protecting the public lands along the border, 
the committee could evaluate whether the tools provided to the public 
land management agencies are sufficient to the task. It is my view that 
the Forest Service has been provided sufficient legal authorities.
    That concludes my testimony and I would be pleased to answer any 
questions you may have.
                                 ______
                                 
    Mr. Tancredo. We will proceed with questions. The first I 
have for you is, you mentioned, Ms. Kimbell, that the 
Administration supports a ``comprehensive immigration plan that 
includes guest worker provisions.'' Do you have any evidence, 
whatsoever, that suggests guest worker provisions would 
alleviate the problems that you're seeing on the border.
    Ms. Kimbell. The problems that we're seeing are--I believe 
addressed this--a lot of what's been reported in the news media 
and a lot of what Congress has been discussing in session and 
in sessions like these across the country, but in this part of 
the country is more the human access across those public lands 
is the greatest concern to us in the national forest.
    Mr. Tancredo. I agree. I am just wondering how, in fact, 
any sort of guest worker plan would alleviate that problem. If 
you're telling me--and, certainly, I agree, by the way, with 
what your emphasis is on what's coming across the border, the 
kind of smuggling activity that exists, the danger that exist 
to people in the parks that are recreating there. I must admit 
to you that I do not understand even a reference to the 
comprehensive plan as being anything that would alleviate any 
problems that you're seeing.
    It was about three, maybe four years ago now--I can't 
remember for sure--the Forest Service along with the Border 
Patrol operated--and actually along with the Marines, 100 
Marines--a detachment was sent to a little place north of--a 
place called Bonners Ferry, Idaho. And I had the great 
privilege of being able to go up there and spend a weekend and 
listen to the folks talk about their concerns and to see 
whether or not the plan that they had constructed, which was to 
have 100 Marines on the border using three unmanned aerial 
vehicles--and these were, by the way, 1991 vintage UAVs. 
Sounded like a lawn mower was flying around up there. They're 
propeller driven, very loud, wasn't anything you could sneak up 
on anybody with. We are, of course, ten generations past that 
in terms of the technology that has developed.
    But I had the opportunity to be there, as I say. And the 
100 Marines, these three UAVs and two radar stations were put 
on the border to try to determine--actually, control 100 miles 
of that border. This was, I believe, if I remember correctly, 
an initiative of the Forest Service. There was a gentleman who 
had been involved with it for a long time, had been pushing it, 
and they finally agreed to a two-week exercise.
    At the conclusion of that two-week period of time, I will 
tell you that I believe that nothing came across that border 
that we did not see. It didn't matter if it was deer in the 
middle of night or whatever. It was a very effective way of 
controlling the border.
    What the Marines did, by the way, was to simply be the eyes 
and ears. They interdicted no one. They watched and what they 
saw was then reported to the Border Patrol who was stationed 
strategically behind various spots. They got in the helicopter. 
They flew over. They landed. When these people came through 
with drugs--usually it was on TV, carrying a bunch of drugs on 
their backs--as soon as they would come across, why, there was 
the Border Patrol to meet them. It was, ``Hi, welcome to 
America, spread 'em.'' It worked out, from my point of view, 
just perfect.
    Now, at the conclusion of that two-week exercise, I 
happened to ask--I was with the commander of that particular 
Marine detachment. He told me it was the best exercise they had 
ever had. He said No. 1, it was real time. No. 2, it was trying 
to stop people from coming into our country who weren't 
supposed to be coming into our country. No. 3, it was in the 
toughest, roughest terrain in the world, so it worked 
perfectly.
    My question for you is: If that happened, which I know; I 
was there. I know; I observed. I know that the Forest Service 
was the primary mover in this thing. Do you know if there was 
ever any conclusions drawn by the Forest Service? Do you know 
if there's been a repeat of that particular exercise? Do you 
know whether or not there's the consideration of doing 
something like that in the future? And do you agree with the 
estimate that was raised of the--of the whole thing that was 
given to me by the commander of that detachment? You may, if 
you have somebody else that has the information to provide it, 
we can actually have them step forward or they can give it to 
you.
    Ms. Kimbell. I interpret the eyebrow movement to be that 
neither of us have any specific information about that 
exercise.
    Mr. Tancredo. He was shaking his head yes while I was 
speaking.
    Ms. Kimbell. This is Jonathan Herrick. Jon.
    Mr. Tancredo. Jonathan, do I have to swear you in?
    Mr. Rehberg. The swear-in period is over.
    Mr. Herrick. The Regional Forester is correct in that I was 
not here during that time frame to be familiar with the 
operations that occurred. You are correct. There are highly 
successful operations. The problem is they are short-term 
duration, emphasis-type operations that we cannot support--we 
the Forest Service can support on a regular recurring basis.
    We have 15 officers within 15 miles of the border, the 
entire 100 miles, and they have numerous other duties they're 
responsible for to the national forest effort. Putting them 
with 100 Marines full-time in that application is just not 
feasible.
    Mr. Tancredo. I understand that there's a resource 
allocation problem. In the Memorandum of Understanding that was 
referenced--you can return, Ms. Kimbell, thank you--in the MOU 
that was referenced with Interior and Homeland Security, is it 
working, and can you give us some examples of that, and could 
you consider what I've just described to be another part of 
that particular program? Or Mr. Harris.
    Mr. Harris. I'm not familiar with that particular operation 
either, but I can tell you that we continue to work very 
closely with the military. As a matter of fact, from July 1st 
through--we just concluded a similar operation to the one that 
you just described. It was in the Pasayteni wilderness area.
    Mr. Tancredo. Was it with the Marines?
    Mr. Harris. It was not with the Marines. It was with active 
duty military. It had some National Guard members, but it was a 
radar acquisition for 30 days that turned out to be very 
successful. To add on to what was said, they're short-term in 
nature, but they were not continuing to work very closely with 
the military.
    Mr. Tancredo. We'll bring this up again after your 
testimony.
    Ms. Kimbell. In fact, we are working with cooperating 
agencies, partner agencies to explore the further feasibility 
of using UAVs, and we're in the process of procuring some of 
this technology. We'll continue working in that very 
cooperative partnership with the other agencies who do have the 
significant responsibility for border security.
    Mr. Tancredo. We really are going to try to get into more 
about the use of the technology and who is really in charge and 
who knows how. For the time being, that's the end of my 
questions for you Ms. Kimbell. Mr. Rehberg.
    Mr. Rehberg. Thank you. Maybe my question is more 
specifically for Doug, but I'll start with you. As I understand 
it, you have 43 people that are involved within the acreage 
that you're responsible for.
    Ms. Kimbell. I have 43 law enforcement officers and special 
agents who work in the Northern Region on the 25 million acres 
of national forest system service lands we're responsible for.
    Mr. Rehberg. Now, these 43 are they responsible for 
beyond--you had mentioned 15 miles within the border. The only 
reason I ask that question is having visited many of the ports 
along the north with the Border Patrol, one of the questions I 
asked: Why aren't you getting on Amtrak anymore? I know that a 
Pakistani was on there and got caught. Their point to me was, 
as long as they're not on the border, they're not catching 
people under their responsibility on the border. Is your 
responsibility for those 43 throughout the entire millions of 
acres or is it border security only?
    Ms. Kimbell. No. The 43 officers that I spoke of have 
responsibility for those national forest system that are north 
of the Salmon River include the whole State of Montana, those 
lands on the Wyoming border and the Idaho border and clear over 
onto the Minnesota border to the Cheyenne National Grasslands.
    Mr. Rehberg. So they don't specifically stay close to the 
border? Or, do you have people that are specifically assigned 
to the border.
    Ms. Kimbell. I think Jonathan mentioned that we have 15 
uniformed officers who are within--whose area of responsibility 
is within 50 miles of the Canadian border.
    Mr. Rehberg. I'm not referring specifically to Idaho in 
that one event. You're talking about the whole Washington, 
Idaho----
    Ms. Kimbell. I'm referring to Idaho and Montana and up to 
North Dakota that I have 15 officers who are within 50 miles of 
that Canadian border through our area of responsibility. There 
is another 100 miles of common border between national forests 
and the Canadian border in the State of Washington. Across 
Idaho and Northern Montana there's also 100 miles.
    Mr. Rehberg. You don't have any responsibility, then, 
within Glacier National Park or the reservations or you do?
    Ms. Kimbell. I do not. I do on the Flathead National 
Forests just adjacent to Glacier National Park.
    Mr. Rehberg. Could you real quickly--and then we'll move 
on--work through what happens if you catch somebody or suspect 
somebody? In your Memorandum of Understanding do you 
immediately make contact with the Department of Homeland 
Security or Customs? What's the scenario as far as your law 
enforcement responsibilities?
    Ms. Kimbell. I'm going to need to ask Jonathan to talk 
about the exact protocol.
    Mr. Herrick. We have no immigration authority or 
jurisdiction, so the protocol is we work closely with our 
counterparts. If we were to stumble upon some people who came 
across the border, we would ascertain that they would be 
illegal and call the Border Patrol to get some other from of 
support there.
    Mr. Rehberg. The last question is, I'm not asking you to 
criticize anyone other than the Congress. Is there any area of 
responsibility that you have not been given that you would like 
to see either expanded that you can't because of legislation? I 
think most, specifically, about getting the U.S. Attorney to 
prosecute those guys, and by God, when they pass a law make 
them do it, or something along that line. Is there some area 
that you can suggest that--other than the Memorandum of 
Understanding--that it's not their fault. It's not your fault. 
It's the system fault--to change it legislatively?
    Mr. Herrick. I think that the authority and the 
jurisdiction that we're given for our responsibility, what our 
primary mission out there is, I think we have sufficient 
authority and jurisdiction. It's working well with the 
cooperation of other agencies.
    Just to comment, you asked specifically about Glacier 
National Park, we do have Memorandums of Understanding pending 
with many of our agencies that currently are not signed. We 
can't assist them. They can assist us across those lines.
    Mr. Rehberg. Could I ask you, can everybody in the audience 
hear? Some are straining. Is it just you're trying to look at 
us? Can you hear us?
    Voice. No.
    Ms. Kimbell. Mr. Rehberg, there's one other piece that's in 
that, in the current legislation being considered, that's 
addressed to the Department of Interior but that's not 
addressed to the Department of Agriculture. So when you ask is 
there something that might be helpful, certainly, to include 
the Department of Agriculture.
    Again, I've got miles of national forest and acres of 
national forest along the Canadian border. We think it's very 
important that the Department of Agriculture be considered in 
talking about border security.
    Mr. Tancredo. Thank you. We'll all try and speak up a 
little bit until we can address this issue.
    Mr. Tancredo. Mr. Copp, why don't you go ahead.

       STATEMENT OF JEFF COPP, SPECIAL AGENT IN CHARGE, 
      DENVER OFFICE OF IMMIGRATION AND CUSTOMS ENFORCEMENT

    Mr. Copp. Mr. Chairman, Mr. Rehberg, thank you for the 
opportunity to speak with you today about the unique challenges 
the U.S. Immigration and Customs Enforcement of the Department 
of Homeland Security faces on the northern border.
    Among the Department of Homeland Security, DHS law 
enforcement agencies, ICE has the most expansive investigative 
authority and the largest force of investigators. Working 
overseas, along the nation's borders and through the nation's 
interior, ICE agents and officers are demonstrating that the 
merged customs and immigration authorities constitute an 
effective mechanism to identify and disrupt and dismantle 
criminal organizations that violate the nation's borders and 
the nation's customs and immigration laws.
    Using this combined authority ICE has built a robust 
enforcement program along the borders and within the nation's 
interior. It remains DHS's view, however, that effective 
dealing with the illegal immigration requires a comprehensive 
approach that combines border security measures, stronger 
interior enforcement, a new temporary worker program, a 
resolution of the status of illegal immigrants already in the 
county, and assimilation measures that honor the great 
tradition of this country as a melting pot.
    The northern border of the United States is notably 
different than our border with Mexico. It has rugged terrain, 
sparse population and a more open border. To bolster northern 
border enforcement efforts, the U.S. and Canadian governments 
developed an integrated border enforcement team in 1996. IBET 
is a multiple agency law enforcement team that harmonizes U.S. 
and Canadian efforts to target cross-border criminal activity.
    The IBET concept originally began when law enforcement 
agencies from British Columbia and the State of Washington 
worked together on cross-border criminal activity. Between 1996 
and 1999 IBET grew from 2 to more than 20 individuals from four 
different agencies.
    Formalized in April of 2001 IBET currently works in 15 
regions with IBET officers in 23 locations across the northern 
U.S. border. A good example of cross border cooperation between 
IBET and the IBET structure is the Operation FROZEN TIMBER, the 
joint ICE, U.S. Forest Service, National Park Service and IBET 
investigation that targets the Canadian drug smuggling 
organization based in the lower mainland of British Columbia.
    The smugglers have utilized helicopters to transport drugs, 
bulk cash and firearms into the national forests and national 
park lands of Washington State. Operation FROZEN TIMBER aims to 
disrupt and dismantle these Canadian smuggling organizations 
through seizures, arrest and prosecutions that thwart the 
efforts of others using helicopters to smuggle contraband into 
the United States.
    ICE is accomplishing this through extensive intelligence 
collection, analysis and exploitation, technical and physical 
surveillance, undercover and enforcement operations and 
prosecution of violators.
    The national forest and national parklands that these 
organizations use provide multiple landing sites for 
helicopters, where discovery is difficult because of the 
remote, mountainous and forested nature of the terrain.
    Since Operation FROZEN TIMBER began in November of 2004, 46 
individuals have been arrested. The U.S. and Canadian law 
enforcement agencies have seized approximately 8,000 pounds of 
marijuana, 800 pounds of cocaine, three aircraft and $1.5 
million in U.S. currency.
    Although ICE is a relatively new agency, we aggressively 
apply our unified immigration and customs authorities to 
identify and addresses vulnerabilities affecting the borders 
and the nation's homeland and national security. At the same 
time, we bring to these efforts the best of our former 
agencies' expertise, cultures, and techniques as we continue to 
improve the efficiency of this new Federal law enforcement 
agency.
    In case after case, ICE agents, officers, analysts and 
other personnel are putting into practice on behalf of the 
American people the powerful advantages that flow from our 
unified authorities. The result is a strong and growing 
contribution to the nation's border, homeland and national 
security. Thank you. I'm glad to answer any question you may 
have.
    [The prepared statement of Mr. Copp follows:]

 Statement of Jeffrey Copp, Special Agent in Charge, Denver, Colorado, 
 U.S. Immigration and Customs Enforcement, U.S. Department of Homeland 
                                Security

    Mr. Chairman, Ranking Member, and members of the Committee, thank 
you for the opportunity to speak with you today about the unique 
challenges that U.S. Immigration and Customs Enforcement (ICE) of the 
Department of Homeland Security faces on the Northern border. My name 
is Jeffrey Copp and I am the Special Agent in Charge of the ICE office 
in Denver. In addition to Colorado, the Denver office covers a 
significant area of the northern border and has sub-offices in Montana, 
Idaho, and Wyoming.
    Among the Department of Homeland Security (DHS) law enforcement 
agencies, ICE has the most expansive investigative authority and the 
largest force of investigators. Our mission is to protect the American 
people by combating terrorists and other criminals who cross the 
Nation's borders and threaten us here at home. The men and women of ICE 
accomplish this by investigating and enforcing the Nation's immigration 
and customs laws. Working overseas, along the Nation's borders, and 
throughout the Nation's interior, ICE agents and officers are 
demonstrating that the merged customs and immigration authorities 
constitute an effective mechanism to identify, disrupt, and dismantle 
criminal organizations that violate the Nation's borders and the 
Nation's customs and immigration laws. Using these combined 
authorities, ICE has built a robust enforcement program along the 
borders and within the Nation's interior. It remains DHS's view, 
however, that effectively dealing with illegal immigration requires a 
comprehensive approach that combines border security measures, stronger 
interior enforcement, a new temporary worker program, a resolution of 
the status of illegal immigrants already in the country, and 
assimilation measures that honor the great tradition of this country as 
a melting pot.
    By leveraging the full enforcement potential provided by our unique 
blend of customs and immigration authorities, ICE agents and officers--
together with our DHS and other federal counterparts and with the 
assistance of state, local, and tribal law enforcement entities--are 
making it more difficult for potential terrorists and transnational 
criminal groups to move themselves, their supporters, or their weapons 
across the Nation's borders through traditional human, drug, 
contraband, or financial smuggling networks, routes, and methods.
    The Northern border of the United States is notably different from 
our border with Mexico. It has rugged terrain, sparse population, and a 
more open border. To bolster Northern border enforcement efforts, the 
U.S. and Canadian Governments developed the Integrated Border 
Enforcement Team (IBET) in 1996. IBET is a multi-agency law enforcement 
team that harmonizes U.S. and Canadian efforts to target cross-border 
criminal activity. The IBET concept originally began when law 
enforcement agencies from British Columbia and the State of Washington 
worked together on cross-border criminal activity. Between 1996 and 
1999, IBET grew from two to more than 20 individuals from four 
different agencies. Formalized in April 2001, IBET currently works in 
15 regions, with IBET officers in 23 locations across the Northern U.S. 
border. Partnerships are vital to the IBET framework. Personnel from 
participating agencies use an integrated approach to their activities, 
which ensures joint coordination of law enforcement and intelligence 
sharing.
    A good example of cross-border cooperation within the IBET 
structure is Operation FROZEN TIMBER, a joint ICE, U.S. Forest Service, 
National Park Service, and IBET investigative operation that targets a 
Canadian drug smuggling organization based in the Lower Mainland of 
British Columbia. The smugglers have utilized helicopters to transport 
drugs, bulk cash, and firearms into and out of National Forest and 
National Park lands in Washington State.
    Operation FROZEN TIMBER aims to disrupt and dismantle these 
Canadian smuggling organizations through seizures, arrests, and 
prosecutions, and to thwart the efforts of others using helicopters to 
smuggle contraband into the United States. ICE is accomplishing this 
through extensive intelligence collection, analysis, and exploitation; 
technical and physical surveillance; undercover and enforcement 
operations; and prosecution of violators.
    The National Forest and National Park lands that these 
organizations use provide multiple landing sites for helicopters, where 
discovery is difficult because of the remote, mountainous, and forested 
nature of the terrain.
    The targets of this investigation, most of whom are Canadian 
citizens with aircraft registered in Canada, are involved in a 
conspiracy that falls within both the Eastern and Western judicial 
districts of the State of Washington. Furthermore, the investigation 
has revealed 13 helicopters suspected of being used for smuggling. The 
ultimate distribution point for the smuggled narcotics is the Western 
District of Washington and the Interstate 5 Corridor in Oregon and 
California.
    During the initial phase of Operation FROZEN TIMBER, U.S. and 
Canadian law enforcement agencies intercepted more than 17 drug loads, 
including one shipment in February 2005 consisting of five suitcases 
packed with more than 337 pounds of cocaine. This shipment constituted 
the largest single cocaine seizure in Washington State last year. 
Another significant seizure came in September 2005, when agents 
followed two couriers to a residence and recovered more than 1,100 
pounds of marijuana.
    More recently, in May 2006, ICE agents tracked a Bell Jet Ranger 
helicopter from Canada to a landing site in a remote wildlife area in 
Washington State. After witnessing the cargo being transferred to a 
waiting pick up truck, our agents, along with officers from the U.S. 
Forest Service and a local drug task force, stopped the vehicle, 
arrested two men inside, and recovered 329 pounds of marijuana. When 
the helicopter arrived back in Canada, the RCMP arrested the two 
Canadian pilots.
    Since Operation FROZEN TIMBER began in November 2004, 46 
individuals have been arrested. U.S. and Canadian law enforcement 
agencies have seized approximately 8,000 pounds of marijuana, 800 
pounds of cocaine, three aircraft, and $1.5 million in U.S. currency.
    While the vast majority of smuggling activity we combat today 
involves an array of traditional criminal threats, illegal businesses 
are evolving in dangerous ways. The violators are better armed and more 
willing to use force. The stakes are getting higher as we continue to 
strengthen the barriers against such activity. Because terrorists could 
potentially exploit this criminal activity and use border 
vulnerabilities to enter or attack the United States, the need to 
combat these threats through enforcement efforts like Operation FROZEN 
TIMBER is greater than ever.
    Although ICE is a new agency, we aggressively apply our unified 
immigration and customs authorities to identify and address 
vulnerabilities affecting the borders and the Nation's homeland and 
national security. At the same time, we bring to this effort the best 
of our former agencies' expertise, cultures, and techniques as we 
continue to improve the efficiency of this new federal law enforcement 
agency. In case after case, ICE agents, officers, analysts, and other 
personnel are putting into practice, on behalf of the American people, 
the powerful advantages that flow from our unified authorities. The 
result is a strong and growing contribution to the Nation's border, 
homeland and national security.
    We know the threats and we know the risks. Only through vigorous 
enforcement efforts against those who seek to use the Nation's borders 
against U.S. citizens can we ensure the security of the Homeland.
    The men and women of ICE are grateful for the chance to serve the 
American people and, on their behalf, I thank you and your colleagues 
for your continued support of our operations. I hope my remarks today 
have been helpful and informative. Thank you for inviting me, and I 
would be glad to answer any questions you may have at this time.
                                 ______
                                 
    Mr. Tancredo. Just let me explain to staff, although I 
thought maybe it was apparent. What we're going to do is go--
each individual will give their testimony, then we will 
question and then go to the next one. At the end we might have 
questions for everybody. We're going to trade off in the 
beginning. Mr. Rehberg.
    Mr. Rehberg. Thank you, Mr. Chairman. Congratulations on 
FROZEN TIMBER. I'm particularly interested in that, but I can't 
miss the opportunity to at least make the point or ask the 
question: What does the guest worker program--because but you 
talked about it in your testimony--have to do with the FROZEN 
TIMBER or solving the issue that the Resources Committee is 
talking today about, specifically, about smuggling and drug 
trafficking?
    Mr. Copp. That depends on what form it comes out of 
Congress. To us we look at the guest worker program as it would 
be easier for us to identify the people who are here if there's 
a way to identify them, so that will remove a population that 
we have to----
    Mr. Rehberg. I guess I don't understand how you had any 
problem recognizing the helicopters coming across the border 
finding a landing site. Using your success story as an example, 
was that not apparent? Would a guest worker program have helped 
you better identify people coming across the border in a 
helicopter?
    Mr. Copp. I think those are apples and oranges.
    Mr. Rehberg. So do I, and that's why it was in your 
testimony--other than Mr. Tancredo and I recognized the 
President is doing a little lobbying publicly with you Ms. 
Kimbell and you Mr. Copp and you Mr. Harris. So we'll probably 
hear it in your testimony as well. That's not the purpose of 
the hearing today. We'll fight that battle probably in the 
Education and Labor Committee. But we're here specifically to 
talk about the Resource Committee, its jurisdiction. Again, I 
don't want to miss the opportunity to make the point that the 
guest worker program probably doesn't have a lot to do with 
drug trafficking as far as the Federal properties. A little 
admonishment perhaps.
    Being a helicopter pilot myself, I guess I question or 
wonder about the necessity of even having to land on Federal 
properties. Why do they? When I fly a helicopter, I take the 
doors off. And if I wanted to I'd just drop something out the 
door from a thousand feet. There is nothing that's going to 
blow up when I drop a bundle of marijuana or cocaine out my 
door. Why are they dumb enough to land and unload and get 
caught?
    Mr. Copp. We've seen air drops from helicopters. We've seen 
them have cargo nets on the bottom. They actually hover over 
the trees and drop them into the forest. The area is so remote 
that you can land out there without someone watching you.
    The reason we've been able to find these guys is through 
the excruciating work that's done and the intelligence that we 
have and tracking them through the landing sites that they are 
no longer using.
    Mr. Rehberg. Is it mostly the technology that is available 
through the Border Patrol that's giving you that opportunity? 
Or, does the Homeland Security have the unique sensors and 
human assets different from--I guess, I want to ask the same 
question we asked Ms. Kimbell about the MOU and a level of 
cooperation. Because one of the things that drove us crazy 
about September 11th was the lack of communication, and so I 
guess I'd like to have you dwell a little bit on the joint or 
combined technology, shared resources and kind of give me a 
sense of how it's done.
    Mr. Copp. We aren't getting too far on our leads and 
technique and stuff we use. A lot of it is just paper driven, 
tracking them through the paper, where they're living, renting 
certain platforms. We can identify the subjects, and then 
through surveillance we're tracking the subjects as they go to 
the national borders.
    Mr. Rehberg. One last question, the same question I asked 
Ms. Kimbell. You being the new entity, is there something that 
you could suggest Congress has not provided to you that we 
ought to be looking at, specifically--other than the guest 
worker program of course--within the bill that we'll be passing 
specific to Federal lands and law enforcement?
    Mr. Copp. One thing that we've seen from our combined 
authorities is that we're able to build a lot more complex 
investigations. That is tasking the U.S. Attorney's office. 
They don't have the personnel to prosecute the number of cases 
that we're taking to them.
    One thing I would suggest, maybe, to add either special 
United States Attorneys that are assigned to us to prosecute 
our cases for us or give them more personnel to prosecute 
cases.
    Mr. Rehberg. Thank you.
    Mr. Tancredo. Thank you, Mr. Rehberg. I must admit to you 
that I would love to see more people assigned to the U.S. 
Prosecutors' Office, and I would love to see the intention of 
the U.S. Attorney in this region to actually devote time and 
attention and resources to this thing.
    I also have to tell you that, although when we have formal 
hearings and representatives of the various organizations are 
giving testimony, we have heard over and over again that there 
is, as you've said, a great deal of cooperation. This 
cooperation among agencies is working well.
    But I have to also be candid with you that the minute you 
move out of this room and begin talking to people who are in 
the field and they are doing so--and people who are asking that 
their names not be used and that they not have to say any of 
this in public because they are frightened of losing their 
jobs, they will tell you the exact opposite. I'm sure you've 
heard these kinds of things, generating up from the ranks, and 
that is that this cooperation doesn't really exist yet. And 
Legacy, Customs and other parts of the group, the 22 agencies 
that we tried to put together really have not found a way to 
overcome the problems that we hoped they would be able to 
overcome early on.
    So I guess more than anything--I'm just telling you more 
than asking you--I'm just telling you what happens every time I 
walk away from one of these hearings. The e-mails start, calls 
from folks saying, I know they told you they're getting all 
this cooperation, but it's not--down here it's not happening.
    Some of that's natural. They're not seeing it at the same 
level naturally, and maybe where they are, they just don't see 
the big picture or whatever. But I'm just telling you, there's 
an awful lot of frustration, an enormous amount of frustration 
in the various agencies that comes through indirect paths to 
certainly my office, and you must be aware of it. Again, it's a 
comment more than a question.
    I wonder, could you tell me in terms of the actual amount 
of contraband whether we're talking drugs or when I--my 
Canadian counterparts they are always complaining about the 
amount of arms that are flowing into Canada from the United 
States, that's their big thing.
    I read in some of the briefing papers here that cocaine is 
actually--more of that is moving south to north than north to 
south. Do you find that part of the problem here, at least in 
this area, the actual movement of arms, shipment of arms from 
the United States into Canada, clandestinely?
    Mr. Copp. I haven't seen a large number of arms going into 
the United States, and we don't have any going into Canada. We 
did not received any intelligence from the outfits that we're 
working with concerning that. We did find some arms that they 
were taking back and forth with FROZEN TIMBER, but most of that 
was a personal-use arm. It wasn't large quantities of military 
weapons.
    Mr. Tancredo. I think that is perhaps more happening over 
on the eastern side around Detroit, Michigan, at least that's 
where we hear about it a lot, this movement of arms. I just 
wondered if any of that has gotten out here.
    A question really to both you and Ms. Kimbell: The other 
thing that I have heard about recently is the tremendous amount 
of marijuana that's being grown in our forests. I don't know if 
the conditions are appropriate or right up here for much of it 
to grow in the national forests. But the fact is that there are 
not only ten national forests that have been identified where 
marijuana growth is occurring in huge amounts. I mean, huge, 
I'm talking about thousands of tons of it being harvested every 
year.
    And not just is the harvesting going on, not just the 
growth inside our national parks going on and national forests 
but that people are stationed there to protect the crop, and 
they are often there with arms that are sophisticated with 
remote control, with radio communications that are, again, very 
sophisticated. And it's a very dangerous environment especially 
for some of the people in the Forest Services and Border 
Patrol. Can you comment on that?
    Ms. Kimbell. This has been a tremendous issue for a number 
of years in California and Oregon and, in fact, has moved 
north. We are blessed with a fabulous growing season here in 
Idaho and Montana and with plentiful water in very many places. 
Yes, we've seen an increase in the cultivation of. We've not 
yet experienced the same kind of drug cartel involvement that 
we see in California. We believe it to be right behind it.
    Mr. Copp. Most of the stuff that we're seeing is actually 
B.C. Bud, which is grown in Canada and transported across.
    Mr. Tancredo. Again, a little aside, the two-week exercise 
I was telling you about, one evening a member of the Royal 
Canadian Mounted Patrol was chasing someone with a load of B.C. 
Bud into the United States and purposely called ahead. They 
called the Border Patrol station where I happened to be and 
said, look, we're chasing this guy.
    The understanding was, by the way, that they would let him 
go to get into the United States because they knew if they 
caught him on the Canadian side, they stopped him on the 
Canadian side, there would be no prosecution. So they just let 
us know they were going to chase him down into the United 
States so we could catch him.
    Mr. Tancredo. Mr. Harris, please.

             STATEMENT OF ROBERT L. HARRIS, CHIEF, 
         CUSTOMS AND BORDER PATROL, SPOKANE, WASHINGTON

    Mr. Harris. Congressman Tancredo, Congressman Rehberg and 
other distinguished members of the Committee on Resources, on 
behalf of the men and women of the U.S. Border Patrol and 
Customs and Border Protection I want to extend our appreciation 
to the Members of Congress for your supported in working with 
us to secure our national borders. My name is Robert L. Harris. 
I am the Chief Patrol Agent of the Border Patrol, Spokane 
Sector.
    The Spokane Sector's area of responsibility includes the 
308 miles of international border with Canada from the Cascade 
Mountains in Eastern Washington all of Idaho and Western 
Montana to the continental divide in Glacier National Park, 
that area of responsibility depicted on the upper map 
(indicating).
    Approximately 236 miles of our area of responsibility 
includes Federal lands along the international boundary, which 
is depicted in the map sitting on the floor. Our priority 
mission is to prevent the entry of terrorists and terrorist 
weapons from entering the United States between official ports 
of entry. In addition, we continue to carry out our traditional 
mission of arresting illegal aliens, smugglers, narcotics and 
other illicit contraband being smuggled across the remote areas 
of our border.
    Over the past five years, the agents of the Spokane Sector 
have arrested 3,704 illegal aliens from 39 different countries 
and seized over 18,000 pounds of illicit narcotics. Due to the 
large expanses of border, the remote areas, rugged terrain and 
different operational challenges from the U.S./Mexico border, 
we greatly depend on a relationship with border residents, the 
U.S. Attorney's offices and other state, Federal, local and 
tribal law enforcement agencies, both on the U.S. and Canadian 
side to carry out our border security mission.
    The following are some of the initiatives we have 
implemented in the Spokane Sector over this past year to 
enhance our relationships with border residents and expand our 
working relationships with area law enforcement. We have 
graduated over 100 border residents from seven citizen 
academies to educate the public about the Border Patrol mission 
and how to report suspicious activity near the border.
    We have established an awards program to formally recognize 
citizens and law enforcement officers who report suspicious 
activity that results in an arrest or seizure. We have 
implemented a 1-800 outreach and border signage program to 
encourage reporting of suspicious activity near the border.
    We have expanded our canine operations from one team to 
fifteen teams sector wide. All of our canine teams have dual 
detection, both narcotics and human capability as well as 
tracking capabilities.
    We have expanded our horse patrol operations sectorwide to 
all seven stations to allow access to remote areas while being 
sensitive to the environment on Federal lands. And we have 
established a Border Patrol Youth Explorer Program to get 
community involvement and interest in border security.
    In addition to these specific initiatives, the Border 
Patrol also is a primary participant in the U.S./Canada 
integrated border enforcement, or IBET teams, that now span 15 
locations across the U.S./Canada border. The IBET teams consist 
of both U.S. and Canada law enforcement with a specific focus 
on border security.
    Also, the Spokane Sector, like all Border Patrol sectors, 
has established a public lands liaison agent. The liaison agent 
is a Border Patrol agent position that is specifically assigned 
to enhance interaction and working relationships between the 
Border Patrol and land management agencies.
    The responsibility of the liaison agent focuses on 
implementation of specific portions of a recently signed MOU 
between the Department of Homeland Security, Interior and 
Agriculture on national security and counter-terrorism 
initiatives on Federal lands along the international border.
    To secure our borders, whether on Federal lands or 
otherwise, we need to deploy the proper balance of personnel, 
equipment, technology and border infrastructure to meet the 
different operational challenges of the border environment. 
Whether it is a smuggler on foot, in a car, on a horse, a 
snowmobile or low-flying aircraft we must establish the 
capability to detect, respond and interdict illegal, cross-
border incursions before they reach the interior of the United 
States.
    Nationally, the Border Patrol is attached with a very 
complex sensitive and difficult job, which historically has 
presented mixed challenges. Homeland security has become a top 
priority. The Border Patrol is proud to be the front line of 
defense for the very important mission.
    The challenge is huge but one which we face every day with 
vigilance, dedication to service and integrity. I want to thank 
you both and the Committee for the opportunity to present this 
testimony today. I will be please to respond to any questions 
you may have.
    [The prepared statement of Mr. Harris follows:]

 Statement of Robert Harris, Chief Patrol Agent, Spokane Sector, U.S. 
     Customs and Border Protection, Department of Homeland Security

    Chairman Pombo, Ranking Member Rahall, and other distinguished 
Members of the Committee, it is a privilege and an honor to appear 
before you today to discuss our latest efforts along the border, which 
include the critical role border security on Federal lands has in 
assisting the Department of Homeland Security (DHS), and especially 
U.S. Customs and Border Protection (CBP), in our mission of securing 
our Nation's borders.
    The Spokane Sector's area of responsibility includes 308 miles of 
international border with Canada, from the Cascade Mountains in Eastern 
Washington, all of Idaho, and Western Montana to the Continental 
Divide. Approximately 236 miles of our area of responsibility includes 
Federal Lands along the international boundary.
    Our priority mission is to prevent the entry of terrorists and 
terrorist weapons from entering the United States between official 
ports of entry. In addition, we continue to carry out our traditional 
mission of arresting illegal aliens, smugglers, narcotics, and other 
illicit contraband being smuggled across the remote areas of our 
border. Over the past 5 years the agents of the Spokane Sector have 
arrested 3,704 illegal aliens from 39 different countries, and seized 
over 18,055 pounds of illicit narcotics.
    Due to the large expanses of border, the remote areas, rugged 
terrain, and different operational challenges from the U.S./Mexico 
border, we greatly depend on our relationships with border residents, 
and other state, federal, local, and tribal law enforcement agencies, 
both U.S. and Canada, to carry out our border security mission.
    Also, the Spokane Sector, like all Border Patrol Sectors, has 
established a Public Lands Liaison Agent (PLLA). The PLLA is a Border 
Patrol Agent position that is specifically assigned to enhance 
interaction and working relationships between the Border Patrol and 
land management agencies. The responsibility of the Liaison Agent 
focuses on implementation of specific portions of a recently signed MOU 
between the Departments of Homeland Security, Interior, and Agriculture 
on national security and counter-terrorism initiatives on federal lands 
along the international borders.
    In addition to this specific initiative, the Border Patrol is also 
a primary participant in the U.S./Canada Integrated Border Enforcement 
Teams (IBET) that now spans 15 locations across the border. The IBET 
teams consist of both U.S. and Canada law enforcement with a specific 
focus on border security.
    Our immigration system is broken. Every day, thousands of people 
try to enter our country illegally. Most of these people are coming to 
America to work and provide a better life for their families. After 
all, in their home countries, they make only a fraction of what they 
could make in the United States. Our strong economy creates the demand 
for these workers, places tremendous pressure at the border, and makes 
our job of securing the border very difficult.
    To most effectively secure our border, we must reform our 
immigration system to relieve this pressure. We need comprehensive 
immigration reform that provides additional resources for border 
security, establishes a robust interior enforcement program, creates a 
temporary worker program, and addresses the problem of the estimated 11 
to 12 million illegal immigrants already in the country.
    We are taking significant steps to secure the border--more than any 
other time in our history. Since 2001, funding for border security has 
increased by 66 percent. DHS, working in conjunction with its Federal 
partners, has apprehended and sent home more than 6 million illegal 
aliens. On May 15, President Bush announced his plan to increase the 
number of CBP Border Patrol agents by 6,000 by the end of 2008. This 
will bring the total number of Border Patrol agents to over 18,000, 
doubling the number of agents since the President took office in 2001. 
These additional agents will serve as a tremendous resource and will go 
a long way in helping us secure the border.
    As an interim measure, until CBP can hire and train these 
additional Border Patrol agents, the President ordered the Secretary of 
Defense to work with our Nation's Governors to deploy up to 6,000 
National Guard soldiers to the Southwest Border. Since the President's 
Oval Office address, DHS and CBP have worked closely with the 
Department of Defense and National Guard Bureau to get these soldiers 
integrated in our efforts to secure the border. We are calling this 
mission Operation Jump Start.
    These troops are making a difference. Over the last several weeks, 
the National Guard, working in their support capacity, has assisted in 
reducing illegal activity across the Southwest border. Even if this 
infusion were not occurring, there would be hundreds of National Guard 
troops assisting DHS in our counter-narcotics mission. The Guard troops 
have also allowed us to move over 360 Border Patrol agents from the 
back offices, where they were performing essential support functions 
and logistics jobs, to the front lines. These agents are now working 
every day on the border to detect and apprehend illegal aliens, and 
seize narcotics and other contraband.
    The National Guard soldiers currently are, or will be, supporting 
the Border Patrol with logistical and administrative support, operating 
detection systems, providing mobile communications, augmenting border-
related intelligence analysis efforts, building and installing border 
security infrastructure, and providing training. However, law 
enforcement along the border between the ports of entry will remain the 
responsibility of Border Patrol agents. The National Guard will play no 
direct law enforcement role in the apprehension, custodial care, or 
security of those who are detained. With the National Guard providing 
surveillance and logistical support, Border Patrol agents are free to 
concentrate on law enforcement functions of border enforcement. The 
National Guard engineering and technology support of tactical 
infrastructure has been a tremendous force-multiplier, expanding the 
enforcement capacity of the Border Patrol while freeing up additional 
agents who were performing some of these support tasks.
    The Border Patrol has a history of nearly two decades working with 
National Guard and Reserve units to leverage their unique expertise, 
workforce, technology, and assets, in support of our mission and as a 
force-multiplier. We're proud to work shoulder-to-shoulder with our 
National Guard colleagues. They have given us a tremendous jumpstart on 
our overarching plan to secure the border--the Secure Border Initiative 
(SBI).
    As I mentioned earlier, National Guard support will be an 
immediate, short-term measure that allows DHS to increase our 
deterrence and border security capabilities, while DHS trains 
additional Border Patrol agents and implements SBI which is a broad, 
multi-year initiative that looks at all aspects of the problem across 
the board--deterrence, detection, apprehension, detention, and removal. 
SBI, as envisioned by the Secretary and Commissioner, addresses the 
challenges we face with integrating the correct mix of increased 
staffing, greater investment in detection technology and 
infrastructure, and enhanced coordination with our partners at the 
Federal, state, local, and international levels for every segment of 
our Nation's borders. CBP Border Patrol's component of SBI, named 
SBInet, will integrate multiple state-of-the-art systems and 
traditional security infrastructure into a single comprehensive border 
security suite for the department. Under SBI, DHS wants to create a 
common operating picture for agents, via the use of integrated sensors 
and other interoperable technologies and systems. The technologies will 
help agents detect, identify and respond to illegal activities.
    There is no stretch of border in the United States that can be 
considered completely inaccessible or lacking in the potential to 
provide an entry point for a terrorist or terrorist weapon. Stretches 
of border that in the past were thought to be impenetrable, or at least 
highly unlikely locations for entry into the United States, have in 
recent years, become active illegal entry corridors as other routes 
have been made less accessible to smugglers. We must consider all 
available information, including the vulnerability of our Nation's 
borders, when determining future infrastructure requirements and asset 
deployments.
    SBI undertakes an integrated approach to the continuum of border 
security and future deployments of personnel, infrastructure and 
technology. The deployment of the various components will be risk 
based, considering, for example, current intelligence, operational 
environment and field commander's requirements. Under this approach, 
one portion of the border may require more technology in relation to 
personnel, while another portion may require more tactical 
infrastructure improvements than either personnel or technology. SBI 
will not be a ``one-size-fits all'' deployment.
    One part of SBI, is the placement of Tactical Infrastructure (TI), 
such as fencing, vehicle barriers, high intensity lighting, and road 
improvements. These infrastructure elements act as a force multiplier, 
helping agents to secure the border, with speed and flexibility of 
personnel redeployment made possible by shortened response times. TI 
elements are critical for the U.S. Border Patrol to achieve the proper 
balance between personnel, technology, and border infrastructure. But, 
TI alone will not secure the border.
    We recognize the challenges that lie ahead. Our goal is nothing 
less than to gain, maintain, and expand operational control of our 
Nation's borders through the right mix of personnel, technology, and 
tactical infrastructure. The assistance of the National Guard and our 
Federal, state, local, and tribal law enforcement partners, will 
greatly enhance our ability to effectively and efficiently protect our 
Nation's borders.
    The men and women of U.S. Customs and Border Protection face these 
challenges every day with vigilance, dedication to service, and 
integrity, as we work to strengthen national security and protect 
America and its citizens. I would like to thank you for the opportunity 
to present this testimony today. I look forward to responding to any 
questions that you might have.
                                 ______
                                 
    Mr. Tancredo. Thank you, Mr. Harris. There are quite a few 
from me. First of all, you talked about the need to have some 
sort of cooperation with the tribal governments in order to 
fulfill your mission. How much cooperation is forthcoming?
    Mr. Harris. I'll tell you, historically, the Border Patrol 
has--we coordinated the first two U.S. Border Security 
Conferences with tribal authorities along both the U.S./Mexico 
border and the Canadian border. We just recently hosted one of 
those conferences in Cornwall, Canada that included tribal 
representative from across the U.S. and Canada border.
    In addition to that, this law enforcement officers reward 
program that I just mentioned to you, we just presented awards 
to 15 members of the Colville Tribe reservation for their 
support, participation and interdiction of a couple of aircraft 
and seizure of narcotics across the U.S./Canada border.
    Mr. Tancredo. Let me put the question another way to you: 
What are the biggest problems we have with tribal governments 
in getting them to cooperate with our interdiction program?
    Mr. Harris. I think we have a very good working 
relationship with the tribal governments, very--primarily the 
concern that I hear from the tribal governments is the 
difficulty they have in obtaining grants. There's something 
about the grant process. I'm not overly familiar with it, but 
that is their primary concern.
    Mr. Tancredo. One of the reasons I ask you is because we 
had actually requested either participation or testimony from 
one of the tribes up here and were not able to obtain it for 
reasons I think have--well, I guess I should just end it there. 
We were not able to obtain it.
    In your statement and testimony you talk about the 
importance of the collaboration of Canada and other Federal 
agencies. In addition to this, what are the most effective 
tactical infrastructure means for securing the northern border?
    Mr. Harris. I'm just going to stay specific to my area, 
Congressman, if that's OK.
    Mr. Tancredo. That's just big enough. How are you going to 
secure that?
    Mr. Harris. About 261 miles of our 308 miles of territory 
is on Federal lands, some wilderness area. We don't think we 
need border barriers or a road network up in these wilderness 
areas that would destroy this type of environment for everybody 
and, also, possibly serve as a facilitating mechanism for 
smuggling if we were to build roads in these areas.
    We just need to have access to the border through pack 
trails or maybe changing a Kelly hump in a Federal land area, 
removing a gate, putting a lock on it, things like that. That's 
why we have this excellent working relationship with the 
Department of Interior and Agriculture so that we can work out 
those issues among ourselves.
    But I don't think--it's a different operational challenge, 
as both of you well know, the U.S./Mexico border. We need a 
different type of approach, techniques and infrastructure up 
here on the U.S./Canada border to address those.
    Mr. Tancredo. It does seem to me to be unique in that 
respect. We have problems that we can confront up here that are 
unique, and you've identified we've got the wilderness area, 
first of all to which it is very difficult to get our folks on 
motorized vehicles. But, of course, because that's the case, 
you have this great, wonderful opportunity for anybody who 
wants to smuggle something into this country, both human or 
goods, and that is in a wilderness area, because it's hard for 
you to get there.
    They're smuggling, believe me--I guarantee on the southern 
border and thank God not yet up here--but the southern border 
has caused enormous damage to the wilderness area, because 
everybody knows that's the place we're not going to be 
watching. We can't get there. The horses----
    Do you have to actually--I just heard about the other day 
on the southern border--it is the same up here? You have to 
actually quarantine your horses for a couple of weekends before 
you take them?
    Mr. Harris. Not necessarily quarantine, it's special types 
of feed. It has not presented an operational challenge for us. 
But the key to northern border security is technology, 
relationships and intelligence to direct our enforcement 
efforts, just because we don't have the volume of illegal 
border incursions that we have along the U.S./Mexico border. So 
we need to rely on technology and intelligence to direct our 
enforcement efforts to the right place.
    Mr. Tancredo. I would certainly agree. I will tell you, 
however, I think also some sort of barrier that can both be 
erected without degrading the land and allow for maybe the 
movement of species in certain areas, that's required. I think 
it can also be helpful in that regard and this is a fairly low-
tech device.
    In terms of the high-tech devices that you're talking 
about, what is the ability of the Border Patrol--because, 
again, I've heard conflicting stories about this--but from your 
point of view, what is your ability to actually use the 
equipment that we have available to us even today? Some of this 
stuff is very sophisticated. Some of it is, of course, used 
primarily by the military. And one of the reasons why I have 
always encouraged use of the military on the border is because 
they could bring with them not just the technologies but the 
way to use it most effectively. Are you working with any part 
of the military to actually gain that kind of expertise?
    Mr. Harris. I'll go back to the operation. It was Operation 
Outlook that we concluded at the end of July. It was a 30-day 
operation with forces of the active duty military and with the 
Nation Guard. What they did for us was they brought some radar 
and sensor platforms up to the area that allowed us to, in a 
small geographic area, allowed us to be able to monitor cross-
border air penetration below the 500-foot level for a 30-day 
period of time, which is the prior threat that I believe that 
we have facing our area of responsibility right now, is this 
intersmuggling.
    Mr. Tancredo. How about UAVs?
    Mr. Harris. UAVs, I'm not that familiar with what type of 
technology is on UAVs, not having worked in a sector that had 
one of those. If they will--if the UAV has the type of sensor 
platforms that would allow us to be able to detect cross-border 
incursions below the 500-foot level, yes, we could use that 
type of technology.
    Mr. Tancredo. I guarantee you they can and do. They're 
really quite incredible. As I say, the stuff that I observed 
was 1991 vintage technology, and we're now ten generations past 
that. I'm hoping that will be in place here very soon. Thank 
you. Mr. Rehberg.
    Mr. Rehberg. Thank you, Mr. Chairman. Let me begin by 
thanking you. I have the utmost respect for the Border Patrol 
and really appreciate the work you do, had a great working 
relationship with your organization and respect, especially, 
the daily activities along the southern border is incredible. I 
know you all have to do your time along the southern border 
before you get a chance to come up north to God's country.
    I alluded to it earlier about my perhaps first 
misunderstanding or chastising the Border Patrol along the 
border, suggesting, hey, why don't you get on Amtrak. We know 
there are people that are riding that train. The answer that I 
was given was the right answer. That is, when you're not on the 
border, then you're not watching the border and more people get 
across the border.
    First of all, I'd like to ask the question: How far south 
are you able to come or have you come to arrest people that are 
perceived to be terrorists?
    Mr. Harris. Let me answer that in two quick parts: One is, 
we're not precluded from operating at what we call 
transportation hubs. If there's a transportation hub, whether 
it be an airport, whether it be an Amtrak station and that 
transportation hub is being used as a route of ingress or 
egress from the border, we can put Border Patrol agents there.
    For example, I did have an agent full-time in the Kalispell 
airport, but the apprehension statistics did not support 
dedication of that type of personnel there because we were not 
catching any recent entry illegal aliens. So that answered the 
first part.
    The second part is I do not define how far my agents can 
respond away from the border.
    Mr. Rehberg. How far have they--have they gone down into 
the Grand Teton, as far south as--I'm trying to visualize where 
your area goes.
    Mr. Harris. I'm going to say if you take, for example, 
Whitefish Station and a law enforcement officer called from 
Hamilton. He said, hey, I have a suspected illegal alien here. 
Can you respond to that? I'm probably not going to--I'm going 
to view that as the responsibility of a different component of 
Homeland Security.
    At any given time across that 308 miles in order to run a 
7/24 operation, I'll have about 15 agents covering about 308 
miles. So does it make sense for me to pull an agent off of the 
line and bring him down that far to the interior?
    But anywhere in the immediate border community, Whitefish, 
Kalispell, any of those towns where our agents live and operate 
on a normal daily basis, if another law enforcement officer 
called for support, we're going to back him up. If we've got 
somebody available, we're going to respond to that call.
    Mr. Rehberg. Two weeks ago I was on a trade mission to both 
Korea and China, and I've now viewed the human trafficking from 
both directions. I'm on the appropriations subcommittee that 
deals with foreign affairs and foreign operations, and the 
human trafficking is one of our areas of expertise and 
responsibility. Could you talk really quickly about how the 
human trafficking occurs on Federal properties between the 
Sweetgrass Hills and your area of responsibility.
    I can see how they get people across the border to the 
south, because they--it's sophisticated in bringing workers 
across. As far as the prostitution stuff, I don't get it.
    Mr. Harris. If you look at our farthest west station, which 
is Oroville and move east from there, the level of activity in 
Oroville is higher than it is anywhere else. As you move over 
toward Whitefish, the level of human activity is lower, not to 
say there's not stuff going on there. But in terms of activity, 
it's more busy farthest to the west, and that is because we 
have increased enforcement capabilities in the area. 
Consequently, some of that smuggling is now coming up into our 
area, and the biggest nationality that we arrest there are 
Korean, South Koreans. It's my understanding it's because 
they're going to be used for prostitution, indentured servitude 
and things of that nature.
    Mr. Rehberg. The second part of my question: Is it as a 
result of a difference--maybe you can't answer this, maybe you 
can--maybe you can, Mr. Copp--difference in the laws of amnesty 
and visas as it relates to China and Korea to Canada versus the 
United States and is there a problem with the laws between the 
two different countries?
    Mr. Harris. Definitely, I think there's a nexus, no 
question about it, that laws in Canada do somewhat facilitate 
people coming into the United States illegally.
    Mr. Copp. I would agree with that, Mr. Harris. I think 
there's a nexus there. Once they get into the Canada, it makes 
it a lot easier to move south from Canada with the laws on the 
Canadian side.
    Mr. Rehberg. So there would be something that we should be 
doing legislatively in Congress to address the Canadian/United 
States Memorandum of Understanding, or is that something that 
you might be able to do from an administrative standpoint?
    Mr. Copp. We work hand in hand with RCMP up there as far as 
identifying groups of people moving south. The problem is not 
that. The problem is getting into Canada from Korea and they're 
able to get a foothold here makes it easier to smuggle.
    Mr. Rehberg. Once they get into Canada, the ones that 
you're catching in Oroville or even in Montana--because what I 
heard from Montana was--the U.S. Marshal and the District Court 
Judges we have all of them--they said that was one of their 
main problems, within Montana and the District Court system of 
Montana, the Korean prostitution issue, human trafficking. How 
are they getting them across? The ones that you caught, how are 
you catching them?
    Mr. Copp. They're being smuggled across.
    Mr. Rehberg. Do they use buses and cars?
    Mr. Copp. On foot, but they generally won't stray too far 
from a populated area. They'll stage on the north side of the 
border and then walk around near a port of entry and try to 
load up on the other side of the border.
    But the issue of the visas is a political issue. I mean, 
Canadian law enforcement, RCMP, they understand the issue very 
well. It's not a law enforcement issue. It impacts law 
enforcement, but it's a political issue.
    Mr. Rehberg. A political issue in the Federal system of 
Canada not necessarily Alberta, British Columbia?
    Mr. Copp. Correct, yes. But all the smuggling that we've 
apprehended is in a car or on foot crossing the border 
illegally.
    Mr. Rehberg. I might point out the first airplane I bought 
was a confiscated drug dealer airplane by the U.S. Marshal. He 
got caught before he got back to the airplane and snuck out.
    Mr. Tancredo. The Border Patrol took me through Coronado 
National Forest and put me on a horse. It was a horse that had 
belonged to a smuggler. They didn't tell me that when a 
helicopter approached, sounds of a helicopter, the horse went 
down. It had been trained, and I didn't know about it. It was 
an interesting and wild ride.
    The issue with regard to the Canadian American border 
problem we have and the relationship we have, it is true, I 
said only half jokingly, I think it was on Canada television, 
there was quite an interesting response when I said Osama Bin 
Laden could shave off his beard, fly to Ontario, get out and 
call himself Omar the Tent Maker and say that he's a refugee. 
If you use that word, say the word ``refugee,'' you get bucks. 
They tell you to walk and you can come back within six months 
or something.
    We have--it's hard for us to throw stones, by the way. Our 
system isn't that great in terms of who we--how clearly we can 
identify illegal immigrants. But there is, of course, in trying 
to work toward the--by the end of the year having all air and 
sea ports, anyway, have the equipment in place, and have us 
able to use passports now for everybody coming into the United 
States through those areas through Canada and Mexico. And then 
by 2007 for all of our land, sea and airports, a passport.
    The Canadians are very upset about this. Every time I 
meet--as I told you earlier, the Canadian counterparts all we 
do is argue. For years all we did was argue about softwood 
lumber, and now all we do is argue about whether or not these 
passports can be implemented, should be implemented. They are 
against it for the most part.
    There is support in Congress, especially in the Senate, to 
postpone it, and I hope that some of our testimony that we 
gather here today that we can forestall that postponement and 
do away with it and get this implemented as soon as possible.
    Mr. Rehberg. I'd like to ask Mr. Harris another question, 
and that is: Are you aware of the kind of people or 
organizations that are doing smuggling and is it a Korea Mafia, 
organized crime in America. Who is organizing it?
    Mr. Tancredo. Along with that can you give us any 
information as to how many people you are interdicting that are 
from countries of interest?
    Mr. Harris. I can get that information for you on the last 
part. I don't have it here with me. I'll get that to you. As 
far as the first question, if I could, I'll defer to Mr. Copp, 
the ICE represent to answer that question.
    Mr. Copp. We know these aren't ad hoc smuggling groups that 
are coming across. These are organized groups that are--there 
are predetermined places these prostitutes go to, so we know 
it's an organized group. We know that the smuggling groups 
they're smuggling marijuana from Canada are organized groups. 
We know which groups are controlling the majority of the 
smuggling.
    Mr. Rehberg. Are they international groups, national groups 
or just----
    Mr. Copp. They're international groups, because they're 
moving people from the Orient to Canada to the United States. 
There's connections all the way through.
    Mr. Rehberg. You're also seeing Mexican organized crime in 
Canada coming into Montana, cartels?
    Mr. Copp. They're trying to. If I could, I'd like to get 
back to you on that question.
    Mr. Tancredo. All right. Thank you. Do you have a station 
in Havre?
    Mr. Harris. There's sector there. It's not in my area. 
There is a sector called the Havre Sector.
    Mr. Tancredo. About maybe two years ago I was up there. I 
got their information. A number of people coming across up 
there that they had interdicted who were from ``countries of 
interest,'' was significant and it was quite startling. You 
know, Havre, Montana, a relatively small station, and yet it 
was several thousand that had been through there had been 
interdicted, and about 600--I'm now stretching my memory here--
but it was amazing how many were from countries of interest. 
These are countries, by the way, that are state sponsors of 
terrorism or harbor terrorists.
    Mr. Harris. I think in our area it's primarily Canadian, 
illegal Canadians, South Koreans, Indians, Pakistani are the 
largest apprehension numbers. We have seen no evidence of 
Mexican cartels crossing the border. The Mexican criminal 
organizations are operating in some of these communities, 
narcotics trafficking, all types of other criminal activities. 
But I haven't actually seen any in the border area, up in our 
area.
    Mr. Tancredo. Thank you, sir.
    Mr. Tancredo. Wayne.

                STATEMENT OF WAYNE DUSTERHOFF, 
                    SHERIFF, GLACIER COUNTY

    Mr. Dusterhoff. Mr. Chairman and Congressman Rehberg, thank 
you for the opportunity to speak here. My reality is all of 
what you mentioned here. But in Glacier County, I have Glacier 
National Park, the Blackfeet Indian Reservation, and I have 90 
miles of border, which I border with Canada. Of this 6,300 
square miles within Glacier County the major problem or the 
major session that I have is three or four barbed wire fences, 
which covers the whole border.
    There are three ports of entry into the United States, 
which that's not my problem in the half a mile of that. It's 
the other 89.5 miles that's unprotected that I don't have 
anything into.
    The rest of the rural setting in Glacier County, to our 
knowledge, is very minimally detected or has any sensors or 
whatever, at least none that we're aware of. A large segment of 
this thinly manned border is within the Glacier National Park, 
which presents a real problem in high foot traffic, mountain 
biking traffic of recent, ATVs and in the winter time 
snowmobilers coming into and out of the United States.
    Having flown many times on the border within our area in 
helicopters, I can tell you, you can drive up to the border and 
you can see tracks on one side or the other and the fence is 
still there. So they're coming up and pushing the fence down 
and driving off.
    Most of this does present a significant enforcement problem 
particularly with the back country area for us. There is little 
or no presence to deter these people from entering into the 
United States or out of the United States for us. In most 
cases, these persons enter the United States into or out of at 
nighttime, of which we have a group of people that is extremely 
attuned to our operations. Many times when we catch somebody, 
they can tell you our schedules. And they have better 
intelligence than we have.
    Most of those cases these people have access to mobile 
radios, radio scanners, night vision goggles and many other 
items that help them do what they want to do. And most of the 
time they know our schedules as well as we do. Therefore, their 
chances of successful entry into the United States are very 
good, if they choose to do that.
    My office has twelve officers including myself. Two are 
administrative. Two are assigned to the Federal narcotics task 
force, so that leaves me with eight officers to work that 90 
mile stretch and provide assistance to the Federal agencies. 
Inside of this I must do that, provide service to my citizens 
also. I still have that obligation to provide that, but also to 
work closely with our Federal agencies.
    In the 6,300 square miles that we provide responsibility 
to, recently one of the incidents within a Blackfeet 
Reservation we caught people coming across the border on four-
wheelers. They were bringing their narcotics over on four-
wheelers. We ended up in a chase with them were they were 
driving down a road throwing their dope out the window. 
Eventually, we caught them, and that was a 40-pound B.C. Bud 
seizure for us. Prior to that we had an 80-pound seizure of 
B.C. Bud that came in this very same method, only they drove a 
car across the border--or pickup across the border--and we 
chased them and caught them.
    My communication dispatch center will receive numerous 
reports many times after these incidents have occurred, that 
there's people in these areas that shouldn't be there. And 
through the locals that's, basically, the only way that we get 
any assistance, with that knowledge of somebody into or out of 
the United States.
    The fence in our particular area is a local joke. For years 
my wife, who is a Native American, didn't even know there was a 
border because she would cross back and forth. Well, now it has 
become the standing joke. Where do you want to go to, to cross.
    Some of the solutions that are required today are better 
communications within our agencies, better 
decompartmentalization of this information. I've seen memos and 
had memos that come from the Federal agencies that say, do not 
disseminate outside this agency. What good is that intelligence 
to me or my officers that are on the ground trying to find what 
if it's compartmentalized?
    We still don't have the communication ability to talk. I 
recently had a shooting in Glacier County that involved two 
customs agents. We had a horrible time communicating with them 
trying to get to where the location was, who was injured, who 
was shot and various other entities to get assets running to 
assist them.
    Much of what I've heard here, I mean, this amount of time I 
could spend a day or two days talking about it. I would be 
happy to answer any questions that you might have.
    [The prepared statement of Sheriff Dusterhoff follows:]

                Statement of Wayne Dusterhoff, Sheriff, 
           Glacier County Sheriff's Office, Cut Bank, Montana

    Glacier County has approximately ninety (90) miles of border with 
Canada. Glacier County constitutes approximately 6300 square miles of 
this area for law enforcement The border barrier is principally only a 
3-4 barbed wire fence. Within Glacier County there are three (3) Ports 
of Entry into the United States. Glacier County is one of the few 
counties in Montana that has multiple ports of entry into and out of 
the United States. My agency also provides services and assistance to 
the ports of entry when requested.
    One of these ports is only open during the summer tourist months, 
and that is the Chief Mountain Port This port is an access route into 
the United States into Glacier National Park from Canada.
    The second port of entry is the Piegan Port, Babb, Montana, and 
this is considered the main entry port within Glacier County as it is 
open year around and the longest in time opening 0700 am until 2300 or 
(11:00) pro.
    The third port of entry is at Del Bonita, Montana, and this port is 
normally open year around from 0900 a.m. until 1800 (6:00) p.m. This 
port's hours are extended throughout the summer months from 0600 a.m. 
until 2100 (9:00) p.m.
    The rest of the border in our rural setting of Glacier County to 
our knowledge has very minimal border detection capabilities. A large 
segment of the thinly manned border is within Glacier National Park. 
This area presents a great capability for having undetected high foot 
traffic to enter the United States on the back country trails. This 
along with other types of traffic such as, mountain bikes, snowmobiles, 
four-wheeler traffic (which is illegal in its own essence) presents a 
significant enforcement problem. Also with this particular back country 
traffic area there is little or no law enforcement presence for 
deterrence to persons desiring to enter into the United States. In most 
cases these persons often enter or cross the border areas during the 
night times.
    These persons are in most case extremely attuned and knowledgeable 
as to die law enforcement operations within the area. In many cases 
these people have access to Mobil radios, radio scanners, night vision 
goggles, and other items to help them in their entry attempts. Most 
times they know the officers' schedules and routes as well as the 
officers on duty do. Therefore, their chances of a successful entry are 
extremely good if they choose to illegally enter into the United States 
in this area.
    My office has twelve (12) full time officers including me. Two (2) 
of these officers are administrative. Two (2) of these officers are 
assigned to a FBI Federal Narcotics Task Force. That means that I have 
eight (8) officers available for patrol duties, and to maintain our 
local detention facility. These eight (8) officers must cover the 
entire county during their assigned eight (8) hour duty shifts. We also 
have five (5) sworn Reserve Officers who are non-paid and come out to 
assist when they are available. With this manpower I must provide the 
citizens of Glacier County with Public Safety protection 24 hours a 
day, (7) days a week, 365 days a year. What this means is that many 
times there is only one (1) officer on duty during a shift and he must 
be available to respond anywhere within the 6300 square miles of 
Glacier County we are responsible for providing services in. I do not 
have the manpower or resources necessary to provide the increased 
visibility required to deter illegal narcotic or alien traffic along 
the border. In most cases the only way we are advised of illegal entry 
suspects or activity is by local residents who see persons or vehicles 
in areas they are not supposed to be in. We do not get this essential 
information from any electronic sensor notification means.
    My communications dispatch center receives numerous reports, (many 
times after the incident has occurred) that there are or have been 
people and vehicles spotted by the local residents within areas that 
there should not be anyone except the local residents. Much of the 
northern border within our area has only a barbed wire fence to keep 
someone out. This never has, nor will be any type of a determent to 
someone wanting to come into the country illegally for whatever reason. 
This fence is local joke as to where you need to pull it down and cross 
the easiest and fastest, and not get caught.
    NOTE: Attachments to Sheriff Dusterhoff's statement have been 
retained in the Committee's official files.
                                 ______
                                 
                 A SOLUTION WILL REQUIRE THESE THINGS:
    1.  An improved cooperation and information-sharing process. 
Especially concerning those events that are ongoing or that may occur 
in the future within our local tress. This is especially important to 
those situations that impact local law enforcement and response 
agencies. Information many times is still extremely compartmentalized 
within the Federal Agencies with respect to the local law enforcement, 
that we are not informed. It Is principal requirement that we have a 
more effective intelligence communications relationship so that 
everyone is assisting in the ultimate goal of security of every citizen 
in the United States.
    2.  There must be improved Radio Communications of the Federal 
Radio system to be compatible with the local agency radios and radio 
communications centers. This must be improved Radio Interoperability 
Communications that is designed to integrate into the local area needs, 
and not that of Washington D.C., or the federal agencies only. Within 
Montana we have twelve (12) border counties, and four (4) Indian 
Nations who have a Memorandum of Understanding, and arc currently 
involved with the communications project known as: NORTHERN TIER 
INTEROPERABILITY RADIO PROJECT. I am the Project Director for this 
endeavor which to date has been funded primarily through Homeland 
Security funds and some State of Montana funds that is approximately 
$10-12,000.000. This is an essential radio communications project that 
must be completed not only for local response operations, but for 
national border operations as well. Yet, with all this being currently 
done, other Homeland Security agencies still cannot communicate 
effectively with us. A recent example of this is a short time ago in 
Glacier County I had a fatal shooting incident that involved Federal 
Agents. These agents were not able to communicate with us much of the 
time because of radio and communication dispatch inabilities. This 
created a very definite officer and other emergency responder safety 
issue for us to deal with by not having information on what was going 
on or where it was going on at.
    3.  There must be more over flight specifically by aircraft with 
thermal and infrared capabilities by utilizing the resources from the 
National Guard or Federal agencies who have these resources. We 
understand this is forthcoming from the ICE perspective with a 
stationing of aircraft and personnel in Great Falls, MT, in the near 
future. There must be increased availability of funding and resources 
to the local law enforcement so that we can assist in the enormous 
task: at hand of helping to secure the border situation. This funding 
will increase the assets available to local areas to react swiftly to 
any response requests from the flight operations and other essential 
requests. By increased funding to local law enforcement agencies this 
will help accomplish the mandated homeland security tasks, and will 
increase officer and public safety overall. This funding will also 
provide the necessary equipment such as Night Vision Goggles, Infrared 
heat detectors, and other necessary equipment to officers to work the 
border area safely.
    4.  More public and media awareness of law enforcement on the 
Northern Border and how important they are to our Local and National 
Security. We must be proactive and not reactive in nature to events 
that are essential to our citizens' security needs.
    5.  More Homeland Security funds for training the Law Enforcement 
Officers and Radio Communications Dispatchers on local levels on the 
importance of the goals, concerning the importance of properly doing 
the essential security tasks effectively and safely.
    6.  There must be a more concentrated effort to de-compartmentalize 
information and intelligence to the local agencies so that they can 
assist the Federal Agencies and agents, who many times are spread very 
thin within areas so as to be overwhelmed and sometimes ineffectively 
able to cover assignments. Many times they do not have the time to work 
effectively with the local law enforcement officers. In some cases they 
may feel that they do not have to include the local agencies in the 
loop of information.

       A case in point my Undersheriff is a former Immigration officer, 
and many times when he was employed with the Immigration Department at 
the Ports of Entry in Glacier County he would read information and 
intelligence bulletins that stated on the bottom of the paper, ``DO NOT 
DISSEMINATE OUTSIDE THE AGENCY''; What good does this information do to 
a local officer who may come upon this situation and be unaware of what 
is going on? This is a definite safety issue for the local law 
enforcement!
    7.  How can we as the local officer better help the Federal 
agencies accomplish their required missions? We are mote than willing 
to undertake this task as an equal. There must be better interaction of 
all agencies in operations. It must be remembered by Federal Agencies 
that local agencies must work within then limited funding sources to 
also accomplish their required public safety mission to their local 
residents. Better cooperation and interfacing with all agencies will 
increase the necessary and required resources available to work to 
accomplish the essential security missions. More importantly 
cooperation will greatly expand the capabilities of all agencies to 
present a unified action and solution.
    8.  There have been many times in the past that Federal agencies 
have performed enforcement or intelligence operations within our local 
county and surrounding counties without even a consideration call as to 
the nature of the operation. This is a definite safety issue to local 
officers if they come upon an operation and do not know who or what is 
going on. There could be drastic consequences in the outcomes of these 
encounters. The locals must be kept informed what is going on in there 
vicinity; if for nothing else, principal safety concerns. We have had 
operations conducted within our area in the past, and in most cases 
many of the agents involved were not aware of die local routes, the 
area, the people, the assistance, etc. My officers, and other county 
Sheriff's Officers are fully aware of the local area access, people, 
and many times the hidden routes that can be traveled. This input would 
be invaluable if utilized. Again, communications and intelligence 
information sharing will eliminate this problem!
    9.  Place a local Federal Magistrate within our area; at present we 
must transport all federal prisoners 254 miles round trip to Great 
Falls, Montana which is the nearest Federal Magistrate that we must 
work with to have arrested prisoners arraigned for Federal Crimes 
committed within our area. This is especially important to the 
surrounding local governmental entities, and is also very important to 
the Federal agencies as they must also travel this great distance to 
arraign prisoners; which is a drain on manpower, time resources, and 
effectiveness!
                                 ______
                                 
    Mr. Rehberg. First of all, thank you Sheriff for being 
here. We recognize that you've got unique problems in both the 
national park, the reservation, the county and private 
property. I want to ask the question: Do you find that you get 
better information from private property owners about 
activities going across their fences as opposed to--I don't 
know, the land ownership of the reservation on the border, 
whether it's leased property or deeded property along the 
border--where do you get the best information? Can there be an 
argument for human eyes, human watchers, people on the ground? 
And, usually, that's private property owners.
    Mr. Dusterhoff. Very definitely. Our best intelligence 
comes from our local ranchers. I recently had one of our 
ranchers come up and tell me that two guys came to him. Their 
vehicle was stuck in a canal, which is going into Canada. He 
pulled them out, put them in his car. While they finished 
swamping through the acres, they stole his wallet and entered 
into Canada.
    We don't get the intelligence from Federal agencies. It's 
very, very hard for us to get intelligence based upon what we 
need.
    Mr. Rehberg. Have you been able to avail yourself of a 1033 
program, that's the excess Federal----
    Mr. Dusterhoff. Very much. If it wasn't for the 1033, my 
department would be very, very sorry. We use that extensively.
    Mr. Rehberg. Are there other equipment needs that--
certainly, you could get the Cabella's catalog out and----
    Mr. Dusterhoff. If I can get permission to buy it.
    Mr. Rehberg. Are there programs within Homeland Security--
within Homeland Security appropriations there are no earmarks 
that you hear about? Because we take our guidance entirely from 
the Administration as far as what equipment they need. Are 
there grant programs within the Homeland Security that you 
could avail yourself of, equipment that you're aware of?
    Mr. Dusterhoff. No. Most of the Homeland Security money 
that we get goes into the state. And right now I'm also the 
project director for the Northern Tier Radio Interoperability 
Project, which is border counties and four Indian Nations. Most 
of our money that we got was from Homeland Security, which was 
approximately $7 million and the state kicked in 3.5 and we 
rounded up 1.2 million in additional grant fundings for us to 
work on this Interoperable radio communications. Because the 
local sheriffs and the Indian nations understand we have a 
problem with communication. We have a problem with being able 
to talk one-on-one with our individual officers.
    Mr. Rehberg. Are you aware of any equipment opportunities 
that the southern border gets in local law enforcement that the 
northern is either being ignored or slighted or just hasn't 
taken advantage of? Do you belong to the National Association 
of Reserve?
    Mr. Dusterhoff. I have no knowledge other than 1033 
program, surplus military program. We don't have any contact 
with any of the Federal agencies to get us that.
    Mr. Rehberg. It would probably be hard for you to answer 
the question. But legislatively is there anything Congress can 
do to make the Federal agencies better communicate with you? 
Something that Mr. Tancredo was talking about clear back at the 
beginning about we always here about the level of 
communication. And yet when we finally final get on the ground 
and talk to the locals, if there is that level of 
communication--and I'm not aware of it because it certainly 
isn't a two-way street--would it have to be to Memorandum of 
Understanding administratively or regulation or is there 
something Congress can do?
    Mr. Dusterhoff. I don't know how to answer that question, 
because I think that the communications from 9/11 to now we're 
still looking at it doesn't work. Katrina showed we hadn't made 
any progress. And recently my shooting showed that we haven't 
made any progress in communications.
    I'm not aware of Mr. Harris. I know their radio operations 
are run out of a central point. I think it's somewhere in 
Florida. I don't have any idea. But when you can't talk to the 
local agents, and you can't talk to the local Border Patrol 
agents, you have a real problem in many areas that it's a 
safety issue. These guys coming across, they have a purpose. 
They aren't shy about hurting us.
    Mr. Rehberg. The farmer that pulled the guy out of the 
ditch, how long would it have taken one of your officers to 
respond if they had cell service and they called you and said, 
hey, I got a couple of suspects sitting in my ditch?
    Mr. Dusterhoff. It's 47 miles from my dispatch center, so 
it would take--considering it's back country--an hour by the 
time I get there, providing I had an officer available.
    Mr. Rehberg. On paved roads, right?
    Mr. Dusterhoff. You're in the back country.
    Mr. Rehberg. Thank you.
    Mr. Tancredo. Sheriff, there's a group of sheriffs in--your 
colleagues in Texas--that have formed an organization. I don't 
know if you know Sheriff Ziggy--Sheriff Gonzales is the primary 
mover of this organization. And there were 16 border sheriffs. 
I think there are now 19 that have combined their--well, 
really, formed for the purpose of trying to figure out how to 
deal with the situation, which is overwhelming their resources 
and all of their agencies.
    I would really suggest just as it may be of help to you to 
get in contact with him and see whether or not a similar type 
of situation could even develop here, in terms of the other 
counties. Because it's not unique. Your situation isn't unique. 
Other sheriffs have the same problem. And if nothing else, what 
it really did is it brought a lot of pressure on Congress to 
have an organization of sheriffs come in, which they did, and 
say, look, we're overrun. This is a war. We're in an invasion. 
Where is the help from the Federal Government?
    And so I know that that got a lot of attention and also 
perhaps is going to get a lot of resources as a result, just a 
suggestion to you.
    Mr. Dusterhoff. I will look up and see if I can contact Mr. 
Gonzales.
    Mr. Tancredo. Great guy, Ziggy Gonzales. Thank you. Let's 
go ahead. I had some others.
    Mr. Tancredo. But I think what we've got to do is, first of 
all, thank you, Jeremy, for your patience and go ahead and take 
your testimony.

         STATEMENT OF DETECTIVE SERGEANT JEREMY HOUSE, 
               YELLOWSTONE COUNTY DRUG TASK FORCE

    Mr. House. I had a short statement, but I'm going to 
forego. What effects us is what's going down in Billings. The 
border is broken and the system is broken. We are overwhelmed, 
like you said. We're invaded by people bringing drugs in from 
both Mexico and Canada. We've seen a huge increase in the 
epidemic of methamphetamine and the purity of it, sometimes 99 
percent pure.
    B.C. Bud is--anywhere in Billings you want to buy B.C. Bud, 
you can buy it for $5,000 a pound. Another big thing that has 
just come around last year is ecstacy, the pills. They look 
like baby Aspirin. They're pink, bright pink, bright green, 
blue, imprints of Playboy or the Devil on it or something.
    It's being marketed to children, junior high, high school, 
college age kids. This is not being made in Montana. It's not 
being made in Billings or the United States. It's being made in 
European countries and Mexico and brought across to the border 
to our location.
    I know the Border Patrol is doing a great job. Something 
has to be done more. I have 18 officers and agents in my 
office. We average 36 to 40 hours overtime every two weeks to 
control stuff, and we're still overwhelmed. That is all I have 
to say about that, because right now it's frustrating, very 
frustrating.
    [The prepared statement of Mr. House follows:]

                    Statement of Sgt. Jeremy House, 
             Billings Police Department, Billings, Montana

    Sgt. House is a 14 year veteran of the Billings Police Department. 
He has extensive experience in patrol and investigative operations with 
an emphasis on proactive drug investigation and enforcement, having 
initiated and worked to successful conclusion hundreds of drug related 
contacts. He currently supervises the joint City of Billings/County of 
Yellowstone Special Investigations Unit (CCSIU) comprised of 
investigators from the Billings Police Department, Yellowstone County 
Sheriff's Office, and Laurel Police Department. As part of that 
function, he supervises the Big Sky FBI Safe Streets Task Force which 
is geared towards the long term investigation of street gang related 
criminal activity. In addition, Sgt. House supervises the Eastern 
Montana HIDTA Task Force (utilizing team members from CCSIU, ATF, DEA, 
ICE, and MT Dept. of Corrections) which focuses on criminal activity 
related to the trafficking of dangerous drugs with specific emphasis on 
methamphetamine. Finally, under House's direction CCSIU partners with 
the U.S. Marshal's Violent Fugitive Apprehension Task Force. Sgt. House 
has over one thousand hours of specialized law enforcement training, 
with approximately 300 specific to drug investigations.
    The experience of CCSIU related investigations has shown that a 
large number of violent and drug related criminal participants have 
contacts and/or sources of supply that extend well beyond local 
boundaries. In fact, a significant number of high level investigations 
have been shown to cross international boundaries particularly into 
Canada and Mexico. CCSIU investigators have routinely partnered with 
agencies throughout the United States while engaged in multi-
jurisdictional investigations that often have originating sources of 
supply in the countries mentioned. In numerous instances, those means 
of supply have been facilitated by the use of undocumented or illegal 
alien persons.
    During the past several years, members of the Eastern Montana HIDTA 
have had and are currently involved in on-going cases where large 
amounts of methamphetamine and ecstasy have been seized in Montana. 
During the course of the investigations and subsequent prosecutions of 
involved participants it has been learned that sources of supply 
routinely originate in both Canada and Mexico. It has also been 
determined that the methods of transportation often utilized illegal 
aliens.
    Local investigations continue to document cases whereby illegal 
aliens currently residing in the eastern Montana area are actively 
engaged in the trafficking and distribution of controlled substances. 
In fact, in many cases those individuals have established community and 
family ties which allow the ease of transition for additional group 
members to infiltrate the community.
    The eastern Montana area encompasses the Crow and Northern Cheyenne 
Indian Reservations. Drug activity in both reservations is rampant, and 
is generally tied directly to participants identified in other 
investigations as described previously.
                                 ______
                                 
    Mr. Tancredo. Thank you. The people that you actually 
arrest that are either carrying the stuff or selling the stuff 
are these people, to the best of your knowledge, themselves, 
connected with drug cartels or are they the guy who has just 
been smuggled in here to the United States looking for the 
``job'' that no American will do.
    Mr. House. It's both. I have cases--local agents have cases 
that go through Colorado, Oklahoma, through Texas straight to 
the cartel in Mexico. We've been hindered by ICE in 
investigating those cases.
    Mr. Tancredo. Why?
    Mr. House. I'd rather not go into the public forum to tell 
you about that. Mr. Copp and I have had communication on this. 
We've put presentations on before in meetings where some ICE 
representative states it's a good case. Keep on going with it. 
And it's shut down in the Denver region for no reason. They 
have reasons, but it's not being communicated back to me.
    Mr. Tancredo. I would imagine that would make your job very 
frustrating.
    Mr. House. It's very frustrating. I have two ICE agents, I 
should say, that are in my office. Both are afraid that I'm 
here right now testifying because of something coming back down 
on them. The last testimony of one of the agents was, out of 
the blue, he's going to Laredo for 90 days. You figure that one 
out.
    Mr. Tancredo. Mr. Copp, you hear, here now, something 
somebody is courageous enough to actually say in public in 
terms of both this cooperation that is supposed to exist, the 
coordination of efforts that's supposed to exist. I just want 
to tell you, sir, that, frankly, I'm not saying that you don't 
believe that it happens or that it exists. All that I'm telling 
you is what we just heard here, from Mr. House and the Billings 
Police Department, is what I hear almost every day from some 
other agency, sometimes within ICE. They are petrified, of 
course, because they are fearful of losing their job or being 
sent to some place else, probably not a choice assignment.
    Certainly, I'm sure this is something that you've heard 
before. I just want to--I'm not asking you to respond to this. 
I'm not asking you to simply when you go back to tell your 
superiors what you have heard today, what we have been hearing 
for a long time. And this idea that you can just keep coming in 
front of committees and saying everything is OK. All this 
integration of agencies is working. I mean, we still don't have 
the ability for sheriff's departments to talk to the Border 
Patrol.
    I mean, this has been--I can't remember how long we have 
been arguing about this one point, just the actual technology, 
the communications technology. Why we have not been table to 
get over that hump to this point in time is just amazing to me.
    You can see why, I think in listening to Mr. House, you can 
see why local communities and states are saying, we're going to 
have to take this on ourselves because it's just not working. 
You know, I feel for them. We're here from the Federal 
Government. We're supposed to be here to help you, right?
    And it feels like we're not doing what they need. If 
whether there's all of this interagency argument going on and 
agency jealousies and turf battles that are going on, they've 
got to be dealt with or we're going to have much bigger 
problems in the future, and states are going to have to take 
this on in ways we won't like.
    Mr. Rehberg. To carry forward with that same line of 
conversation, sheriff, that's why I brought up the point about 
local watchers. I think you hear it now in Iraq as far as our 
intelligence was decimated over the years because we lost the 
human element at the local level. And you see it with the 
Administration with their appropriations requests eliminating 
the drug task force, or the opportunity or ability to have the 
Burns Grants as we knew them and liked them and what they 
accomplish.
    I hope for those of you who have an involvement with the 
Federal Government--I know you didn't like your agency and you 
want to protect your own funding--but we implore and plead with 
you to recognize and go back and talk to your leadership about 
the desire or the necessity to have local input and local 
communication as well. Because there are those of us at the 
Federal level that haven't lost sight of that and will do 
everything that we can to see that if you don't accept it, 
we'll make you accept it.
    Mr. House, if it's at all possible for you to provide 
information to us, however you want to get it to us--or any of 
the rest of you either in the audience or local law enforcement 
as well--please share that information. We are smart enough to 
figure out how we got it, what to do with it, how sensitive it 
needs to remain. And we are a separate entity from the 
executive branch. I think we take that responsibility very 
seriously as well, and that's why we have Congressional 
hearings and oversight hearings and legislative hearings and 
the opportunity to hear from people recognizing how sensitive 
it is to sometimes highlight or identify some of the problems 
that exist.
    One of the things I guess I want to ask the two of you, 
specifically, because one of the things I try and address as a 
Congressman in Washington is the most vulnerable within our 
society is one of the reasons I asked to be on the Resource 
Committee. It's one of our more vulnerable economic units, our 
Native American population.
    Could you describe a little bit the impact that the border 
porousness of the border and the cartels and drugs are having 
on the Native American population. You probably need to speak 
specifically to Montana, because I can't really ask you to 
address the Navaho Reservation or any of the others. There are 
Congressman that would deal with that. We also have the 
responsibility for Native Americans in the Resources Committee. 
Perhaps, Wayne, you first and the Jeremy.
    Mr. Dusterhoff. In the essence of agriculture, if that was 
to become a tool of terrorism it would decimate my entire 
county. That's essentially all we are is a rural, agricultural 
economy. There was something that came in and impacted and 
right now upon the English economy we have roughly 60 percent 
unemployment. The bulk of our standing is the rancher and the 
farmer. A lot of our Native American ranchers and farmers would 
be essentially wiped out if there was a----
    Mr. Rehberg. Are they seeing within that population the 
brunt of the illegal drug trafficking? Is it stopping at the 
reservation or is it just passing through?
    Mr. Dusterhoff. No. We're a funnel point. Because of the 
limited resources of law enforcement, we're a funnel point. We 
get it into us, and it goes to Havre to Great Falls to Billings 
to Helena.
    Mr. Rehberg. With some usage along the way? Is it settling 
into the Native American population or getting it and asking 
the Native American population to help distribute? Do you find 
some of that?
    Mr. Dusterhoff. We find a lot of it. The bulk of my drug 
task force work--we're on the Federal Narcotic Task Force--for 
instance, in the last six months we've had 24 major cases of 
narcotics within our county. 20 of those have been on the 
Blackfeet Reservation. 2 have been in the City of Cut Bank and 
2 have been in the adjacent county of Toole County.
    Mr. Rehberg. Jeremy, what do you see in Billings? I mean, 
is it----
    Mr. House. We have the Crow Reservation in Yellowstone 
County, bordered by the Cheyenne. In fact, last week the FBI 
started a new Safe Trails Task Force out of Colstrip for the 
two reservations. It's so rampant down there right now.
    My HIDTA Task Force has just receive another $75,000 grant 
for overtime for my officers to go down and support the Federal 
authorities on that task force on the two reservations. We have 
the money. I just don't have the officers now.
    Mr. Rehberg. Are the drugs coming from Canada?
    Mr. House. It's coming from somewhere.
    Mr. Rehberg. You don't know?
    Mr. House. Not Billings, it's not being made in Billings. 
I've had two methamphetamine labs in Yellowstone County in the 
last year. It's not coming from my house. It's not coming from 
yours.
    Mr. Rehberg. Maybe I could ask Mr. Copp. Do you know, 
specifically, the distribution points within your region.
    Mr. Copp. We know a lot of the methamphetamine is coming 
from the Yakima sector over in Washington.
    Mr. Rehberg. And then once in Yakima it's going to the 
major metropolitan areas?
    Mr. Copp. It's spreading east across the country. We know 
there are large manufacturing groups that are working in that 
area. We haven't seen a whole lot of meth coming across the 
Canada border. Most of it is domestic or smuggled from Mexico 
to different parts of the United States and is distributed that 
way.
    Mr. Rehberg. Do you find they're changing from the labs 
being in Mexico or Canada to having to do it even though they 
may get caught?
    Mr. Copp. Just the opposite. Most of it is done in 
superlabs in Mexico. They can produce huge amounts of meth and 
smuggle the end product into the United States.
    Mr. Rehberg. The stuff that's coming in from Canada then is 
up around Vancouver.
    Mr. Copp. Right.
    Mr. Rehberg. And then it's coming into Yakima and going----
    Mr. Copp. Or it's coming in from Mexico to Yakima, because 
there's a large population there they can use to smuggle drugs 
across into the United States and then to the east.
    Mr. House. I'd just like to make it clear, I'm not bashing 
the Federal system or the Federal Government. We are a 
Federally funded task force, and I really appreciate it. But 
it's got to come to the point that, like they said, it's 
superlabs in Mexico. And the ecstacy and B.C. Bud is being 
brought in from Canada. In the last year it's gone up 100 
percent in all areas. Something is not stopping it.
    Mr. Rehberg. We recognize that. You all have a good working 
relationship, and we don't want to get in the middle of that. 
All we try to do is nobody ever comes to us in Congress and 
asks us to fix something that's going right. They ask us to 
work on the things that aren't working as well as they should 
be.
    We look for opportunities because you all know these issues 
better that we do. Again, we don't want to dwell on what's 
going wrong, but we also are charged with trying to fix things 
legislatively that we can. We have a major piece of immigration 
legislation moving forward, whether it's the Senate version or 
the House version or some combination thereof. We are just 
looking for opportunities to hear from you so that we can work 
out the kinks in the armor a little better.
    Mr. Tancredo. The staff asked me to make sure that we get 
one response from you, Ms. Kimbell, with regard to mechanized 
intrusion on the Forest Service lands that you mention in your 
testimony. Would you please, if you could very quickly, give us 
some idea about the best way to prevent that particular 
phenomenon.
    Ms. Kimbell. In fact, the Forest Service is currently going 
through some pretty comprehensive travel management planning 
across the national forests. We do have areas where we 
experience violation of different kinds of mechanized closures. 
We are dealing with that as best we can.
    Again, I have 43 officers across Idaho, Montana and North 
Dakota and together with all the regular employees, with the 
3,000 Forest Service employees in the northern region, we're 
working on identifying those areas most sensible. Actually, I'm 
heading to one today, not on the border, not on the Canadian 
but on the Idaho border, where there has been intrusion.
    So we're putting a great emphasis on the management of 
motorized travel on national forests, not just on the border 
but all national forest system lands.
    Mr. Tancredo. How much of what you have control of can 
actually be--how much would a barrier, especially a vehicle 
barrier, protect?
    Ms. Kimbell. A vehicle barrier, depending on how--if it's 
well located, it can protect quite an expansive area, as was 
discussed earlier in the testimony. With a Memorandum of 
Understanding we are working with the other Federal land 
agencies to change some of those barriers to gates so that law 
enforcement does have a different kind of access, may have 
vehicle access if it's an area where that is warranted.
    Mr. Tancredo. Thank you. Well, I thank you all very much 
for your testimony. It is the time we need to bring this to a 
conclusion. I especially appreciate those of you that I know 
who have had to travel long distances for this. I do believe 
that we have garnered a lot of good information. I believe 
there will be more forthcoming.
    Each one of you--by the way, we appreciate the testimony 
that you provided. Your written testimony will be going in the 
record, and we will use it for review. Congressman Rehberg, do 
you have any last comments?
    Mr. Rehberg. Just a thank you to you again for taking the 
time to travel from Colorado to be a part of this hearing, for 
your interest in the immigration issue, the people of Ravalli 
County for graciously hosting us in your facility and taking 
the time out of your busy schedule to be in the audience.
    There is plenty of opportunity between now and when this 
issue comes up again before the House of Representative and/or 
the Senate or conference committee to have input. Always feel 
free to contact my office. I do have offices in Missoula, Great 
Falls, Billings and Helena. I have two staff members here, 
actually three, one from Washington and two from Montana, both 
from the Missoula Office. Kelly, raise your hand.
    Kelly is housed in the Missoula office. She has cards that 
she will make available to you. If you have comments, I have a 
web page, my e-mail address and toll-free number. You can mail 
it. You can call or you can access us through e-mail.
    Tom Schultz out in the hallway, I saw him walk by. He also 
works in my Missoula office. And, Todd, please raise your hand. 
Todd is in my Washington D.C., office. I never want to be 
charged with not hearing comments, because that is one of the 
things I take very seriously. Please feel free to call me. I'll 
call you back. Write me. I'll write you back.
    If you want another hearing, if you want another meeting 
within Ravalli County or anywhere in Montana, I do continue to 
travel to all 56 counties. I take that charge very seriously. 
To you for having travelled so far, I thank you. Sometimes it 
seems like the questions are a little combative. It's not 
intended to be. It's just trying to get to a solution to many 
of the problems that face our country. We've got some tough 
times ahead, and we'll just meet them head on and hope to solve 
those issues. So I do appreciate each and every one of you. 
Thank you for having responded and being invited. And, again, 
thank you, Tom, for being here.
    Mr. Tancredo. It's a pleasure. I want to thank the staff 
for all they've done to set this up. My only comment beyond 
that is to tell you that I can't leave today without expressing 
my great concern that two officers--two of the Border Patrol 
officers who are presently facing 5 to 20 years in prison for 
assault for what I believe is an act that was required by their 
duty, was part of their duty.
    And for those of you that are not familiar with this, two 
officers were recently arrested and tried because they fired on 
someone who was bringing drugs into this country, coming across 
the southern border. That person went back into Mexico. The 
U.S. Attorney's Office received a complaint from another Border 
Patrol officer about the incident.
    We actually--now, when we talk about the use of resources, 
and we can't get resources to our people here on the line, but 
we have the resources in the U.S. Attorney's Office to go to 
Mexico, to find the guy that had come into this country 
illegally, bring him back under a promise of immunity for that 
crime that he committed, only to find out that he, by the way, 
had come in, subsequently, doing the same thing, bringing drugs 
in. We gave him immunity for that crime if he would testify 
against these two Border Patrolmen. They are now facing 
sentencing, and could get 5 to 20.
    I will tell you I am going to do everything I can. I have 
already written a letter to the Chairman of Homeland Security. 
But I just want you to take this message back to the Border 
Patrol. If anything is going to destroy the morale in that 
agency to an extent greater than has already happened, this 
kind of thing will do it.
    I'm going to ask the Chairman of Homeland Security to have 
an oversight investigation into this. I am going to do whatever 
I can in terms of fund raising for the families of these 
people. I think it's a travesty of justice, and I cannot leave 
here without telling you that I'm absolutely disappointed, 
heartbroken by what has happened there and what must be 
happening to those folks and their families.
    It is not the way to inspire confidence in the Border 
Patrol--the leadership of the Border Patrol. I know the guys on 
the line. They're great people. They work very diligently and 
very hard. But to operate under something like this, from the 
standpoint of this, your superiors, to make sure--as I said at 
some point in time, the morale has got to be lower than a 
snake's belly in the agency when something like this happens. 
At any rate, I couldn't leave this without mentioning my deep 
concern about that particular issue.
    Once again, I want to end on a more positive note, and that 
is to thank you very much for your testimony and say I hope 
this leads to some improvements in the situation on all of your 
fronts, everything that can be done I hope will be done. We 
will do our best back in Washington. Thank you.
    [Whereupon, at 2:50 p.m., the Committee was adjourned.]

                                 <all>

</pre></body></html>
